<html>
<title> - OVERSIGHT HEARING ON REGIONAL HAZE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                   OVERSIGHT HEARING ON REGIONAL HAZE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                     JULY 16, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-100

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources



                      U.S. GOVERNMENT PRINTING OFFICE
 50-377 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 16, 1998.......................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................     2
    Schaffer, Hon. Bob, a Representative in Congress from the 
      State of Colorado, prepared statement of...................     5

Statements of witnesses:
    Joslin, Robert C., Deputy Chief, United States Department of 
      Agriculture, Forest Service................................    63
    Matlick, Don, Director, Smoke Management, Oregon State 
      Department of Forestry.....................................     8
        Prepared statement of....................................    70
    McDougle, Janice, Associate Deputy Chief, State and Private 
      Forestry, U.S. Forest Service, Department of Agriculture, 
      accompanied by Denny Truesdale, Acting Director, Fire and 
      Aviation Management, U.S. Forest Service, Department of 
      Agriculture................................................    22
        Prepared statement of....................................    60
    Omi, Dr. Phil, Director, Western Forest Fire Research Center.     6
        Prepared statement of....................................    47
    Pearson, Dr. Robert L., Project Manager, Radian International     3
        Prepared statement of....................................    44
    Seitz, John, Director of Air Quality Planning and Standards, 
      Environmental Protection Agency............................    20
        Prepared statement of....................................    55
    Walcher, Greg, President, CLUB 20............................    10
        Prepared statement of....................................    52

Additional material supplied:
    Committee Briefing Paper, Regional Haze......................    67
    Finneran, Brian R., ``Oregon PSD Strategy to Address Forest 
      Health Prescribed Burning,'' U.S. Dept. of Agriculture.....    73
    Land Management Considerations in Fire-Adapted Ecosystems....    82



                   OVERSIGHT HEARING ON REGIONAL HAZE

                              ----------                              


                        THURSDAY, JULY 16, 1998

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth [chairman of the Subcommittee] presiding.
    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order.
    The Subcommittee is meeting today to hear testimony on 
regional haze and national forest management. Under rule 4(g) 
of the Committee rules, any oral or opening statements of 
hearings are limited to the chairman and the Ranking Minority 
Member. This allows us to hear from our witnesses sooner and 
helps members keep to their schedules. Therefore, if other 
members have statements, we will admit them into the record.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. Today the Forest and Forest Health 
Subcommittee convenes for an oversight hearing on the 
interrelationship of the forest services fire and vegetation 
management policies and the EPA's proposed regional haze rule. 
This is a very timely and important issue, and I want to thank 
my colleague, Representative Bob Schaffer from Colorado, for 
requesting this hearing. And I do want to say Mr. Schaffer will 
be joining me later at the hearing. We are moving into 
appropriations bills and it is a time in this body when you 
can't always depend on being able to keep to your schedules. So 
I know that Mr. Schaffer will be here just as soon as he can.
    Last September the Resources Committee examined the impacts 
of the Environmental Protection Agency's national ambient air 
quality standards for particulate matter on the Forest 
Service's use of fire as a management tool.
    I, for one, was not convinced by Administrator Browner's 
insistence that EPA's new standards would not have an impact on 
the land management agencies' use of fire or that fire 
emissions would not result in Clean Air Act violations when 
fires burning on Federal lands produce smoke in quantities that 
violated the EPA's requirements for particulate matter or haze.
    In addition, although EPA has made the same assertion with 
regard to the proposed regional haze rule, I found no mention 
in the proposed rule that smoke from fires will be treated 
differently from any other sources of particulate matter 
emissions. This may put an undue burden on our industries and 
on our farmers.
    The proposed rule for regional haze addresses our quality 
conditions on both the worst and the best days. For many class 
I areas, particularly remote wilderness lands, smoke from wild 
fires and prescribed fires burning on Federal lands is likely 
to be the single greatest contributor to poor visibility.
    Unless the EPA can account for all fires on Federal lands, 
and distinguish their effects from all other combustion 
sources, there is no assertion that States will not be held 
accountable for smoke emissions from those fires. Instead, they 
will be forced to overregulate non-Federal sources to make up 
for unaccounted emissions from Federal fires.
    The EPA has admitted that at this time the agencies do not 
have sufficient data to accurately determine when forest fires 
are the source of the haze. This fact alone should be ample 
cause to delay promulgation of a final rule.
    Finally, I believe the agencies do know how to effectively 
manage wildland fires to minimize the amount and effects of 
smoke. However, the Forest Service's current prescribed burning 
policies, which do not adequately consider the use of 
mechanical methods to reduce fuels, and the agency's reluctance 
to salvage dead and dying timber to improve forest health, lead 
me to conclude that they are unwilling to take those necessary 
steps.
    The ultimate goal should be to manage our forests 
effectively and to manage as much as possible the amount of 
smoke produced--and the resources lost--when fires do occur. I 
look forward to hearing today from our witnesses how we can 
best accomplish this goal.
    [The prepared statement of Mrs. Chenoweth follows:]

Statement of Hon. Helen Chenoweth, a Representative in Cogress from the 
                             State of Idaho

    Today the Subcommittee on Forests and Forest Health 
convenes for an oversight hearing on the interrelationship of 
the Forest Service's fire and vegetation management policies 
and the EPA's proposed regional haze rule. This is a very 
timely and important issue, and I thank my colleague, Mr. 
Schaffer from Colorado, for requesting this hearing.
    Last September, the Resources Committee examined the 
impacts of the Environmental Protection Agency's national 
ambient air quality standards for particulate matter on the 
Forest Service's use of fire as a management tool. I, for one, 
was not convinced by Administrator Browner's insistence that 
EPA's new standards would not have an impact on the land 
management agencies' use of fire, or that fire emissions would 
not result in Clean Air Act violations when fires burning on 
Federal lands produced smoke in quantities that violated the 
EPA's requirements for particulate matter or haze. In addition, 
although EPA has made the same assertion with regard to the 
proposed regional haze rule, I have found no mention in the 
proposed rule that smoke from fires will be treated differently 
from any other sources of particulate matter emissions.
    The proposed rule for regional haze addresses air quality 
conditions on both the worst and the best days. For many Class 
I areas--particularly remote wilderness lands--smoke from 
wildfires and prescribed fires burning on Federal lands is 
likely to be the single greatest contributor to poor 
visibility. Unless and until EPA can demonstrate that it can 
account for all fires on Federal lands--and distinguish their 
effects from all other combustion sources--there is no 
assurance that states will not be held accountable for smoke 
emissions from those fires. Instead, they will be forced to 
over-regulate non-Federal sources to make up for unaccounted 
emissions from Federal fires. EPA has admitted that at this 
time the agencies do not have sufficient data to accurately 
determine when forest fires are the source of the haze. This 
fact alone should be ample cause to delay promulgation of a 
final rule.
    Finally, I believe the agencies do know how to effectively 
manage wildland fires to minimize the amount and effects of 
smoke. However, the Forest Service's current prescribed burning 
policies, which do not adequately consider the use of 
mechanical methods to reduce fuels, and the agency's reluctance 
to salvage dead and dying timber to improve forest health, lead 
me to conclude they are unwilling to take the necessary steps.
    The ultimate goal should be to manage our forests 
effectively and to minimize, as much as possible, the amount of 
smoke produced--and the resources lost--when fires do occur. I 
look forward to hearing today from our witnesses how we can 
best accomplish this goal.

    Mrs. Chenoweth. When the Ranking Minority Member arrives, I 
will recognize him for any statements that he may have.
    And now I look forward to introducing our first panel of 
witnesses: Dr. Robert Pearson, project manager of Radian 
International; Dr. Phil Omi, director, Western Forest Fire 
Research Center; Don Matlick, director, Smoke Management, 
Oregon State Department of Forestry, and Greg Walcher, 
president of Club 20.
    As I explained in our first hearing, it is the intention of 
the chairman to place all outside witnesses under oath. This is 
a formality of the Committee that is meant to ensure open and 
honest discussion and should not affect the testimony given by 
witnesses. I believe all of the witnesses were informed of this 
before appearing here today. They have each been provided a 
copy of the Committee rules.
    And now if the witnesses will please come forward and stand 
and raise your right hand, I will administer the oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. Let me remind the witnesses that, under our 
Committee rules, you need to limit your testimony to 5 minutes 
for your oral statement. But your entire statement will appear 
in the record. We will also allow the entire panel to testify 
before I start questioning you. The chairman now recognizes Dr. 
Robert Pearson.

  STATEMENT OF DR. ROBERT L. PEARSON, PROJECT MANAGER, RADIAN 
                         INTERNATIONAL

    Dr. Pearson. Thank you Madam Chairman. Again, my name is 
Dr. Robert Pearson. I'm an air quality scientist with Radian 
International in Denver and we are an environmental consulting 
firm working around the world. And I also hold a post of 
adjunct professor teaching air pollution classes in the 
graduate school of the University of Colorado at Denver.
    I am appearing before you today to discuss the air quality 
impacts of the practice of using prescribed burns to reduce 
vegetation in our Nation's forests. And Madam Chair, it is 
again a pleasure to appear before you, as I did before the full 
Committee last September. So thank you again for inviting me.
    Mrs. Chenoweth. Thank you.
    Dr. Pearson. First, a short bit of history. I was appointed 
by Governor Romer of Colorado to the Public Advisory Committee 
of the Grand Canyon Visibility Transport Commission which is, 
as you know, established by Congress pursuant to section 169(b) 
of the 1990 amendments to the Clean Air Act. The commission 
spent 4 years and more than $8 million reviewing the science of 
western regional haze and the causes thereof.
    On June 10, 1996, the commission issued a report, 
``Recommendations for Improving Western Vistas.'' It detailed a 
consen-

sus program for improving regional haze in the West. Now we 
have the EPA proposing a set of regulations last July that 
allegedly tried to achieve the same goal, but, unfortunately, 
they have ignored the report prepared by the commission in 
writing their rules, and I'll get to that in a moment.
    They also ignored a study that was done about 3 years ago 
by the Academy of Sciences looking at western regional haze and 
some of the remedies thereof. So we have now an agency, EPA, 
looking at controlling regional haze by focusing their control 
efforts on a very small number of sources, that being 
stationary sources, and essentially ignoring, for control 
purposes, mobile sources, and in the case of the hearing today, 
land management practices of the Federal land managers. And 
that's the purpose of my concern and comment this morning.
    The commission in their report detailed several 
recommendations with regard to area sources, sources of 
fugitive dust, prescribed fire, mobile sources, and emissions 
crossing the border from Mexico. Again, the EPA rules don't 
contain any mention of any of these concepts and instead focus 
their entire weight on stationary source control and giving 
more authority to land managers to regulate sources outside of 
Class I areas.
    It is apparent to me as an air quality scientist that EPA 
has chosen to take a narrow perspective of improving western 
regional visibility. This is in stark contrast to the 
commission and it is also in stark contrast to the way Congress 
handled the passage of the 1990 amendments. As you may recall, 
Madam Chair, the House Bill, section 707, contained several 
provisions which were removed in the final bill that was 
adopted by both the House and the Senate and became the 1990 
Amendments to Clean Air Act. And instead, section 169(b) was 
inserted in its place.
    EPA is following provisions of the stricken House language 
instead of the final House bill. And we think that you should 
remind them that the Act of Congress does not contain all of 
the programs that they are choosing to put into their proposed 
rules.
    We now have the Federal land managers who by all respects 
are looking at a vastly increased program of prescribed fire to 
control the buildup of wood and other biomass in the forests. 
Secretary Glickman and Secretary Babbitt both testified before 
the full Committee last September that the Federal land 
managers are going to drastically increase the use of 
prescribed burns in the forests. And Secretary Glickman also 
testified that on half of the lands managed by the Forest 
Service, they are going to have to do mechanical treatment 
before they can do the prescribed burns.
    The point that I think is being missed here is that fire 
should be the last resort for removing material from the 
forests, not the first resort. And yet when we talk to the 
Federal land managers, that's their full intent, to use fire 
and fire only. The problem with fires, of course, is you get a 
lot of smoke from it, and we're concerned in the West that that 
smoke, as reported by the Grand Canyon Visibility Transport 
Commission is probably the single largest source of regional 
haze in the West. And if the prescribed fire burns are done in 
the way that the Federal land managers intend, they will 
completely overwhelm all other control efforts on stationary 
sources, mobile sources, and everything else. So all our good 
work is going to be wiped out by the Federal land managers and 
their prescribed burning plans.
    We now have EPA taking part in the process, by 
Administrator Browner of the EPA saying before the full 
Commmittee last fall that the EPA intends to exempt ambient air 
quality measurements for fine particles on those days when 
fires are taking place. So it's not only the Federal land 
managers; we have EPA saying that we have an absurd outcome of 
EPA insisting that fine particle pollution be cleaned up on 
only the cleanest days, but on the worst days when we have the 
fires, EPA will exempt the rules.
    This leads me to my final statement, and that is that the 
regional haze rules could trigger even more stringent controls 
on stationary sources to make up for the impact of the Federal 
land mangers' actions.
    Madam Chairman, thank you very much and I am available to 
answer any questions you may have.
    [The prepared statement of Dr. Pearson may be found at end 
of hearing.]
    Mrs. Chenoweth. That was very interesting. Thank you, Dr. 
Pearson.
    The Chair welcomes and recognizes Mr. Schaffer, who has 
arrived. And I wonder if Mr. Schaffer would like to introduce 
the next witness, Dr. Omi. Or do you have a statement for the 
record?
    Mr. Schaffer. Thank you, Madam Chairman, I do, and in fact 
I will submit--I am not sure who I have missed so far but 
I'll--Dr. Pearson, OK.
    First of all, I want to thank you for the opportunity to 
hold the hearing on the relationship to the EPA's proposed 
regional haze rule and Federal land management practices. This 
is an important issue that deserves further consideration by 
the agencies and further input into how to implement programs 
designed to improve air quality and visibility while managing 
Federal lands for forest health and resources.
    I'd like to introduce Dr. Omi, professor and director of 
the Western Forest Fire Research Center, WESTFIRE, at Colorado 
State University. Dr. Omi bring 28 years of experience studying 
fires, five of which he worked as a seasonal firefighter. The 
WESTFIRE center focuses on collaborative research to assist the 
agencies with fire and fuels management. I appreciate Dr. Omi's 
work and the center's important contributions to our 
understanding of the role of fire and management on forested 
lands.
    Thank you for appearing today.
    [The prepared statement of Mr. Schaffer follows:]

 Statement of Hon. Bob Schaffer, a Representative in Congress from the 
                           State of Colorado

    Thank you Madame Chairman. I thank you for the opportunity 
to hold this hearing into the relationship between EPA's 
proposed regional haze rule and Federal land management 
practices. This is an important issue that deserves further 
consideration by the agencies and further input into how to 
implement programs designed to improve air quality and 
visibility while managing Federal lands for forest health and 
resource production.
    I am pleased to introduce three highly qualified witnesses 
from my home state, and one from the Oregon Department of 
Forestry that compose our first panel.
    First Dr. Robert Pearson, an air quality scientist for 
Radian International and adjunct professor of air pollution at 
the University of Colorado, Denver will testify as to his 
involvement with the Grand Canyon Visibility Transport 
Commission. His long and distinguished background and 
experience will surely be a benefit to us all and I thank him 
for being here.
    Dr. Philip Omi, professor and Director of the Western 
Forest Fire Research Center (WESTFIRE) at Colorado State 
University. Dr. Omi brings 28 years of experience studying 
fires, five of which he worked as a seasonal firefighter. The 
WESTFIRE center focuses on collaborative research to assist the 
agencies with fire and fuels management. I appreciate Dr. Omi's 
work and the center's important contributions to our 
understanding of the role of fire and management on forested 
lands. Thank you for appearing today.
    Mr. Don Matlick is the Smoke Management Program Manager 
Oregon Department of Forestry. He brings a unique perspective 
to the table today. Oregon has successfully managed state 
forests with a combination of methods while maintaining good 
air quality standards. Thank you for traveling such a long 
distance to testify today. I look forward to hearing about 
Oregon's successes.
    Last but certainly not least, Mr. Greg Walcher, President 
and Executive Director of Colorado's Club 20. Mr. Walcher 
brings the experience of a large consortium of individuals, 
business leaders and elected officials from Colorado's Western 
slope with him here to Washington. Club 20 held a seat on the 
Grand Canyon Visibility Transport Commission (GCVTC) advisory 
committee. Mr. Walcher and his organization have followed this 
national issue from a local and state perspective. I thank Mr. 
Walcher for coming today and look forward to his valuable 
insight.
    I also would like to recognize our witnesses from the EPA 
and the Forest Service. We appreciate your appearing before the 
Subcommittee today and we appreciate your willingness to work 
with staff to bring us up to speed on this difficult issue. I 
welcome your comments, and hope that you will consider 
seriously the issues brought up today.
    Thank you Madame Chairman.

   STATEMENT OF DR. PHIL OMI, DIRECTOR, WESTERN FOREST FIRE 
                        RESEARCH CENTER

    Dr. Omi. Thank you, Mr. Schaffer, and thank you, Madam 
Chairman, for the opportunity to address the Subcommittee. I am 
going to dispense with much of the introductory material in my 
statement and try to cover the high points, as we have been 
instructed to summarize.
    I'd like to focus on, first of all, tradeoffs between wild 
and prescribed fires. In any given year wild fires may burn 
anywhere between from 1 to 7 million acres of forest and range 
lands. These fires may have the greatest impact on visibility 
in all airsheds, but, as we have heard, concern today is with 
Class I areas.
    The economic impact of these fires can be substantial. In 
the last 10 years we have had several $1 billion fire seasons. 
Although the losses from the recent--or actually the ongoing--
1998 florida fires may not be known for some time, I have heard 
cost and damage estimates ranging from $300 million to $.5 
billion. The Oakland Hills fire in 1991 destroyed 3,000 homes, 
killed 25 people, and produced over $2 billion in costs and 
losses. Most of these expenditures are in a reactive mode, I 
should add.
    Of the elements comprising a fire's environment--that is 
fuel, weather, and topography--only fuels can be managed 
effectively to reduce the severity of the eventual wildfires. 
The vast variety of fuel treatments fall into the following 
broad categories: disposal onsite--for example, prescribed 
burning, redistribution onsite, physical removal, vegetation 
type conversion, and isolation. Prescribed fire is receiving 
much attention because it mimics natural fires' processes, and 
treatment costs are relatively low compared to other 
alternatives. Previous studies in California have documented 
that prescribed fires can produce comparable fuel hazard 
reduction but at 1/10 the cost per acre as mechanical 
treatments.
    Ultimately, a combination of mechanical removal followed by 
prescribed fire may be the optimal treatment sequence for many 
areas, especially those located at safe distances from human 
population centers. In such cases, the mechanical treatment 
could be used to prepare the fuelbed for safe burn execution 
while also providing potentially useful raw materials for wood 
products. Unfortunately, in many areas throughout the rural 
U.S., markets aren't well developed for the small diameter 
trees and removable biomass that add to fire hazards when left 
behind in the forest.
    Further, I am finding through ongoing research for the USDA 
Forest Service that there are important knowledge gaps 
associated with efforts to reduce wildfire severity through 
prescribed fire and mechanical thinning. Thus, no single 
treatment is a panacea that will work in all situations. There 
are no silver bullets here. But each can play an important role 
if carried out in concert with a systematic and integrative 
planning process.
    Other potential solutions look beyond the technology of 
fuel hazard reduction. Promising examples include conversion of 
forest biomass to ethanol, creation of defensible space around 
homesites and subdivisions, and citizen slash-mulching 
programs. With adequate incentives, community partnerships can 
be formed with industry and government to help develop 
sustainable forestry initiatives that reduce fuel hazards while 
reviving the forest products sectors in places where it's 
declining.
    Another possibility involves forestry stewardship projects 
that promote fire-safe environments while providing a 
sustainable base of local employment. Last year Dr. Dennis 
Lynch, now professor emeritus at Colorado State University, 
appeared before this Subcommittee to promote stewardship 
contracts for forest restoration on national forest lands. I 
refer you to his written testimony on March 18, 1997 for 
further details.
    Ultimately, solutions to wildfire management will require a 
coalition of diverse interests working toward solutions at 
local levels. Scientists, environmentalists, business, and 
local leaders will need to reach consensus on necessary 
combinations of treatments that will satisfy human needs 
without compromising clean air mandates and requirements.
    Perhaps the biggest task involves educating the Nation's 
populace about the importance of fire and forest management. 
Fires have burned in North American forests for thousands of 
years. By contrast, forests have been managed in our fire 
environment for only a short time period. Many residents have 
not come to grips with the risks of living with fire, in spite 
of the evidence that forests have burned with regularity. If 
past experience is any indicator, we are learning that we 
cannot keep fire out of our forests forever. The trick then is 
to manage the forest, so that we can safely endure and learn 
from its consequences.
    More tolerance will be required for fire in the forest and 
prescribed smoke in the atmosphere. Revisions in air quality 
standards may need to be considered. But the largest obstacle 
may be our own unwillingness to revise how we fulfill human 
wants and needs from the forest environment.
    This concludes my testimony. I will be pleased to answer 
questions from Subcommittee members.
    [The prepared statement of Dr. Omi may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Doctor.
    The Chair now recognizes Don Matlick, director of smoke 
management for Oregon State Department of Forestry in Salem, 
Oregon to testify. I've been looking forward to your testimony, 
Mr. Matlick, because I've heard a lot about your program and 
I'm glad that you have joined us today. Mr. Matlick.

 STATEMENT OF DON MATLICK, DIRECTOR, SMOKE MANAGEMENT, OREGON 
                  STATE DEPARTMENT OF FORESTRY

    Mr. Matlick. Thank you very much, Madam Chairman and 
members of the Subcommittee. I am Don Matlick of the Oregon 
Department of Forestry and the smoke management program 
director for the agency, and we do regulate forest land burning 
prescribed fire on Federal, State, and private forest lands 
within the State.
    And I have been asked by Committee staff to share 
information with you on the topic of the Oregon approach to 
managing and regulating forest land prescribed burning on 
Federal lands in the northeast section of our State. The 
process was developed in the past few years using an 
interdisciplinary team of Federal land managers and air quality 
regulators. The final approach was well accepted and supported 
by the members of the group. The group used a new approach to 
address the concerns of the land managers and the air quality 
regulators. And I believe the approach we used and the final 
agreement have been successful at balancing the need to conduct 
an increasing amount of prescribed burning for forest health 
reasons, while simultaneously protecting air quality in the 
northeast section of the State.
    The background of the problem is that the forest health of 
the northeast section of Oregon became a major concern in the 
1980's when many thousands of acres were showing signs of poor 
forest health. Forests that were too dense had an improper 
balance of trees species, and an extended drought during the 
1980's were all contributing factors to a major portion of the 
forest being under stress. Very significant tree mortality was 
occurring.
    There was also a very significant increase in the amount of 
wildfire in the area, burning many more acres than the historic 
average. And the type of wildfire also changed, resulting in 
many more severe fires. Large crown fires became a more 
frequent event.
    Federal land managers in the northeast section of the State 
decided that, in order to restore and maintain the forest 
ecosystem in northeast Oregon, prescribed fire would have to be 
used significantly more than in the past. The Federal land 
managers wanted to increase their use of prescribed fire about 
four-fold, from about 30,000 acre per year to about 120,000 per 
year of prescribed fire. They felt that prescribed fire would 
have many desirable effects upon the forest ecosystem--reducing 
the density of the trees, selecting for the more desirable 
species, and restoring a more natural forest stand structure. 
The problem then became, what do we do with the smoke?
    The resolution process was that we had a group of people 
come together that dealt with the problem, and, to summarize, 
the final resolution of the problem really became finding a new 
frame of reference than the frame of reference we'd been 
dealing with in terms of air quality regulation. That new frame 
of reference was the group's recognition that by doing more 
prescribed burning we would eventually have less wildfire and 
wildfire smoke in the future. The parties did recognize this 
tradeoff. The group also recognized that smoke from prescribed 
burning could be managed so it is less of a problem than the 
unmanageable smoke from wildfire. And to the best of my 
knowledge, this was the first time this tradeoff recognition 
had occurred in a regulatory process.
    The final agreement incorporated several key points. First 
was no net increase in total emissions, a key element being the 
use of wildfire emissions plus prescribed fire emissions. We 
weren't just dealing with wildfire emissions alone. What we 
want to do is maintain a total amount of emissions at or below 
the historical averages.
    And an annual emissions level was established for the use 
of prescribed fire on Federal lands in the northeast sections 
of the State, and the emission limit was developed using 
historical wildfire and prescribed fire emissions and then 
compared against a natural emission level.
    And we did establish a mandatory smoke management program 
for Federal lands in the area, which includes daily forecasts 
and burning instructions issued by trained meteorologists, 
designed to keep smoke from populated areas. Daily reporting of 
prescribed burning is required by Federal land management 
agencies.
    We also established real-time air quality monitoring . And 
in the agreement Federal land managers agreed they would use 
non-burning alternatives in the restoration process when 
appropriate, instead of prescribed fire, and also use emission-
reduction burning techniques when possible.
    The conclusions that I think are worthy here are, when 
emission producers and regulators agree there is a problem, 
they can often solve the problem locally, if there is 
significant flexibility within the national rules and 
guidelines.
    And the second one is regulatory agencies should encourage 
the development of new thinking and new processes at the local 
level which best meet the local needs. The regulatory agencies 
then should be prepared to accept those local solutions.
    Just two comments, one about the Federal land management 
policies. We do support the fire and vegetation policies. We do 
hope, though, that the full range of alternatives for 
restoration can be incorporated and not rely too heavily upon 
just prescribed fire. And we would encourage the final regional 
haze rules to allow local solutions.
    With that, I would wind up my testimony. Thank you, Madam 
Chairman.
    [The prepared statement of Mr. Matlick may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Matlick.
    The Chair yields to Mr. Schaffer to introduce Greg Walcher.
    Mr. Schaffer. Thank you, Madam Chairman. I'd like to 
introduce another Coloradan. Greg Walcher is president and 
executive director of Colorado's Club 20. Mr. Walcher brings 
the experience of a large consortium of individuals, business 
leaders, and elected officials from Colorado's western slope 
with him here to Washington. Club 20 held a seat on the Grand 
Canyon Visibility Transport Commission Advisory Committee. Mr. 
Walcher is in his organization, has followed this national 
issue from a local and State perspective, and I thank him for 
coming today and look forward to his valuable insight.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Mr. Walcher, please proceed.

         STATEMENT OF GREG WALCHER, PRESIDENT, CLUB 20

    Mr. Walcher. Thank you, Mr. Schaffer, and thank you, Madam 
Chairman. We appreciate very much your continued leadership on 
this issue which we think is vitally important in the West.
    Club 20 represents, among its membership, 20 counties west 
of the continental divide in Colorado along with 75 
incorporated towns, 42 chambers of commerce, several dozen non-
profit associations, and literally hundreds of businesses and 
individuals.
    I've got a fairly lengthy written statement that I hope 
would be included in the Committee's record. And just in 
summary ,I'll say that our communities believe that fire is a 
vitally important management tool on the public lands and 
definitely has it's place in the tool box. And we believe that 
the EPA's regional haze rules will create serious conflicts 
that make it very, very difficult to implement fire in the way 
that it ought to be a part of the mix.
    If you cap emission all over the West at the current level 
and then require a reduction of one deciview, as the EPA 
suggests, and increase the amount of fires being set by Federal 
land managers, something else is going to have to be reduced. 
And that creates inevitable conflicts, as you mentioned in your 
opening statement, with agriculture burning, with factories, 
with power plants with all the human activities, mobile sources 
and others.
    It is especially unfair in the West, and you both know as 
well as I do the perspective of people all over the West is 
that this is about politics, not about air pollution. If 
Congress were serious about reducing air pollution, they would 
have begun this process in places like Pittsburgh, Baltimore, 
and Los Angeles, which are polluted, not in places like the 
Grand Canyon.
    But that's where we are today anyway, and our fear is that 
the forest is the big loser in this process. You held a hearing 
in May on the health of forests in Colorado, and particularly 
in the Aspen trees, and as we were talking at that time, this 
issue is closely related to that--for the simple reason that, 
if you create conflict between the forest and other economic 
uses in the West, the forest is going to be the big loser. 
Trees don't pay taxes and they don't vote. So, in the end, you 
wind up with that kind of a conflict.
    The Federal Government--the Secretary of the Interior has 
admitted that some advance clearing is going to be needed 
before much of the prescribed burning that's planned can be 
done, and yet that isn't the direction we are headed at all. 
We're headed in fact in the opposite direction. By Executive 
Order, we're stopping the clearing of materials all over the 
West. We're putting almost a complete end to the timber 
industry in my State and submitting ever-shrinking budgets in 
the timber program of the Forest Service. So the actions and 
the words don't match what's coming from the administration.
    The solution isn't all that complicated when you get right 
down to it. The U.S. Forest Service obviously needs to reduce 
the smoke coming off of these prescribed fires. In Colorado, 
we've followed with great interest the Oregon program. And 
Colorado has tried, for a couple of years now, to require the 
Federal Government to reduce the amount of smoke coming from 
prescribed fires. And 2 years in a row our General Assembly 
passed overwhelmingly a bill that would have done that--a bill 
that would have said, when the Federal Government seeks a 
permit from the health department to set a prescribed fire, 
that the health department then would examine what the Forest 
Service's plan was and make sure that they have considered the 
lower-smoking alternatives before they do that.
    Two years in a row Governor Roy Romer vetoed the bill, 
which we thought was irresponsible and inexcusable, but the 
writing is on the wall. Federal land managers are going to be 
held accountable by the public for air pollution that they 
create. And if they are not going to do that administratively, 
then Congress is going to have to reign them in. Congress ought 
to amend the Clean Air Act to simply require in prescribed 
fires that smoke be reduced to the maximum extent possible.
    To put it simple, if the Federal Government is going to 
continue to be the single largest episodic contributor to 
regional haze--as we know from the $8 million, 4-year study is 
the case--then smoke management has got to be part of the deal. 
Because the public is not going to tolerate continuing to 
regulate all of the other pollution sources in our society 
while the Forest Service--with impunity--torches the landscape 
and darkens our skies.
    Thank you.
    [The prepared statement of Mr. Walcher may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Walcher.
    The chairman yields to Mr. Schaffer for questions.
    Mr. Schaffer. I've got a number of questions. First, let me 
start with Dr. Pearson. Let me just ask, do you agree with the 
findings of the Grand Canyon study?
    Dr. Pearson. Most of them, yes. I do have a little bit of a 
concern, however, that the commission could have gone a little 
bit further in recommending controls for some of the mobile 
sources, and certainly in the case of the hearing today with 
regard to prescribed fire and smoke from forest fire management 
practices.
    The commission wrestled with that issue and, as you 
certainly well understand, that's a very contentious issue. I 
think the commission could have gone a bit further on that 
regard, but certainly the commission did a very good job 
pointing out that smoke from fires is the No. 1 cause of 
regional haze in the West. I agree with that. We just didn't 
really come down to a good way of handling that within the 
commission process.
    Mr. Schaffer. The Grand Canyon report offered a number of 
recommendations. To your knowledge, did the Environmental Pro-

tection Agency use the commission's report during the 
formulation of its proposed regional haze rule?
    Dr. Pearson. Well, if they used it, they must have used it 
as a door stop, because certainly we don't see much of the 
recommendations of the commission within the body of the 
proposed rule. The EPA rule is certainly focused almost 
entirely on stationary sources, and that was not what the 
commission's recommendations were at all. The commission 
recommended a very balanced approach, and EPA has not adopted 
that at all.
    Mr. Schaffer. And in your testimony you indicated that, if 
new regulations were adopted, efforts of the Grand Canyon 
commission would be overwhelmed by land management plans of the 
Forest Service.
    Dr. Pearson. Absolutely.
    Mr. Schaffer. What would your recommendation to the EPA be 
as far as implementing any new rules on regional haze?
    Dr. Pearson. Well, certainly provide a much more balanced 
approach. Recognize what the real sources of regional haze are 
and don't exempt forest management practices carte blanche. We 
recognize that forest fires will happen and prescribed fires 
are a necessary tool, as has been mentioned by the other 
witnesses on the panel. But let's put that in perspective and 
make sure that we have done everything we can to reduce the 
impact of those fires on the regional haze and make sure that 
source category is properly addressed, along with mobile 
sources and everything else in the West, so that we have a very 
balanced approach. That was the commission consensus, and I 
think that's the way EPA should proceed. To date, they are 
choosing not to do so.
    Mr. Schaffer. How about the land managers? What can they 
learn from the Grand Canyon study?
    Dr. Pearson. Well, the land managers can learn that the 
result of their fires is going to be the No. 1 source of 
regional haze in the West. And they then carry a 
responsibility, as has been mentioned, to do what they can to 
reduce that impact on regional haze. And to the extent of the 
testimony that we heard last September from Secretary Glickman, 
Secretary Babbitt, that they are going to increase their 
prescribed fires without impunity, if you will, I don't think 
they've gotten that message. And somehow you and Congress need 
to tell them that, if they are going to be burning the forests, 
they need to understand the impacts of that and do what they 
can to control the impact of that on regional haze.
    Mr. Schaffer. The States are obligated under the 
implementation plans to come up with some suitable remedy--
well, if they're in a non-attainment area and have these Class 
I lands. Being a Coloradan, I assume you are somewhat familiar 
with the two attempts of the Colorado legislature to impose 
essentially a State standard just to try to hold the EPA to 
some level of accountability and responsibility.
    What would have been the practical impact, from your 
perspective, of the State legislation, had it been permitted to 
become law?
    Dr. Pearson. Well, as Mr. Walcher mentioned in his 
testimony, the practical impact would have been that the forest 
managers in Colorado would have had to consider the smoke 
impacts when they set fires. Again, that bill was not signed by 
the Governor, so it's not law in Colorado, but had it been 
signed, they would have had some requirement to consider the 
results of their actions.
    Mr. Schaffer. Greg, I'd like to ask you just about--other 
than the legislation that was proposed in Colorado now twice, 
is there any other role of State governments that you might 
suggest to us by way of recommendation that we may be able to 
encourage here from Washington?
    Mr. Walcher. My understanding is that the Grand Canyon 
Visibility Commission report, which you were asking Dr. Pearson 
about a minute ago, more or less created or recommended 
creation of a State-level process as opposed to heavy-handed 
Federal regulations from the EPA. Obviously, that is a 
considerably better approach because the pollution problems are 
different in different States. And so we think that Congress 
ought to tell the EPA, while you require that they redraw these 
regulations, you ought to tell the EPA to leave the State alone 
and let the States manage the smoke the best they can.
    In Colorado we would have had a chance to require, had that 
legislation become law--as I believe it will next year, by the 
way--had that become law, we would have required the Forest 
Service in getting a permit to set a prescribed fire to 
demonstrate to the satisfaction of State officials that they 
have considered lower smoke alternatives first. And in our 
State that means, for the most part, taking out the big logs 
first before you burn. I guess it's coincidence perhaps that 
the bigger the tree, the longer it smokes and the more haze it 
contributes. That's the same tree that also has economic value.
    And so in our State, as you well know, the public is not 
very pleased with the concept of torching trees that have 
economic value while you pay five bucks a piece for two-by-
fours in the lumber yard. And so that problem is different in 
different States. So my recommendation for Congress is to let 
the States regulate by the issuance of permits. The Clean Air 
Act already makes that requirement of the Forest Service. The 
difference is that some States have standards and some States 
don't, as you mentioned.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer.
    Dr. Pearson, you said something that--your testimony was 
very good, but you said something that really startled me. You 
indicated that the Congress struck section 707.
    Dr. Pearson. Yes, ma'am.
    Mrs. Chenoweth. And replaced it with section 169(b)?
    Dr. Pearson. That's correct.
    Mrs. Chenoweth. But the EPA is following section 707 which 
was stricken by this body?
    Dr. Pearson. Yes, ma'am.
    Mrs. Chenoweth. Could you explain in as much detail as 
possible exactly how section 707 is being implemented. Be as 
specific as you can remember.
    Dr. Pearson. Madam Chair, as you know, that section was 
before Congress back in 1990, so it's been quite a while, but 
I'll give you the best of my recollection.
    There was also a similar section 709 in the Senate bill 
that was being debated at the same time, so there were parallel 
provisions. Those sections, as you may recall, contained 
requirements for best available control technology analysis of 
stationary sources, final visibility rules in 1 year after 
passage of the bill, a regional haze plan, criteria for 
reasonable progress, and a methodology for measuring 
visibility.
    All of those provisions were in the sections that were 
deleted from both the House and the Senate bill and replaced 
with 169(b) which, among other things, set up the Grand Canyon 
Visibility Transport Commission to study all these issues--best 
available control technology and the rest--and then bring a 
recommendation to the EPA on how to address those issues. So 
what really happened was, in deleting those sections from the 
bills Congress said, well, maybe we don't have the right 
answers here before us in Congress; let us have a regional 
consensus approach, i.e., have the commission look at these, 
and thus bring a recommendation to EPA after a regional 
deliberation on these issues.
    That's the best of my recollection on what was in those 
sections, Madam Chair.
    Mrs. Chenoweth. Do you have anything else you would like to 
add with regards to that subject matter?
    Dr. Pearson. Just that I think the Congress needs to 
reassert once again that section 169(b) is in the statute that 
was passed by Congress and that EPA fully should consider the 
recommendations of the Grand Canyon Visibility Transport 
Commission, as you required in section 169(b). Apparently, they 
are choosing not to do so, and you should remind them of your 
intent when you passed that section.
    Mrs. Chenoweth. Dr. Pearson, you also testified as to the 
de facto enforcement of buffer zones around Class I areas. 
Congress explicitly prohibits the establishment of buffer zones 
around wilderness areas. Can you expand on what you mean by 
buffer zones in your testimony?
    Dr. Pearson. Certainly, and let me give just a quick 
overview. The Clean Air Act, as it exists, allows the Federal 
land manager of Class I areas--mainly the Forest Service--to 
identify sources of impact on the Class I wilderness area in 
terms of visibility and other air pollution problems. If there 
is a source outside the Class I area that is impacting the 
Class I area, they can then require the State or EPA to study 
the impact of that source through a best available technology 
type of analysis. And, indeed, that has happened in Colorado 
and the Mount Zirkel wilderness areas, as I pointed out in my 
testimony.
    So, in effect, what the Federal land manager can do is 
trigger a formal investigation of sources outside of the Class 
I area or even outside of Federal lands, for that matter, and 
their impact on the Class I area itself. This is at the same 
time that the Federal land manager can go ahead with prescribed 
burns at will and essentially pollute the air over a forest, 
but still pointing the finger outside the forest, insisting 
that they be cleaned up. We think it's a ``do as I say, not as 
I do'' type of approach that should be remedied.
    Mrs. Chenoweth. I wonder how large the buffer zone would 
have been in the Mexican fires?
    Dr. Pearson. Well, the smoke from the Mexican fires, 
indeed, did come into Denver. I can remember it vividly. And so 
we're talking almost a thousand miles, Madam Chair.
    Mrs. Chenoweth. Mr. Matlick, you testified as for the need 
for balance between prescribed burns and air quality issues. 
What could the Forest Service learn from your experience in 
Oregon with regard to this matter? Let me also ask you, how 
important is the role of timber harvesting and mechanical 
thinning in your plan?
    Mr. Matlick. Madam Chair, I would, I guess, defer here to a 
report of a blue ribbon committee put together by Governor 
Kitzhaber here several years ago. They reported in 1995, and it 
was 10 distinguished multi-disciplined scientists that 
essentially looked at that problem about the whole problem in 
northeast Oregon and what should be done with the forest health 
issue.
    And they, to summarize, felt that restoration treatments, 
including thinning and fuel reduction, could reduce the risk of 
loss from insects and fire on large areas of the forests. And 
they went on to identify specific types of forests that could 
benefit the most and gave a recommendation in terms of 
prioritizing the implementation of that. But their view, to 
paraphrase, was that an awful lot of the acres are overstocked, 
have very excessive fuel densities, and that to rely heavily on 
just prescribed fire would essentially shortchange the 
restoration process, and that an awful lot of mechanical 
treatment of fuels and thinning of green trees and salvage of 
dead trees where it would help the ecosystem restoration is a 
vital and key component.
    Mrs. Chenoweth. Very good.
    Dr. Omi, you testified that the only way to manage fire is 
to manage fuels and this is a followup to the question I asked 
Mr. Matlick. Can you elaborate on what types of fuel 
management, in your opinion, would be suitable? What are the 
relative costs of performing the different types of activities 
and do you have a per-acre comparison? You testified that even 
modest increases in prescribed fires will affect visibility and 
air quality, and how do you mitigate against those risks? Now I 
asked you a lot of things, but I'm very interested in your 
opinion.
    Dr. Omi. Yes, first of all, with respect to the different 
types of treatment, in my testimony I outlined broad 
categories--that is, disposal onsite, redistribution onsite, 
physical removal, vegetation-type conversion, and isolation--
and within those categories there are a multitude of other fuel 
treatment alternatives: hand piling, tractor piling, mechanical 
crushing, or mastication and burning, dozer chaining, jackpot 
burning, chemical desiccation and burning, to name just a few.
    The appropriate treatment really depends on the site and 
the land management objectives in the area. In terms of cost 
relative to fire, the studies, of course, have focused 
primarily on implementation of a burn which shows dramatic 
differences between the cost of prescribed fire relative to 
other mechanical ways of treating the land.
    The big cost factor with mechanical treatments relates to 
the hardware that is required and fuel and site concerns. 
That's why in my testimony I indicate that--in California 
anyway--that prescribed fire costs were one-tenth the cost of 
mechanical removals. I think that, again, those are 
generalizations that have to be considered for each 
particular--the site adaptations have to be considered at each 
location.
    The final point that I would make is that pristine air--I 
think we have the wrong idea of what it should look like in 
this country. Pristine air prehistorically had considerable 
smoke at different episodes in different times in the past.
    Thank you.
    Mrs. Chenoweth. Dr. Omi, I just have one more comment or 
statement. If we could reduce the fuel loads by mechanical 
means and those fuels had a value in the marketplace, then 
could you still say that under those sets of circumstances we 
let logging contracts out, that prescribed fire and the 
relative costs would be one-tenth of removal by mechanical 
means?
    Dr. Omi. Again, that was just an average cost and the 
answer to your question is, I don't think you can make that 
statement. I don't think that mechanical thinning or logging 
would necessarily be appropriate for certain areas; for 
example, national park areas and wilderness areas, where access 
may be prohibitive and where administratively those types of 
treatments might not be feasible.
    In multiple-use areas, lower elevation areas, where there 
is a market for those raw materials, I think that potentially 
those situations represent kind of, as we often say, a win-win 
situation for removal of fuels and also for restoration of 
economies that depend on those wood products from the forest.
    Mrs. Chenoweth. Thank you. Mr. Schaffer?
    Mr. Schaffer. I'd like to followup a little bit on that. I 
was interested to hear testimony about the long history of 
disturbances in the interaction between humans and forests. Do 
you consider the past 100 years of fire suppression to be a 
form of management?
    Dr. Omi. Well, it's definitely a management decision to get 
all fires aggressively and try to keep them as small as 
possible, and that was dictated or mandated in the 10 AM policy 
back in 1935. And I think that it was a well-intentioned policy 
to try to manage fire in the Nation's wildlands. I think that 
now, with the benefit of decades of implementation and 
hindsight being the way that it is, we raise questions about 
the efficacy of that. It is a management treatment. I would say 
yes.
    Mr. Schaffer. Does that policy contribute to the risk, the 
type, and severity of fires today?
    Dr. Omi. Again, generalizations are dangerous but in 
certain areas I think that the record of the literature shows 
that especially in low elevation areas, some of our long needle 
pine systems--ponderosa pine in particular in the western 
States--there has been a buildup of fuels that contributes to 
more severe wild fires and to that extent even greater smoke 
episodes in those areas.
    Mr. Schaffer. So, humans continue to really influence the 
forest through either action or inaction today as a result of 
our past policy over the last 100 years, say?
    Dr. Omi. I'd say that is a good characterization.
    Mr. Schaffer. EPA considers wildfires to be natural. Do you 
agree? We'd have fewer wildfires if the Forest Service would 
harvest more timber?
    Dr. Omi. I'm not sure I'm drawing the connection that 
you're trying to make there but--I don't think that the two 
policies are closely linked within the agency. For many years 
the----
    Mr. Schaffer. I know they're not linked with any agency; 
I'm looking for the truth, though, which is different.
    [Laughter.]
    Dr. Omi. Well, I think that we could do a lot of fire 
management and improve land management through harvest of 
materials. I don't think that it's always appropriate in every 
situation and there are areas where fire is the optimal 
treatment.
    Mr. Schaffer. You testified that little is known about the 
relationship between fire and its impacts on air quality. Would 
further study into that relationship assist land managers and 
air quality experts?
    Dr. Omi. I think so. I think we're relatively in infancy in 
terms of our understanding of fire effects on all of the biota 
as well as the abiotic environmental influences, like the air.
    Mr. Schaffer. You suggested the Grand Canyon study leaves 
certain gaps in research and just the general contribution to 
our knowledge about science in forestry and fire management, 
and so on. Can you provide some examples where further research 
is needed?
    Dr. Omi. I think we need a better idea of the impacts of 
the individual projects. I have just recently been invited to 
join the Grand Canyon study. So I'm relatively new in terms of 
understanding what they have proposed, but I think that the 
models have indicated that we have information gaps about the 
effect of single projects in site-specific area and we need 
more information about those individual treatments.
    Mr. Schaffer. I have more questions than that yellow light 
allows me.
    [Laughter.]
    I applaud WESTFIRE Center's work. How did you work with the 
National Park Service and how did that contribute to taxpayers 
saving? And just tell me more about the role WESTFIRE will play 
in the future.
    Dr. Omi. Over the years we have accumulated a substantial 
data base on the occurrence of wild and prescribed fires in the 
National Park Service and Department of Interior land, and 
through that effort, we have identified the factors that 
contribute to high-cost projects and low-cost projects. We've 
developed a computer program that helps the decisionmakers 
screen project requests from the field and identify those costs 
which may be wasteful or inefficient.
    Just because a project falls outside an acceptable range 
doesn't mean that it's not a desirable project, but our effort 
has helped the Park Service manage their costs. And we think 
that we've helped the Park Service save hundreds of thousands 
of dollars in terms of their prescribed fire and fuels 
treatment program.
    Mr. Schaffer. Thank you, Madam Chair.
    Mrs. Chenoweth. Greg Walcher, I have some questions for 
you. Twice your legislature passed legislation--oh, Mr. Kildee, 
you are here. I am so glad. Do you have a statement that you'd 
like----
    Mr. Kildee. I'll be very brief, Madam Chairman. Thank you 
very much.
    My staff and I have been interested for several years now 
in the differences between the effects and values of mechanical 
removal and controlled burning and concern about air quality.
    With the fires in Florida right now, are you studying the 
effect upon air quality in Florida with the number of fires 
down there to try and get some information and data to try to 
help you elsewhere?
    Dr. Omi. I'm not studying those fires particularly, because 
I'm in Colorado, but I have been following the reports on that, 
and I know that smoke plume from the Florida fires was reported 
to be seen over the Atlantic Ocean 200 miles downwind. And I 
know that there have been reported episodes of people's health 
being adversely affected by that smoke. Specifics, I'm not 
privy to at this point.
    Mr. Kildee. So the people in forestry and the Forest 
Service are trying to learn from what is happening in Florida 
right now?
    Dr. Omi. I believe so. Every fire episode, from my 
perspective, provides a learning opportunity, and sometimes the 
pill is difficult to swallow, but we're still in a learning 
mode about fire and forest management.
    Mr. Kildee. OK. Thank you, Madam Chairman
    Mrs. Chenoweth. Thank you, Mr. Kildee.
    Mr. Walcher, you're back on the spot again. You've 
testified to the fact that twice your legislature passed 
legislation to give the States more control over their air 
quality. Could you explain that legislation and why did 
Governor Romer veto it? What was in his veto message?
    Mr. Walcher. Well, first of all, let me say I think it 
would be difficult, if not inappropriate, for me to try to 
decipher the Governor's veto message. It makes very little 
sense to those of us who followed the legislation and tried to 
get it adopted. I do know that in the Governor's office there 
was a substantial ongoing discussion over the use of timber as 
a management tool as compared to fire, and so the politics of 
the issue are sort of a big picture discussion over whether not 
the timber industry is an appropriate management tool. That I 
think actually has very little to do with the use of fire and 
its effect on air pollution. I think it's sort of a timber 
versus anti-timber kind of debate going on there.
    What the legislation would have done, though, would have 
put Colorado squarely where it needs to be and where all States 
ought to be, which is in the process of regulating air 
pollution in their own State in a way that can consider 
properly the different kinds of species and different types of 
smoke that they create in different types of forests. There are 
instances where prescribed fire, as I testified earlier, is the 
right management tool. And as Dr. Omi was suggesting, there are 
some areas where timber is an inappropriate management tool.
    What we need to be able to do is to examine what the Forest 
Service considered in making a decision to set a prescribed 
fire, and determine whether or not they adequately considered 
all of the alternatives for reducing smoke. If there is an area 
where more smoke will be created unnecessarily because bigger 
logs could have been taken out mechanically ahead of time, and 
the Forest Service has declined to do that, either because the 
timber budget wasn't big enough or because they were getting 
lobbying from some interest groups that are opposed to timber 
or whatever reason, this would have been a tool whereby the 
State could say, well, that's fine, but we're not going to let 
you burn it until you do a better job of considering the smoke 
management angle.
    That is an appropriate role for the States, and it is a 
role explicitly authorized by the Clean Air Act which, as you 
know, unique among Federal statutes, requires Federal agencies 
to obey State laws on clean air issues. And so it would have 
been quite appropriate and proper for the State to do that, and 
I believe that our State is going to enact legislation like 
that and I think probably other States will, too.
    Mrs. Chenoweth. Could you explain your concerns with the 
legal authority for the new regulations that you addressed in 
your testimony?
    Mr. Walcher. Yes, and I don't want to suggest to you that 
I'm an expert on this because I'm not a lawyer. But it seem 
fairly clear to me when Congress created the Grand Canyon 
Visibility Transport Commission and funded it to the tune of 
half a million dollars over a period of time, clearly it is the 
intent of Congress that the recommendations from that 
commission be considered and implemented. So for the EPA to 
just completely ignore that entire process, obviously, ignores 
the spirit of congressional intent, if not the letter.
    Mrs. Chenoweth. Could you, Mr. Walcher, explain the 
distinction between Administrator Browner's previous statement 
that land managers are not exempt from regulations but simply 
the data from those fires is excluded? Could you explain that?
    Mr. Walcher. In the mind of laymen all over the West, it is 
a distinction without a difference, and again, you're asking me 
to interpret foreign languages, which I'm not very good at, but 
people around the West don't understand that. If you cap 
emissions at the current level and require that they be reduced 
across the board by some percentage, someone is going to have 
to reduce the air pollution. So whether you exclude the data or 
exempt the fire, or whatever semantic words they want to use, 
the effect is that the people that reduce the amount of 
pollution are going to be private sector people and Federal 
land managers are given a bye.
    Mrs. Chenoweth. Very interesting.
    Mr. Matlick, you've heard testimony from Mr. Walcher about 
2 years in a row Colorado passing legislation that would 
require a State permit from the Forest Service before any 
prescribed burns, and then the States of course could make the 
final determination on how it would affect their area. Has the 
Oregon legislature considered that type of legislation or have 
you recommended it to the Oregon legislature?
    Mr. Matlick. Representative Chenoweth, we've been in that 
business now since 1972, and in western Oregon when we 
recognized that smoke from prescribed burning in western Oregon 
was getting into the valleys and the larger population centers, 
and the Oregon legislature passed a bill in 1971 to become 
effective in 1972 to establish our smoke management program, 
which does regulate and essentially permit prescribed burning 
in western Oregon at that point in time--and that does include 
Federal land lands--now since then, we've established and 
incorporated and grown the program into other areas of the 
State, but we are doing that now, yes.
    Mrs. Chenoweth. I probably didn't make myself clear. I 
guess the legislation that Colorado passed required that the 
Forest Service obtain a permit before embarking on a prescribed 
burn. So it was not a generic permit within a plan. Has Oregon 
ever considered asking the Forest Service to get a permit from 
you, as you would any other private entity?
    Mr. Matlick. In the essence of regulating the smoke from 
the prescribed burn, we have said that the Forest Service, if 
they follow our instructions that we put out daily for burning, 
essentially, that is a permit to burn that day. So we might say 
you can't burn within 50 miles upwind of Portland, and if the 
Forest Service follows those distance and tonnage and all the 
lighting instructions that we give, essentially that is a 
permit, although we do not actually write them a permit.
    Mrs. Chenoweth. All right. Thank you very much. I want to 
thank this panel for this very interesting testimony, and we're 
not through with you yet. We still have a lot of questions that 
we will submit to you in writing and may be back in touch with 
you by phone. But thank you very much for your valuable 
contribution to hopefully being able to begin to solve this 
problem soon and making sure that the commission's work is 
recognized by the agency. Your testimony was very instructive 
and very informative and thank you, all four of you, very much.
    This panel is dismissed, and the Chair will now call the 
next panel of witnesses. We recognize Mr. John Seitz, Director 
of the Office of Air Quality Planning and Standards in the 
Environmental Protection Agency in Washington, DC; Janice 
McDougle, Associate Deputy Chief, State and Private Forestry, 
U.S. Forest Service, Department of Agriculture, Washington, DC, 
and Denny Truesdale, Acting Director, Fire and Aviation 
Management, U.S. Forest Service, Department of Agriculture, 
Washington, DC.
    I would ask the panel to remain standing and raise your 
right hand to swear.
    [Witnesses sworn.]
    Mrs. Chenoweth. We'd like to open testimony by hearing from 
Mr. Seitz.

 STATEMENT OF JOHN SEITZ, DIRECTOR OF AIR QUALITY PLANNING AND 
           STANDARDS, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Seitz. Thank you, Madam Chairman, members of the 
Subcommittee, for inviting me here today to testify on EPA's 
proposed rule to improve our Nation's visibility.
    As you know, there has been extensive documentation that 
virtually all of our national parks and wilderness areas are 
subject of some degree of regional haze visibility impairment. 
Haze is caused by pollutants that are emitted to the atmosphere 
from a number of industrial sources and transported at long 
distances. These emissions, after being transported, impact 
some of our parks and wilderness areas designated for special 
protection under the Clean Air Act and are referred to as Class 
I areas.
    We also know that the causes and severity of regional haze 
vary greatly between the East and West. The average standard 
visual range in the western United States is 60 to 90 miles, or 
about one-half to two-thirds of the visual range under natural 
conditions. In the East the average range is 15 to 30 miles, or 
about one-sixth to one-third of normal range. One of the major 
challenges dealing with regional haze is that the cause of this 
problem is not often one point source or one pollutant, but 
pollutants emitted from various sources over a large 
geographical regions.
    In the 1977 amendments to the Clean Air Act, Congress set 
the national goal for visibility, and I quote, ``For prevention 
of any future, and the remedying of any existing, impairment of 
visibility in mandatory Class I Federal areas which impairment 
results from manmade air pollution.'' As you know, in the 1990 
amendments Congress reinforced this goal by directing EPA to 
attack the regional haze problem.
    In response to the 1990 amendments, the EPA established the 
Grand Canyon Visibility Transport Commission to address 
impairment on the Colorado plateau, and as mentioned earlier, 
in June 1996 they submitted their report to the agency. Under 
the 1990 amendments, 18 months after receiving that report, EPA 
was to propose the regional haze rule. And last July, in 
conjunction with the promulgation of the revised ozone and PM 
standards, EPA proposed the regional haze rule and took public 
comment. The rule is based upon the recommendations of the 
Grand Canyon Transport Commission, the 1993 National Academy of 
Science report, as well as information from our Clean Air Act 
Advisory Committee. The public comment period on this rule 
closed December 5, and the agency hopes to finalize the rule in 
the fall.
    Madam Chairman, my written statement contains detailed 
discussions of various provisions of this rule. But for the 
purpose of my oral statement, I would like to discuss some of 
the specific issues related to fire policy and air quality.
    First, I would like to stress that EPA recognizes the 
importance of fires as a natural part of forest and grassland 
ecosystem management. Fires release important nutrients into 
the soil; fires reduce undergrowth and debris on the forest 
floor; and we know that prescribed fires--or fires managed 
correctly--are important management tools for keeping forest 
and grasslands healthy. They also help reduce large, 
catastrophic burns such as situations we've recently seen in 
Florida and Yellowstone.
    Obviously, fires produce fine particles that can pose 
threat to human health and contribute to visibility impairment. 
In recognition of this and the need to ensure that the fire can 
be addressed correctly, we worked hand-in-hand with the Forest 
Service and the Department of Interior in developing the 
Federal Wildfire Management Policy and Program Review in 1995.
    In response to this process, the Department of Agriculture 
and the Department of Interior adopted a policy that all future 
managed burns must be done in an environmental-friendly way, 
particularly paying attention to air quality. EPA subsequently 
established under the Federal Advisory Committee Act, a special 
work group comprised of experts from the Department of 
Agriculture, Department of Interior, Department of Defense, 
State forest managers, State and local air pollution experts, 
to develop this policy.
    In May of this year, EPA issued the Interim Air Quality 
Policy on Wildland and Prescribed Fire. This policy encourages 
land managers and owners to work cooperatively with State and 
local pollution control officials to conduct integrated 
planning to successfully manage fire. Consistent with the Grand 
Canyon Visibility Transport Commission recommendations, it 
outlines basic components for smoke management programs and 
urges the States to adopt these measures. This interim policy 
complements EPA's 1996 policy on natural events by ensuring the 
States which implement effective smoke management plans, yet 
occasionally experience avoidable smoke intrusions, are not 
penalized.
    In conclusion, we expect that our regional haze rule, when 
finalized, will establish a framework to improve visibility in 
national parks and wilderness areas. I want to be clear that we 
have not made final decisions on this rule and we will consider 
all public comment before finalizing the rule. Our goal is to 
ensure that our final rule achieves the congressionally 
mandated improvement in visibility and does it in a common-
sense way. At the same time, we intend to continue working 
closely with the Federal land managers, State and local 
governments, and other interested parties, to ensure that 
emissions from prescribed and wildland fires are handled in 
such a way as to minimize air quality problems and maintain 
healthy forests and wildland.
    Thank you very much.
    [The prepared statement of Mr. Seitz may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Seitz.
    The Chair now recognizes Janice McDougle for her testimony.

STATEMENT OF JANICE McDOUGLE, ASSOCIATE DEPUTY CHIEF, STATE AND 
     PRIVATE FORESTRY, U.S. FOREST SERVICE, DEPARTMENT OF 
 AGRICULTURE, ACCOMPANIED BY DENNY TRUESDALE, ACTING DIRECTOR, 
 FIRE AND AVIATION MANAGEMENT, U.S. FOREST SERVICE, DEPARTMENT 
                         OF AGRICULTURE

    Ms. McDougle. Good morning, Madam Chairman and members of 
the Committee.
    I am Janice McDougle, Associate Deputy Chief for State and 
Private Forestry with responsibility for fire and aviation, 
forest health, and cooperative forestry programs. I am 
accompanied by Denny Truesdale, who is acting as our National 
Director for Fire and Aviation Management. I appreciate the 
opportunity to testify today.
    In October 1997, Bob Joslin, Deputy Chief for National 
Forest System, testified before the Senate Energy and Natural 
Resources Committee on the agency's history in air management. 
He talked about our research program, our role in the new 
permit review for regulatory agencies, and how proposed changes 
might affect Forest Service programs. I have submitted a copy 
of that testimony to your clerk to be entered into the record 
along with my comments.
    The Forest Service fire management program, including 
wildfire suppression and fuels reduction efforts, affects air 
quality. Our air quality objective is to reduce the long-term 
cumulative smoke impacts from all types of fire. The full 
effect of the regional haze rule on Forest Service programs is 
difficult to project until a final rule is promulgated and each 
State and tribe develops is own implementation plan, and 
related smoke management plans.
    We appreciate EPA's efforts to integrate wildfire 
suppression and prescribed fire in their policies, and believe 
that EPA is developing a common-sense approach that will 
provide a logical context for us to carry out our goals in 
restoring ecosystems, caring for the land, and serving people.
    Fire plays an important role in ecosystems; it is a 
natural, inevitable part of ecosystems in most forested areas 
of the country. A number of forest and brush types across the 
United States reflect fire-adapted ecosystems, and I have two 
maps that I can share with you to illustrate that.
    In the 1995 Interagency Fire Management Policy Review, the 
Department of Agriculture and Department of Interior recognized 
the significant role that fire plays in these fire-adapted 
ecosystems, and the departments called for substantial increase 
in the use of planned or prescribed fire as a management tool 
to restore forest health.
    The Forest Service has two primary responsibilities related 
to air quality. We protect air quality-related values, 
including visibility in Class I Federal areas, and we manage 
national forest system lands in a manner consistent with 
regulations implementing the Clean Air Act. Part of our Class I 
area protection includes integrated air quality monitoring.
    The Forest Service manages 88 congressionally designated 
Class I Federal areas with special air quality protection 
standards. Formal monitoring information from these areas is 
used to review permit applications for new major point sources 
of air pollution, to determine the impacts of existing sources 
of air pollution, and to identify trends nationally.
    The Forest Service has estimated that as much as 40 million 
acres of national forest system land could be at risk for high-
intensity wild fire. The administration and the Congress have 
increased funding to reduce this fire hazard. I will submit 
those maps--a record of the map--that show generally where the 
fire-adapted ecosystems are located. The acres at risk are 
within those systems and reflect the variety of fuel conditions 
where fires have been suppressed and excluded. Fires are more 
likely to burn with high intensity, increasing a threat to 
natural resources, property, fire fighters, and the public.
    The forest service is currently inventorying stands to 
determine the resources at high risk, the fuel conditions that 
exist, the likelihood of a fire starting in that specific 
location, and the cost of treatment. The Forest Service 
decision to ignite a prescribed fire is based on localized fuel 
and weather conditions and the availability of personnel and 
equipment. Prescribed fire plans identify the conditions and 
resources required to meet the desired objectives, including 
smoke management. If all smoke management plans are in place 
and the prescribed fire can be conducted consistent with those 
plans, the agency completes the burn and monitors the effects.
    Mr. Seitz discussed the policy and proposed rule changes. 
The Forest Service supports the recommendations of the Grand 
Canyon Visibility Transport Commission and EPA's natural events 
policy, which considers air quality impacts of wild fire as a 
natural event, and EPA's interim policy on wild land and 
prescribed fires that apply to all wildland fires on public 
lands, integrating two public policies: (1) to allow fire to 
function, as nearly as possible, in its natural role, and (2) 
to protect public health and welfare by mitigating the impact 
of smoke on air quality and visibility.
    Madam Chairman, that concludes my remarks. I'd be happy to 
answer any questions.
    [The prepared statement of Ms. McDougle may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Ms. McDougle.
    Mr. Truesdale, you are here accompanying Ms. McDougle. You 
do not have prepared testimony, I take it?
    The Chair recognizes Mr. Schaffer.
    Mr. Schaffer. Thank you, Madam Chairman.
    When the Colorado general assembly was considering 
legislation that Mr. Walcher discussed earlier, did the EPA 
provide any testimony or input to the Colorado general assembly 
on the matter?
    Mr. Seitz. I am not aware of whether we did or did not, 
Congressman. I can get back to you for the record on that.
    [The information referred to follows:]
----------
    The EPA did not provide formal input or testimony to the 
Colorado General Assembly on the legislation discussed by Mr. 
Walcher in his testimony. However, the EPA does support state 
efforts to implement state smoke management programs that apply 
to all uses of fire as a wildland management tool, including 
its use by Federal land managers (FLM). The EPA has always 
supported the right of states to control sources of air 
pollution within the boundaries of their states. Section 118(a) 
of the Clean Air Act (CAA) requires all Federal agencies 
engaging in any activity that results in the discharge of air 
pollutants to comply with all Federal, state, interstate and 
local requirements regarding the control and abatement of air 
pollution in the same manner as nongovernmental entities. 
Additionally, Federal agencies must ensure that their actions 
do not hinder the state's efforts to attain the NAAQS under 
either the general conformity or transportation conformity 
rules, or both.

    Mr. Schaffer. Did you have any input with the Governor?
    Mr. Seitz. I do not know the answer to that.
    Mr. Schaffer. Do you have any opinions about the Colorado 
legislation?
    Mr. Seitz. Just from what I've heard in the previous 
testimony. Again, I think it is the position, as the gentlemen 
indicated, as long as State rules and regulations treat Federal 
parties in an equitable fashion with other members of the 
sector--in other words, they're neutral--that if the 
requirements said that all fire that is burned must comply with 
these requirements, then, under the Clean Air Act, Federal land 
managers would also be required to comply with that.
    Mr. Schaffer. Has the EPA been conducting meetings with--
I've heard eight Governors among western States regarding this 
implementation of regional haze standards?
    Mr. Seitz. Well, it's a difficult question. We were at the 
table through the entire Grand Canyon Visibility Transport 
Commission deliberation, took part in that, and as noted in 
earlier discussion----
    Mr. Schaffer. How about right now? Are there any organized 
efforts, meetings with eight Governors in the West?
    Mr. Seitz. I think you're referring to the letter we just 
received that came in from Governor Leavitt of Utah in 
referring to an effort that took place between the eight 
Governors, the industrial community, and some environmental 
groups. The agency was not part of any of those deliberations.
    Mr. Schaffer. Let me ask about this--well, first of all, 
over in the Agriculture Committee we had a similar hearing on 
this particular matter and other EPA regulations that you in 
your prepared remarks--I don't know if I heard it in your oral 
statement here--said that, as we know, that EPA revised 
national ambient air quality standards for group level ozone 
and particulate matter. These standards have the potential to 
prevent as many as 15,000 premature deaths each year. We 
debated that point in the Agriculture Committee just a few 
months ago. I can't cite names or quote institutions that they 
may have been from, but they were sufficiently credentialed as 
scientists, experts in the area.
    So the EPA has no credible way of substantiating the claim 
that these new standards would prevent as many as 15,000 
premature deaths. Do you agree or dispute that?
    Mr. Seitz. I stand by the analysis the agency did.
    Mr. Schaffer. How did the agency conclude that it can save 
15,000 people from premature death?
    Mr. Seitz. Congressman, I would be pleased to provide for 
the record the information on that, but you're asking questions 
concerning the PM fire standard, and I came here prepared to 
talk about regional haze and fire.
    [The information referred to follows:]
----------
    The EPA prepared a Regulatory Impact Analysis (RIA) to 
assess the potential costs, economic impacts, and benefits 
associated with illustrative implementation scenarios of the 
revised national ambient air qualifier standards (NAAQS) for 
ozone and particulate matter. It should be noted that, as 
established in the Clean Air Act, decisions to set or revise 
air quality standards are based on health effects information, 
and not on cost or other economic considerations. Therefore, 
the RIA was intended to inform the public regarding the 
potential costs and benefits that may result when the revisions 
to the NAAQS are implemented, but these estimates were not used 
in the NAAQS decision-making process.
    The estimate of approximately 15,000 premature deaths 
prevented is based primarily on a published study [Pope, C.A., 
III; Thun, M.J.; Dockery, D.W.; Evans, J.S.; Speizer, F.E.; and 
Heath, C.W. Jr. (1995), Particulate Air Pollution as a 
Predictor of Mortality in a Prospective Study of U.S. Adults., 
Am. J. Respir. Crit. Care Med 151:669-674.] regarding the 
relationship between long-term exposure to PM and mortality. 
This study was reviewed thoroughly by the independent Clean Air 
Science Advisory Committee and judged to satisfy various 
criteria for use within the standard-setting process. Pope et. 
al. developed a ``concentration-response'' relationship between 
median ambient PM concentrations and mortality. The 
concentration-response relationship allows the estimation of 
changes in a health effect (in this case, mortality) given a 
change in air quality. A second step in estimating the 
reduction in premature mortality was to predict changes in 
ambient PM concentrations resulting from the new NAAQS. To 
generate this data, the Agency performed air quality modeling 
on a county-specific basis for all counties in the continental 
United States. The predicted air quality changes were used in 
conjunction with the concentration-response relationship and 
population statistics specific to each county to predict the 
reduction in premature mortality associated with the new PM 
standard. These county-specific estimates were then summed to 
provide a national estimate.

    Mr. Schaffer. Is premature a day, a year, 10 years? 
What's----
    Mr. Seitz Congressman, I'd be pleased to get back to you on 
the record for that.
    Mr. Schaffer. That would be useful, I think, because it's 
how you opened up you comments and established the need for 
regulation as you go through the rest of your comments.
    [The information referred to follows:]
----------
    Evidence from epidemiological studies indicated that some 
portion of the deaths attributable to exposure to particulate 
matter could be on the order of years, while some may be 
premature by only a few days. Researchers in this area note 
that it is possible that the reported deaths might be 
substantially premature if a person becomes seriously ill but 
would have otherwise recovered without the extra stress of PM 
exposure. In the PM criteria review, EPA recognized that 
quantification of the degree of lifespan shortening associated 
with long- or short-tenn exposure to particulate matter is 
difficult and requires assumptions about life expectancies 
given other risk factors besides PM exposure, including the 
ages at which PM-attributable deaths occur and the general 
levels of medical care available to sensitive subpopulations in 
an area. Because of these uncertainties, EPA found that it 
could not develop, with confidence, quantitative estimates of 
the extent of life-shortening accompanying the increased 
mortality rates that have been associated with exposures to PM.

    Mr. Schaffer. Also, the issue of deciview's came up. How 
did we arrive at the measurement of deciviews when it comes to 
measuring haze or visibility?
    Mr. Seitz. A deciview is a metric that is used to measure 
visibility improvement. It is merely a tool that is used to 
tell what the relative improvement in visibility is. Under 
Section 169 of the Clean Air Act, it is a visibility 
improvement section of the law and it is a metric that is used 
to derive from measured values on an improved network--
monitoring network--that measures the relative improvement in 
visibility. It was proposed and we took comment on that metric 
as well as other metrics.
    Mr. Schaffer. What is the relevance of the deciview 
standard to public health, for example--the 15,000 premature 
deaths for example? Does an improvement of 1 deciview--how many 
premature deaths does that prevent?
    Mr. Seitz. The metric for the deciview was put in the 
regional haze rule for the visibility improvement and as a 
metric of visibility improvement.
    Mr. Schaffer. So, it's the visibility we're interested in 
just making the air look nicer, I suppose.
    Mr. Seitz. The visibility improvement under 169, as I 
mentioned, directs the agency to implement regional haze rules 
to improve the visibility in these wilderness areas. A benefit 
from the reductions of this, as you indicate, particularly in 
the eastern----
    Mr. Schaffer. Are there any correlation between any kind of 
restrictions regulations? Any kind of reductions that might be 
required from an industrial source that would have a measurable 
reduction of say 1 deciview? Say, in other words, if you 
require a power plant that might be located or suspect of 
contributing to regional haze, if you regulate that power 
plant, is there some expectation or measurement or level of 
accountability that that will improve the visibility by 1 
deciview, for example?
    Mr. Seitz. Well, if you're getting to the point of the 
relevance between accountability and the emissions reductions 
in the power plant and the deciview improvement, it isn't quite 
that simple. As the rule proposes, the deciview is used as a 
goal. It is a planning target of goal.
    For instance, if the Grand Canyon Visibility Transport 
Commission combined initial reduction strategies in their 
report, they would not achieve a deciview. They would probably 
achieve about a half a deciview. But it is not the one 
reduction from the one power plant, but is indicated by----
    Mr. Schaffer. Let me ask----
    Mr. Seitz. If I could finish the answer. It is a 
combination of the reductions from the industrial sector, as 
well as automobile and the combined emissions.
    Mr. Schaffer. You stated that the advantage to the public 
is a perceptible, visible change that you and I might notice. 
One deciview is what is noticeable by the average human eye, I 
understand. If the management plan or the implementation plan 
is not expected to improve visibility by more than 1 deciview, 
what public goal does it serve?
    Mr. Seitz. It serves the public goal set forth in the Clean 
Air Act which says that the reduction strategies that are put 
in place must be cost-effective. In addition to visibility 
improvement, the Clean Air Act, and, I believe, the current 
Congressional Research Service review of the rule identified 
this flexibility that basically Congress directed us to make 
reasonable progress toward improvement and visibility.
    Reasonable progress is measured in terms of control 
strategies. Cost effectiveness is one of the measures that is 
put into place.
    Mr. Schaffer. So, it's measured in terms of controlled 
strategies rather than natural improvement?
    Mr. Seitz. The accountability within the State 
implementation plan for a given source is the emission 
reduction strategy in the applicable State rule or State 
regulations. The goal, as far as in our proposed rule, we took 
comment on putting in place, a long-term strategy of 10 to 15 
years, accompanied by State rules that will change the emission 
reductions to a given source. The goal and whether or not the 
plan achieved the visibility improvement are reviewed on a 3 to 
5 year basis is what we're taking comments on.
    The relationship of the goal then, let's say it's one after 
10 years and we're 5 years in and we're only at a half, if, in 
fact, the strategy is still intact from the standpoint that the 
industrial sector, the automobile sector or all of the plan 
that the State put in place is still valid, then the issue is 
to do more planning and analyze what the problem may be. It 
does not direct that you go back and control these sources 
more.
    The metric is used as a management tool to see how you're 
doing toward the long-term which could be 20, 30, 40, years. 
Congress didn't define an end point. A timeframe is merely a 
metric used to measure progress.
    Mr. Schaffer. Are there any State implementation plans 
where the goal is less than 1 deciview in improvement in 
visibility?
    Mr. Seitz. Well, since this is only a proposed rule and we 
haven't finalized the rule, I'm unaware of any State plans at 
this point.
    Mr. Schaffer. But will there be?
    Mr. Seitz. I can't answer that since the planning process 
will take place by the State and local agencies when they 
implement the rule, if we go final.
    Mr. Schaffer. OK. Is it possible that there could be?
    Mr. Seitz. Yes.
    Mr. Schaffer. If a deciview is based on the perception, 
it's a perceived standard on what a human being might recognize 
or see or perceive a difference in visibility, if anything less 
than that is imperceptible, why would we do it?
    Mr. Seitz. Well again, because the Congress directed us to 
do it, and, as I said, the Grand Canyon Visibility Transport 
Commission's and Governor Leavitt, co-chair of the Commission, 
testified to this, I believe, in two Senate hearings, strategy 
was derived by a collective, cooperative process where they 
developed a series of cost-effective strategies that they 
believe would improve visibility. That metric is going to be 
under one decision.
    There are two tools to advise the public. We can advise the 
public, and in this case the Grand Canyon did this, they had 
all the stakeholders at the table; they had the tribes, the 
State's local agencies, the environmental community and the 
industrial community, and said, this is the best strategy, the 
most cost-effective strategy we can come up for this timeframe.
    Albeit, this is what we expect to get in terms of 
visibility improvement. They can measure that. They can tell at 
the end of the day, that it was a half or three-quarters. So, 
they do have the ability to tell the public that we did make 
progress. Is it progress that in the 10-year period to have the 
one deciview change, and, as you suggest, can it be seen? Not 
in the short-term, but hopefully over the long-term we will 
move from one-half to another half to where we get that 
perceptible change.
    Mrs. Chenoweth. Mr. Seitz, I wanted to followup on Mr. 
Schaffer's line of questioning. I don't believe that Congress 
directed EPA to set a standard of improving air quality by 1 
deciview every 10 years.
    Mr. Seitz. The proposed rule did not.
    Mrs. Chenoweth. Right. Did the Grand Canyon Commission 
recommend this 1 deciview improvement every 10 years?
    Mr. Seitz. No ma'am.
    Mrs. Chenoweth. Did Governor Levitt recommend that?
    Mr. Seitz. No ma'am.
    Mrs. Chenoweth. Thank you. But that will be in your final 
rule, won't it?
    Mr. Seitz. No ma'am. The rule proposed a goal. It did not 
set a standard.
    Mrs. Chenoweth. The improvement of 1 deciview every 10 
years will not be in the final rule?
    Mr. Seitz. What will be in the final will be decided after 
we review all public comment. On this particular issue in the 
proposed rule, 1 deciview was proposed as an analytical point, 
a presumptive one, where State and local agencies or the 
group's that were analyzing this, were required to analyze one. 
They were not required to come up with--There was not specific 
language for alternatives. In the public comment, we have 
received numerous comments on this issue two ways.
    No. 1: on deciview, is it the right metric; and should an 
absolute 1 be used?
    Some of the testimony, for instance--some of the comments 
we've heard from the environmental community, they think 1 or 
anything less than that would mean that in 250 years we'll 
return some of the vistas to what they should be and they 
aren't satisfied with that. On the other hand, some commenters 
believe that it is too prescriptive and more latitude and more 
description of the alternatives should be examined by the 
agency.
    As we review public comment and as I mentioned into my 
testimony, we intend to consider all these comments before we 
go final with the rule.
    Mrs. Chenoweth. So what you're telling me here in this 
hearing is you're not prepared to tell this Committee whether 
or not the 1 deciview improvement every 10 years will be in the 
final rule?
    Mr. Seitz. Well, let me just make sure you're aware and 
that I'm sure----
    Mrs. Chenoweth. Well, Doctor, closed comment on the final 
rule--it is proposed, yes?
    Mr. Seitz. The comment period closed December 5th, Madam 
Chairman.
    Mrs. Chenoweth. Right.
    Mr. Seitz. We are taking comments as you are aware, and I 
think Congressman Schaffer mentioned, we got a submission from 
the Western Governors that is in the docket. All comments we 
receive we will put in the docket and consider.
    One point you are saying is 10 years, just to be clear 
since I'm under oath, in the rule we took comment on a range 
from 10 to 15 years. It was 1 deciview, but we did not say or 
we had not decided on whether or not it's a 10 to 15 year 
period.
    Mrs. Chenoweth. So, Mr. Seitz, at the end of five or seven-
and-a-half years, if we haven't reached any improvement of .5 
deciviews, what kind of enforcement measures might be applied 
if we're not reaching those goals?
    Mr. Seitz. Under the proposed rule, the only mechanism that 
was required was to ask the States, and in this case, the 
regional bodies to evaluate what the problem was. If, in fact, 
under the proposed rule, all State and local agencies in their 
State implementation plan--and incidently in the Grand Canyon, 
this is one of the issues that the Governor testified to--the 
Grand Canyon recommendation set out a strategy. And, as the 
Governor indicated in his testimony, the real meaning of that 
strategy is contained in the individual State implementation 
plans.
    So, our intent at the 5-year review would be, are these 
State implementation plans--has everyone done their fair share? 
Have all the States done the correct thing? If they have, there 
is no sanction. It is a planning mechanism to take a look at 
what is the issue--what is the problem. There is no sanction.
    Mrs. Chenoweth. Knowing what Colorado was facing when the 
Colorado legislature tried to get a handle on working with EPA 
in controlling air quality standards and the Governor vetoed 
twice, legislation that was overwhelmingly passed in the 
legislature and presented to him, did the EPA weigh-in based on 
your comments of trying to get more State control and more 
State and local input, did the EPA weigh-in at all on this in 
trying to convince the Governor that the legislature had passed 
some----
    Mr. Seitz. Madam Chairman, again----
    Mrs. Chenoweth. Very good legislation.
    Mr. Seitz. Pardon me?
    Mrs. Chenoweth. Did the EPA weigh-in at all on the side of 
the State based on the fact that they really had tried to do 
what you stated the goals of the EPA was? And that is to return 
more control to the States and local governments and regional 
areas?
    Mr. Seitz. I cannot comment on what took place, and I have 
said for the record, I will get back as to whether we had any 
interaction with the Governor and/or the State at that point in 
time. And, I am unaware of what the details of that legislation 
is. So, it would be inappropriate for me to speculate.
    I can say, though, and I'm sure you're aware, or 
Congressman Schaffer I'm certain is aware, of the fact that 
there is a very active program, albeit voluntary, in place in 
Colorado, managed by, I believe, the Environmental Agency that, 
prior to any burning done by Federal land managers, they work 
with the State of Colorado, submit an environmental assessment, 
as well as--I'm not sure of this, but will check for the 
record--obtain a permit to burn.
    So whether the letter of the law I cannot answer, and I 
will followup for the record, but I can say that the Federal 
agencies are working closely with the State of Colorado.
    Mrs. Chenoweth. You would expect me to ask, does that also 
apply in Idaho? Does it apply in Oregon, Washington, Montana, 
Wyoming?
    Mr. Seitz. Madam Chairman, Idaho is one of the few States 
that has not adopted a smoke management plan for some reason. I 
can't quite answer why, but, as mentioned before, we applaud 
the efforts of Colorado in putting these plans in place, and 
Federal land managers, clearly--the Department of Interior as 
well as the Forest Service--have indicated that they intend to 
fully cooperate with the States, and I believe in Colorado have 
actually entered into a formal memorandum of agreement with the 
State. It is my understanding the State of Idaho has chosen not 
to adopt such a smoke management plan.
    Mrs. Chenoweth. When do you plan to complete the final 
rule?
    Mr. Seitz. Madam Chairman, we hope to have the rule 
completed this Fall.
    Mrs. Chenoweth. Then, when would the requirements of the 
rule be implemented?
    Mr. Seitz. As you know, I'm sure from the ISTEA legislation 
recently passed by Congress and signed by the President, it 
directs that the implementation of the PM fine control 
strategies, meaning the SIP--State Implementation Plans--I get 
trapped in using in acronyms--the State implementation plans 
for regional haze must be coordinated with the implementation 
of the PM fine program. The agency is currently reviewing 
changes to or how we would adopt that in the final regulations, 
but we will comply with the ISTEA legislation.
    Mrs. Chenoweth. How does the Inhofe amendment alter any of 
the implementation of the schedule that has been proposed?
    Mr. Seitz. The ISTEA legislation?
    Mrs. Chenoweth. Yes.
    Mr. Seitz. The ISTEA legislation directs one of the 
issues--if I could just back up a second. One of the issues on 
the proposal that we heard a tremendous comment on from the 
State and local agencies was that 1 year after promulgation of 
the final regional haze rule States would be required to submit 
a State implementation plan.
    Meanwhile, we talked earlier about the benefits of some 
other reductions--say, of sulphates and nitrates for the fine 
particles standards; those steps weren't due until later 2003 
to 2004. What the agency intended to do on the regional haze 
rule was--we agree with Congress and others that these two 
programs should be implemented together; they shouldn't be 
separate planning requirements. And when you're looking for 
environmental improvement, you should look across both.
    So we intended to, if you will, require after 1 year from 
the haze rule, a planning State implementation plan that would 
tell us how they plan to coordinate regional haze with the PM 
fire plans.
    What the ISTEA legislation has done is take that principle 
and incorporate into law. So, it basically achieves an 
objective that we support very strongly, and that is joint-
planning and joint-control strategies.
    Mrs. Chenoweth. I just have one more question before I'm 
going to yield back to Mr. Schaffer. Director Seitz, you heard 
Dr. Pearson testify that sections 707 in the House bill and 709 
in the Senate was stricken and replaced with section 169(b); 
yet, Dr. Pearson testified that EPA's following not section 
169(b), but the original section 707. Can you explain that?
    Mr. Seitz. Well, and I would be pleased--I will give you a 
brief answer and we will ask my office general counsel. I'm not 
a lawyer and I don't know but maybe Dr. Pearson is.
    The real issue, I think, here is that we are following 
under section 169 of the Act, direction to promulgate a 
regional haze rule. Section 169(b) of the Clean Air Act also 
directs us to establish the Grand Canyon Visibility Transport 
Commission and sets forth a number of other recommendations. We 
believe that we have complied with both of those, and more 
importantly, the regulatory authority in the direction of the 
1977 amendments to the Clean Air Act directed us to do 
rulemaking on this, and Congress left that intact in the 1990 
amendments to the 1990 Act.
    So, we believe and feel very strongly that we are acting in 
accordance with not only of the intent of Congress, but 
absolutely in a way that makes sense: we established the 
Commission; we waited until 18 months; we've taken their 
recommendations. So, I'm not quite sure, frankly, what Dr. 
Pearson did mention. I listened with great interest and I 
intend to ask my office of general counsel to explain that 
issue to me, because we believe we are acting within the intent 
of Congress.
    Mrs. Chenoweth. And you believe--were the recommendations 
of the Commission different than what Congress had intended in 
laying out section 169(b)?
    Mr. Seitz. I think in the Congress' establishing 169(b) and 
asking us to establish the Grand Canyon Visibility Commission, 
it was a tool for the agency to use as a guidance as we develop 
the rule under 169(a) in response to the 1977 amendments. So we 
believe we did. There have been a lot of issues, as you've 
heard, in the previous testimony, on just how closely we did 
follow the recommendations of the Grand Canyon Visibility 
Transport Commission and we've received a lot of public comment 
on that. The Governor and I have testified at two hearings in 
the Senate concerning that issue.
    As you indicated, we received detailed comments from some 
of our western Governors on that. We intend to further 
harmonize these rules with the recommendations of the Grand 
Canyon Commission on our final rulemaking.
    Mrs. Chenoweth. In your previous answer you had indicated 
that you're working to follow both recommendations. By that, 
you meant the Commission and?
    Mr. Seitz. The Commission and direction of Congress. Maybe 
``recommendations'' rather than ``directions'' is a better word 
there. The Commission set forth a whole series of 
recommendations within the report, as you are aware.
    Mrs. Chenoweth. All right. I will be following-up with more 
specific questions on this of both Dr. Pearson, and of you, 
Director Seitz.
    Mr. Seitz. Thank you very much. I appreciate the 
opportunity to answer them.
    Mrs. Chenoweth. Thank you.
    Mr. Schaffer.
    Mr. Schaffer. Thank you, Madam Chairman.
    Director Seitz, the impression as to the opinions about the 
extent to which you followed or considered the Grand Canyon 
study seem to vary a little bit--perceptions are--you ought to 
see the one from up here, when I can see the people behind you. 
I'll just try to interpret some of the stares and facial 
gestures as a disagreement, at least, about the extent to which 
Grand Canyon study has been included.
    Mr. Seitz. Can I comment on that?
    Mr. Schaffer. Yes. I doubt you can rattle them off here. Is 
it possible at some point in time for you to respond to the 
Committee which recommendations were forwarded into the overall 
rule?
    Mr. Seitz. We'd be glad to. One of the most important 
aspects of the visibility improvement rule is 20 percent best/
20 percent worst days. That is directly out of the Grand Canyon 
Visibility Transport Commission's report.
    The question is, do you measure visibility improvement over 
the entire twelve month period, or do you take a look at the 
distribution of the best and worst days? That very 
recommendation came out of the Grand Canyon Visibility 
Transport Commission, and, in fact, is the heart of the rule. 
Even when you take a look at some of this prescribed burning 
activity, the 20 percent worst days generally take place during 
the summer months.
    Working with the Department of Agriculture and the 
Department of Interior with their policies, they intend to 
encourage the prescribed burning be conducted in timeframes 
outside of that. So, that recommendation was one thing we 
borrowed.
    I would acknowledge the struggle the agency had on the 
proposal, and we spent--I would agree with the previous 
testimony--a great deal of time summarizing each and every one 
of the Grand Canyon Visibility Transport Commission's 
recommendations in the preamble. Our problem on the proposal 
was, as the Governor suggested in his testimony before the 
Senate, is that if we had taken those recommendations and 
incorporated them word-for-word in regulatory language, we 
would have then been prescribing to each individual State how 
they should develop their State regulations.
    And, as I discussed with the Governor, my guess was, if I 
had done that I would have been beaten-up for being overly 
prescriptive--that the agency would have been, probably myself, 
personally as well.
    The issue is how to take those recommendations which as the 
Governor suggested, were general recommendations and needed 
work with the follow-on body of the Grand Canyon Visibility 
Transport Commission to give them meaning, that would allow 
them to eventually be incorporated into individual State 
rules--that was the challenge. We didn't know how to do that 
and we spent a lot of time on the preamble talking about that.
    Subsequent to the rulemaking during the public comment 
period, we met with the Western Governors Association; we met 
with the board of the Grand Canyon; and they, as well as some 
industrial sectors in the West, have given us suggested 
regulatory language about how to accomplish that balance of 
creating a structure within the rule that recognized each 
recommendation of the Commission, but at the same time, did not 
tell the State of Idaho or the State of Colorado, this is how 
you must do your State rule.
    That is the struggle and one of the most, as you've 
indicated and heard in the testimony, one of the most 
controversial issues in the comment period. Hopefully, in the 
final rule based upon comments we received from the Western 
Governors and the industrial sector, we can do a better job of 
reflecting those recommendations in regulatory language.
    Mr. Schaffer. Let me ask you how the regional haze rule 
taken together with the particular standard--how does that 
allow for land managers to conduct burning without violating 
the Clean Air Act?
    Mr. Seitz. Well, again, you've heard some of the testimony 
from the earlier panel, we would hope, and I hope Dr. Omi and 
I'm not sure which previous witness specifically mentioned, 
that our worst fear is catastrophic fire from an air quality 
standpoint. Those fires generally burn hotter and with higher 
emissions than a prescribed burn.
    And you asked a question earlier, and if you'd like, we can 
get for the record--I believe it was you--about the fires in 
Florida; we have been tracking the emissions in Florida and 
they are very high. They are violating the PM-10 standard.
    So, our objective, along with the Forest Service, will be 
to use prescribed fire not only on public lands, but hopefully, 
on all lands such as the program Oregon has in place to, over 
the long-run, produce emissions done in a way that would be 
below the ambient standard. As a matter of fact, when you take 
a look at data from a monitor, fire is measured by elemental 
carbon. And seeing the results of the filters in these areas, 
carbon is only the fraction of the particles. Clearly, fire is 
not the major source of the problem in some of these areas. It 
is on a episodic basis, but on a long-term basis.
    Mrs. Chenoweth. Thank you very much, Director Seitz and Ms. 
McDougle. I do want to let you know we have two votes on the 
floor and we have 4.5 minutes left to get over there. So I am 
going to temporarily recess the Committee, and we will take up 
this session again just as soon as we can return. I will recess 
the Committee for 20 minutes.
    Is the second vote a 15-minute vote? We'll return in 20 
minutes. Thank you.
    [Recess.]
    Mrs. Chenoweth. The Committee will come to order, please.
    I wanted to very quickly ask Mr. Seitz one last question. I 
know that he has a family emergency and you must catch a plane. 
So, my question is--you suggested you will continue to accept 
comments and that you're making them part of the final record?
    Mr. Seitz. Yes, ma'am. Again, for the regional haze rule, 
the comment period, as you mentioned earlier, is closed. But 
any information or comments we receive are docketed as part of 
the final record and as the Agency has committed in the past, 
we intend to consider all of those comments.
    Mrs. Chenoweth. Did the Western Governors ask for 
additional comment period?
    Mr. Seitz. The Western Governors, in their submission, ask 
that what they have provided to us be put out for comment. And 
we are currently looking--I don't know if you had a chance to 
review--they provided us a written document that discusses 
proposals for the preamble and suggests different ways to write 
regulatory language. It was a very excellent and we're going 
through it now within the Agency, we got it at the end of 
month, and analyzing all of what was put in there, and trying 
to see what it would look like in regulatory language, and 
deciding what our next steps with it would be including the 
issue that you raise about supplemental notice and comment.
    Mrs. Chenoweth. But did the Western Governors ask for 
additional comment period?
    Mr. Seitz. They asked that we put out for comment what they 
provided to us.
    Mrs. Chenoweth. But they didn't ask for an additional 
extension on the comment period?
    Mr. Seitz. On the rest of the rule, no they did not.
    Mrs. Chenoweth. OK.
    Has anyone else asked for an additional comment period?
    Mr. Seitz. Yes. I'm sure in the comments we received there 
were requests for an extended comment period.
    Mrs. Chenoweth. OK.
    Given the additional implementation schedule prescribed by 
the highway bill, will you consider reopening the comment 
period?
    Mr. Seitz. On what?
    Mrs. Chenoweth. On ISTEA.
    Mr. Seitz. ISTEA was a law that directed us to harmonize 
the schedules of PM and haze. We don't view that as a comment 
issue. That is a direction from the Congress to do it and we 
intend to do it.
    Mrs. Chenoweth. But it will require more rulemaking and so 
forth. So, will the comment period be extended?
    Mr. Seitz. I would have to defer to my Office of General 
Counsel. I don't believe that is a comment period issue, Madam 
Chairman, but we can ask my general counsel to get back to you 
for the record on that.
    Mrs. Chenoweth. All right.
    [The information referred to follows:]
----------
    The EPA has decided to solicit additional public comment on 
incorporation of the GCVTC recommendations, with particular 
emphasis on the contents of the WGA letter, in an upcoming 
public notice. In that notice, EPA also will inform the public 
of the changes made by the TEA-21 to the State Implementation 
Plan submittal requirements and discuss the effect of these 
changes on the regional haze requirements. The EPA believes it 
is important to reopen the comment period specifically on these 
two significant new items received since the original comment 
period closed in December 1997.

    Mrs. Chenoweth. Since it does delay the implementation date 
in ISTEA, under that set of requirements, would you consider 
extending the comment period?
    Mr. Seitz. Again, there's three or four questions on the 
comment period you've asked: one is the request in what the 
Governors have submitted to us. We're reviewing that and 
deciding whether that should be put out; and, I believe you're 
asking us to open the comment period on the rule based upon the 
ISTEA recommendations.
    Mrs. Chenoweth. Yes, I'm asking you, will you extend it so 
you can make those new considerations required in ISTEA?
    Mr. Seitz. Again, Madam Chairman, we're going through the 
impact of ISTEA right now as to whether or not it requires a 
re-opening of the comment period. I'd have to defer to my 
Office of General Counsel, but we are reviewing all of that 
right now.
    Mrs. Chenoweth. It would seem logical that it would----
    Mr. Seitz. I understand your concern.
    Mrs. Chenoweth. And so, I will look forward to hearing from 
you through your office of general counsel.
    Mr. Seitz. Yes, ma'am.
    Mrs. Chenoweth. We would appreciate getting a response on 
that particular question within 5 days.
    Mr. Seitz. On both the issues? Just to be clear on both the 
Governors----
    Mrs. Chenoweth. The new requirements in ISTEA----
    Mr. Seitz. OK.
    Mrs. Chenoweth. They, being new, major requirements that 
will require rulemaking. I would appreciate within 5 days 
knowing if you will extend the rulemaking.
    Mr. Seitz. Yes, ma'am.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Mr. Seitz, I am very sorry to hear about 
your family emergency, but I understand that another party will 
be taking your place. Would you like to introduce them?
    Mr. Seitz. That is not what we had talked about, and if I 
can, if there are more questions for me, I'd like to stay and 
hang in here until as long as 12:45, if possible.
    Mrs. Chenoweth. All right, we'll do that then.
    Mr. Schaffer, do you have additional questions?
    Mr. Schaffer. I missed all of the discussion on the comment 
period. When did the comment period close? That was December?
    Mr. Seitz. December 5.
    Mr. Schaffer. December 5, and had there been ongoing 
discussions with--I asked this before--but there had been 
ongoing discussions and input from Governors around the country 
beyond the comment period?
    Mr. Seitz. There have been ongoing submissions and 
suggestions not only from the Governors, but other individuals 
that have been put in the docket.
    Mr. Schaffer. Input? Is it fair to characterize them as 
negotiations?
    Mr. Seitz. No, sir.
    Mr. Schaffer. No? These other groups, what kind of other 
input?
    Mr. Seitz. We received--I would have to characterize them, 
I'm not sure of the extent of submissions that have come in 
after the comment period closed--but any submission that came 
in after the comment period would have made a record of it and 
put it in the docket. There has been numerous occasions where 
people have asked us to brief them on the proposal after the 
comment period closed. We've docketed those discussions. I'd 
have to let the record speak for that, sir.
    Mr. Schaffer. Given the additional input that's come in 
after the comment period, the additional flexibility of the 
transportation bill, is there any--let me just ask it a little 
bit different than the chairman did--is there any reason an 
extension of the comment period would not be advisable?
    Mr. Seitz. Well, with respect to the ISTEA legislation 
direction, again, we're still analyzing it. But, it seemed 
pretty clear to me what the legislation direction was. It said 
that we will harmonize the control strategies for the PM fine 
areas with the haze rule.
    Mr. Schaffer. OK, for legislative references, 
understandable, but from a practical perspective and an 
administrative judgment, is there any reason that an extension 
of the comment period would not be advisable?
    Mr. Seitz. I cannot see why we would need an extension at 
this point in time, Congressman. No.
    Mr. Schaffer. OK, you see no need for--is there any reason 
it would not be advisable?
    Mr. Seitz. Any reason it would not be advisable?
    Mr. Schaffer. Right.
    Mr. Seitz. Other than that we had a public comment period 
and we extended it once? The agency needs to move forward and 
finalize the rule.
    Mr. Schaffer. Any other reason?
    Mr. Seitz. No, sir.
    Mr. Schaffer. Thank you. Let me shuffle through my notes 
for a second.
    If I remember, right when I was heading out the door going 
to the floor to vote, one of the questions I was asking was 
just about land managers conducting burning without violating 
the Clean Air Act. Can you speak to State and private 
landowners, how do var-

ious management strategies that may involve controlled burning 
on private or State lands interact with the proposed rule?
    Mr. Seitz. I think this is one of the issues we said in the 
interim policy we would put out, it is interim, because we want 
to consider activities that are underway with the final haze 
rule, and the Department of Agriculture has a task force 
dealing with agriculture burning which is another issue that 
clearly could impact haze. So once the efforts of that work 
group are completed, we intend to consider them.
    As indicated, I think, from the gentleman from Oregon, we 
would agree that a smoke management plan, much as the Grand 
Canyon recommended, has to extend way beyond just Federal 
lands. It must incorporate all burning that takes place, not 
only on Federal lands, but also on private lands.
    Mr. Schaffer. How about outside the legal jurisdiction of 
the United States, Canadian or Mexican?
    Mr. Seitz. Well, the issue's not only Canadian; 
particularly, the issue was raised earlier about the Mexican 
smoke issue. We consider that an international transport/
transboundary issue, and we have a policy dealing with that. 
That is a transport issue that we need to deal with from an 
international standpoint. We can provide you information on our 
position on that for the record, if you'd like. It is a 
different category. And as you know from the Mexican fire 
issue, or maybe you aren't aware of, we tracked with the 
weather service satellite data the actual movement of the 
Mexican fire plume into the United States and advised all areas 
along with the State of Texas--which was actively involved in 
this with the public health concern also--and have advised 
these areas that if they experience exceedances or violations 
of the standard on those episodic days that we would work with 
them, not to have that data penalize their ongoing attainment 
activities.
    [The information referred to follows:]
----------
    The plume from recent wildfires in Mexico and Central 
America caused increased air pollution in parts of the United 
States. In particular, we have observed increases in monitored 
particulate matter (PM) and ozone values. Our first concern, of 
course, is the impact on public health in the areas affected by 
the plume. As always, we feel that the State and local agencies 
must inform the public whenever the air quality in an area is 
unhealthy and should take appropriate measures to protect 
public health and to mitigate the health impacts to the extent 
possible. However, we want to ensure that State and local 
agencies and sources within affected areas not be held 
accountable for the National Ambient Air Quality Standards 
(NAAQS) violations caused by these international wildfires.
    EPA's 1996 Natural Events Policy for PM<INF>10</INF> 
recognizes the possibility of the impact of wildfires on 
attainment of the PM10 NAAQS and addresses situations like this 
[Memorandum from Mary Nichols, Assistant Administrator for Air 
and Radiation, to Air Division Director, Regions I-X, ``Areas 
Affected by PM10 Natural Events,'' May 30, 1996]. In accordance 
with this policy, EPA will use its discretion under section 107 
of the Clean Air Act not to designate areas as nonattainment 
for PM-10 when air quality violations are caused by natural 
events such as international wildfires. With regard to the 
ozone NAAQS, there are several studies which show that smoke 
from wildfires can result in increased ozone concentrations 
[(1) Ridley, B.A., et al., ``Measurements of Reactive Nitrogen 
and Ozone to 5-km Altitude in June 1990 over Southeastern 
United States,'' Journal of Geophysical Research, Vol. 103, No. 
D7, pages 8369-8388, April 20, 1998; (2) Mauzerall, D L., et 
al., ``Photochemistry in Biomass Burning Plumes and Implication 
for Tropospheric Ozone over the Tropical South Atlantic,'' 
Journal of Geophysical Research, Vol. 103, No. D7, pages 8401-
8423, April 20, 1998; (3) Andreae, M.O., et al., ``Biomass-
Burning Emissions and Associated Haze Layers Over Amazonia,'' 
Journal of Geophysical Research, Vol 93, No. D2, pages 1509-
1527, February 20, 1988]. Therefore, EPA does not intend to 
hold states responsible for violations of the ozone NAAQS which 
are caused by these wildfires.
    In addition, over the last several years, EPA has worked 
closely with its corresponding environmental agencies and 
ministries in Canada and Mexico to establish strong working 
relationships and agreements to generally address transboundary 
air quality issues. EPA has significantly benefited from the 
cooperative framework and information sharing on international 
pollutant transport that these partnerships have yielded.

    Mr. Seitz. We did not want them going back and saying they 
had to revise or do more work domestically, if, in fact, it was 
an international event.
    Mr. Schaffer. So the EPA can distinguish Canadian smoke 
from Canadian or Mexican wildfires in the United States?
    Mr. Seitz. Again, the Mexican plume we track by satellite 
data from day-to-day and hour-to-hour through the United 
States.
    Mr. Schaffer. What are we doing next, Madam Chairman? Do 
you have any more questions or is this it?
    Mrs. Chenoweth. I'd like for you to----
    Mr. Schaffer. OK. OK.
    Is there any reason that all sources of pollution, 
including those that originate on Federal land--wildfires, for 
example--is there any reason that those sources and the extent 
of air pollution as a result of these fires should not be part 
of the final rule on regional haze development?
    Mr. Seitz. Again, there was extensive comment on not only 
Federal fire, and how it would apply in the final rule, but how 
we would deal with it. This was a comment we received and will 
consider in the final rule.
    I think it is important to note that the final rule should, 
as did recommendations for the Grand Canyon Visibility 
Transport Commission, consider all sources, not only fire but 
manmade as well.
    Mr. Schaffer. Well I think the Federal Government ought to 
be held to the same standard as any other source for the 
private, State land, or any other source of particular matter, 
or any other pollution source. The EPA ought to pursue in a 
manner that treats the Federal Government no different than any 
other entity.
    Currently, in my opinion, it's time for the Federal 
Government to recognize it's role in air pollution and regional 
haze. Smoke and forest fires, and prescribed burns on Federal 
lands is the single greatest contributor to regional haze in 
national parks and wilderness areas. And the EPA practically 
exempts the Forest Service from compliance. I think the EPA 
needs to carefully consider all sources of pollution in their 
air quality and visibility standards should reflect that.
    I see we're out of time, Madam Chairman, but I would----
    Mr. Seitz. If I could just comment, I would agree that 
forest fires, uncontrolled burns are episodic; they are not the 
single largest ongoing source of impairment to haze. And as 
mentioned earlier, by the previous panel, the Clean Air Act 
does provide to the extent that States develop and adopt 
regulations, maybe like Oregon, that Federal lands and land 
managers equitably are required to comply with those rules. So, 
Congressman, we agree with you.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer.
    I want to take one more swing at the effects of ISTEA while 
you're still here.
    Mr. Seitz. Should I duck?
    [Laughter.]
    Mrs. Chenoweth. Given the complexity of the issues 
associated with the effect of fire on regional haze in Class I 
areas, given EPA's agreement to a delayed implementation 
schedule of the Inhofe amendment, I believe Mr. Seitz, that it 
is reasonable to ask you to reopen the comment period on the 
proposed rule so that the public can fully participate in the 
resolution of these issues. Do you agree?
    Mr. Seitz. As I said, Madam Chairman, your position is 
clear. I've heard your position. As we review the final rule, 
the Inhofe amendment, as well as submission for the Governors, 
we will consider the comment period.
    Mrs. Chenoweth. All right. This is a special request, and I 
look forward to your answer.
    With that, Mr. Seitz, you are welcome to be excused. We'll 
be asking questions of Ms. McDougle, or you're welcome to stay, 
whatever your schedule allows.
    Mr. Seitz. Thank you very much, Madam Chairman.
    Mrs. Chenoweth. Ms. McDougle, you mentioned that, before 
embarking and engaging in a prescribed fire, that usually your 
regional or your supervisors evaluate winds and air pressure, 
and so forth----
    Ms. McDougle. Local conditions.
    Mrs. Chenoweth. Yes. Yet, in our area in Boise, I 
personally have never received as many calls as I did when we 
were doing prescribed burning, just a few weeks ago. I received 
hundreds and hundreds of calls. Because the Treasure Valley in 
which Boise, Naja, Caldwell, are located, is an air inversion 
weather pattern there, this smoke came right down and settled 
on the valley floor and people were awfully sick; and people 
got awfully irritated. Do you have any idea as a result of that 
experience and other experiences like that, what your position 
may be in the future? Because it really does cause more asthma, 
a lot of health problems, stinging eyes and irritated people.
    Ms. McDougle. I'm not personally aware of that particular 
situation, Madam Chairman. I'd be happy to look into it.
    Also, sometimes these things happen and they're not as a 
result of Forest Service activities even though we are the ones 
who are deemed responsible. And if you will look at some of the 
events in the Florida fires as well, wind shifts that were 
unpredicted can dramatically alter the direction that fire 
fighters will go on the strategies that they will use to put 
out fires. So, I'm not real sure what you would like to see 
here.
    Mrs. Chenoweth. Usually, spring has unpredictable weather 
patterns--that's spring. It was very unfortunate that in that 
period of unpredictable weather that forests prescribed burning 
was implemented. Now, when you say that that it isn't always 
your call----
    Ms. McDougle. No, I'm saying that it's not always the 
forests, it's activities that could--especially in the areas of 
mixed ownership--activities that could occur on Forest Service 
lands, but within the green light that we sometimes get blamed 
for it. But I'll be happy to look into that and get back with 
you.
    Mrs. Chenoweth. I can guarantee that we could tell the 
difference. It was a great press interest that there were 
prescribed burnings going on when there was an air inversion. 
So, it was because of the activity in the forest.
    Ms. McDougle. OK.
    Mrs. Chenoweth. And, it was unfortunate.
    Mr. Truesdale, did you have anything you would like to add?
    Mr. Truesdale. The issue of putting smoke into valleys and 
into areas during periods of inversion is something that we 
would want to avoid because of the reaction and the impacts 
that you just described. I think that planning process, the 
implementation process, the working with the local smoke 
management authorities within the State, we need to follow the 
restrictions and regulations in order to avoid that and make 
sure it doesn't happen. I am not familiar with this particular 
incident, although I have heard that there was a bad weather 
forecast, but we would have to look into that particular one 
for you.
    But, I agree with you. Under those conditions, where smoke 
would be sent into populated areas, is probably not the 
conditions that we should be burdened. But, at the same time, 
we may need to take some opportunities in the spring where the 
weather is a little bit unpredictable in order to avoid the 
more serious impacts from wildfires during the summer that 
we're trying to avoid by reducing the fuels and reducing the 
impacts of smoke from wildfires.
    I believe there would be a tradeoff there. However, I don't 
believe the tradeoff should be smoke into a valley if we can 
avoid that. The smoke management plan of the burning plan and 
the implementation plan should avoid that. I agree.
    Mrs. Chenoweth. In southern Idaho, we were prevented from 
even sighting an even coal fire plant with huge call of smoke 
stacks because of the air inversion back in the early 1970's. 
So, it's an historically established fact that there is always 
air inversion in there about that time of year.
    I know the people who make those decisions in the Boise 
National Forest, and while I have not talked to them directly, 
I have worked with Ms. McDougle, it is unlike them to make 
these kinds of decisions. I have high regard for their ability 
to make good, sound decisions. Was there any pressure on the 
forests to engage in these prescribed burns; perhaps against 
the best advice of the foresters who know that area?
    Ms. McDougle. I doubt it. The targets or burning are 
bottom-up targets. Phil identifies them to us; we roll them up, 
and this is our annual plan of work as best we can meet them. 
So, no.
    Mrs. Chenoweth. Ms. McDougle, I would like to know 
personally how the decision was made to engage in this 
prescribed burning at this time.
    Ms. McDougle. I will be happy to----
    Mrs. Chenoweth. And who was in on the decisionmaking? Now, 
I don't want anybody's head.
    Ms. McDougle. I understand.
    Mrs. Chenoweth. I don't want anyone to get in trouble over 
this unless--I would like to be able to review the facts.
    Ms. McDougle. Certainly.
    Mrs. Chenoweth. But I also don't want our forests under 
undue pressure from any other agency, including EPA or anyone 
else to have to feel pushed to engage in this kind of activity. 
Now, should the choice be between setting prescribed fires in 
the springtime as compared to the summertime? I suggest that 
there is a better alternative, and I'd like to know the degree 
to which mechanical activity on the forest was also considered 
to reduce the fuel load.
    Ms. McDougle. OK.
    Mrs. Chenoweth. Could you please get back to me on that?
    Ms. McDougle. OK. I'd be happy to.
    Mrs. Chenoweth. Because, to me, that would be a very 
logical alternative.
    Ms. McDougle, you mentioned EPA natural events policy and 
its emphasis on mitigation measures to reduce the effects of 
fire on air quality. Could you please describe the mitigation 
measures you now utilize and any other measures you'd like to 
see used in the future for mitigation?
    Ms. McDougle. We have several ways that we go about looking 
at that on the work level. We do it through our planning 
process where we apply NEPA, where we utilize public 
involvement; where we assure that we comply with statutory 
requirements. We have completed and published a desk guide map 
that lays out how you consider fuels management, fire inland 
and management planning. We have published this land management 
considerations and fire adapt ecosystems. It's a conceptual 
guideline and we are revising it to better refinement at the 
field.
    So there are a number of things that are being done in a 
national framework, but the allowing the field units to tailor 
it.
    Mrs. Chenoweth. Chief Dombeck has testified that 40 million 
acres of Forest Service lands are susceptible to catastrophic 
wild fires and are in need of fuels reduction. It's also stated 
that many of these acres cannot be burned safely unless they 
are initially treated. What does the Forest Service plan to do 
to reduce the wild fire risk in these areas? And how will these 
efforts address the need to minimize smoke emissions such as in 
the Boise area?
    Ms. McDougle. You are correct in saying that the Chief has 
made this statement, the Secretary, as well, and Joslin and 
others. We estimate that between 39 and 40 million acres are at 
risk for catastrophic fires on national forests out there. This 
is a rough estimate and we expect to have a refined map late 
this fall that will a lot more clearly articulate how many 
acres and where they are.
    The map that we have up there shows about 70 million acres 
which contain those 40 million that we've talked about and they 
are represented in very implied species. We understand that the 
volume is no longer in the big trees and that it is in the 
small diameter wood. We understand that what we're talking 
about here is a timber pilgrimage transition. We understand 
that more has to be done in terms of forest conditions, 
ecosystem restoration. We understand that we have to go forward 
in addressing those things with constrained budgets. We also 
understand that our tools are going to have to be different to 
do this. This takes time.
    Our timber program is aggressively involved in re-
engineering from some of their contract to their actual tools 
on the ground to better respond to the emerging needs here. We 
understand that 50 percent of the acres that need fuels 
treatment have to be accessed mechanically, to get to them. We 
understand that because we say there are 40 million acres at 
high-risk, that all 40 million acres don't need treatment.
    We don't know what that number of acres are to 
substantially reduce that risk, but those are the acres that 
have been identified where fire has been excluded from the 
ecosystem.
    We understand that we have to vastly expand our 
relationship with these communities to where there are markets 
for this wood to find ways to connect the communities with the 
markets and with the businesses, either expanding them or 
developing them or creating them, and our Madison lab is doing 
this. Where there aren't markets, we have to be more creative 
in developing them.
    So, we see this as a very comprehensive need out there, and 
there is a commitment on behalf of the Secretary, the Chief, 
and myself to get on with it.
    Mrs. Chenoweth. What tools will you use or will you have 
available to use to meet these goals in the future?
    Ms. McDougle. We're still in the inventorying stage, just 
to find out what's out there. We have our folks in research 
working on that right now.
    Mrs. Chenoweth. Ms. McDougle, we've done a lot of 
inventories. We've got to move beyond that--well, what we've 
been talking about, fire management and air quality here.
    Ms. McDougle. Well, what we've inventoried and what we've 
paid attention to and what we've kept up with was the stuff 
that had market value. What we have not inventoried is the 
stuff that doesn't. That's what we have to get a handle on. We 
do have a handle on the acres that are at high-risk to insects 
and disease across this country. We know that. We will have 
this fall those acres that are at high-risk for catastrophic 
fire. I think we'll have something we're able to overlay that.
    But right now, Congress has been very, very supportive in 
terms of the funding that we've gotten, that Interior has 
gotten to complete those inventories, and we're almost done.
    Mrs. Chenoweth. But in your answer, you did say that the 
timber program is in transition.
    Ms. McDougle. Yes.
    Mrs. Chenoweth. Will logging thinning be options in the 
future?
    Ms. McDougle. Significant.
    Mrs. Chenoweth. Logging and thinning will be a viable 
option in the future.
    Ms. McDougle. Yes, in what proportions, I don't know, but, 
yes. This is not an intent to get away from that, but where the 
volume is. This isn't small diameter wood right now.
    Mrs. Chenoweth. Yes. You heard Mr. Walcher's comment about 
it's the larger diameter trees when burning, create more smoke, 
and actually work against us. So, if there is an area where we 
need to thin, of course, none of us want to leave the small 
diameter fuel load in there.
    Ms. McDougle. Well, I agree with you.
    Mrs. Chenoweth. See, the whole purpose of this hearing is 
to figure out a way and to get some good facts on the record 
with re-

gards to conflicting values. So, it would seem to me that the 
market will not respond as the market is made up now, even with 
chips becoming a big part of construction. The market will not 
respond to be able to, in a viable manner, economically, get 
that small stuff out of the forest.
    So, will our logging programs as we have known them in the 
past and has been framed by the National Forest Management Act 
still be part of your program? Or is the transition to move 
away from that as required in NEPA?
    Ms. McDougle. I think the transition that I'm describing is 
that the work of the timber program is broader than it's been 
in the past. The funding constraints are bigger than they've 
been in the past and it challenges the Agency to be a lot more 
adaptive and a lot more creative to respond to all of the 
different needs that are out there; to respond to the needs of 
the community in terms of economy; to respond to forest health; 
and we don't have that portfolio in place right now to do that.
    Mrs. Chenoweth. Both of us feel that we do have other 
questions, but both Mr. Schaffer and I, through the Committee, 
will be submitting more questions in writing to both you and 
Mr. Seitz. This is an area of great concern to us, and I don't 
believe that the goals as you described them are mutually 
exclusive, and that seems to be up until today the tendency 
where we were treating them as mutually exclusive goals.
    To the degree that I understood you to say, they don't have 
to be mutually exclusive, and that may be part of the 
transition. If that is correct, I am pleased to hear that.
    Is there anything that you would like to add?
    [The information referred to may be found at end of 
hearing.]
    Ms. McDougle. I would like to say, Madam Chairman, that as 
we proceed in framing this broader mission, if you will, we 
will be more than happy to spend time with you and your 
Committee and your staff in keeping you involved in how it's 
developing.
    Mrs. Chenoweth. All right. Thank you very much.
    Did you have any final comments?
    Mr. Schaffer. No.
    Mrs. Chenoweth. All right. I do want to thank you very much 
for your patience. We can't always call the floor schedule in 
these committees and they can be drawn out into very long 
committee hearings, but I thank you for your patience.
    And I thank you, Ms. McDougle, for accommodating the time 
that we had to spend with Mr. Seitz so he could----
    Ms. McDougle. That's perfectly all right.
    Mrs. Chenoweth. The record will remain open for 10 working 
days. We would appreciate your responses for any changes or 
responses within 10 working days.
    [The prepared statement of Mr. Joslin may be found at end 
of hearing.]
    Mrs. Chenoweth. With that, this hearing is adjourned.
    [Whereupon, at 12:55 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
   Statement of Dr. Robert L. Pearson, Radian International, Denver, 
                                Colorado

    Mr. Chairman and members of the Committee.
    My name is Dr. Robert Pearson. I am an air quality 
scientist and Project Manager at the Denver office of Radian 
International, an environmental consulting firm. I am also an 
adjunct professor of air pollution in the graduate school of 
the University of Colorado at Denver.
    I am appearing before you today to discuss the air quality 
impacts of the practice of using prescribed burns to reduce 
vegetation in our nation's forests. I also appeared before the 
full Committee in a similar hearing last September 30. I 
appreciate the opportunity to again appear before you Madam 
Chair and members of the Subcommittee to further discuss this 
important subject.
    First a short bit of history. I have practiced as a 
scientist in the area of air pollution for my entire career, 
lasting some 25 years. In 1992, Governor Romer of Colorado 
appointed me to be a representative of Colorado on the Public 
Advisory Committee of the Grand Canyon Visibility Transport 
Commission. Congress established the Commission in Section 169B 
of the 1990 amendments to the Clean Air Act. The Commission, 
made up of the governors of eight states and representatives of 
several Indian tribes, was charged to recommend to EPA ways of 
reducing man caused visibility impairment in and near the Grand 
Canyon. The Public Advisory Committee was given the 
responsibility of reviewing the man caused impact to visibility 
in the Grand Canyon and other Class I national parks and 
wilderness areas in the West and making recommendations to the 
Commission on methods for preventing and remedying such impact.
    We spent four years and more than eight million dollars 
reviewing the science that had been collected on this subject 
including new visibility data gathered for the Commission. We 
then formulated policy recommendations for the Commission to 
consider. Throughout the conduct of this scientific study, 
every interest group was represented including environmental 
groups, the EPA and the Federal land management agencies of the 
Forest Service, the Bureau of Land Management and the National 
Park Service.
    On June 10, 1996, the Commission published its findings in 
a report titled ``Recommendations for Improving Western 
Vistas.'' This report discusses in detail the scientific study 
that was done and the recommended control strategies for all of 
the categories of sources of air pollution located throughout 
the West. I am here today to relate some of the information we 
learned as we struggled to craft a workable regional haze 
improvement plan for the West.
    The EPA has recently proposed a set of regulations to 
allegedly protect and improve regional visibility in the U.S. 
Unfortunately, even though the proposed regional haze rules 
acknowledge the work of the Commission, the rules almost 
totally ignore the recommendations of the Commission. We on the 
Commission worked very hard to craft a workable plan for 
improving visibility in the West. However, this regional haze 
proposal of EPA is ignoring our work and attempts by the 
Western Governors Association (WGA) to get EPA to follow the 
Commissions approach have led to even more confusion. If the 
new regulations are adopted, our efforts in improving 
visibility in the West will be overwhelmed by land management 
plans of the Forest Service, Bureau of Land Management and the 
National Park Service, which I will detail in a moment.
    The Commission's proposed strategy for improving visibility 
in the West took a regional consensus approach to achieving 
this goal. The consensus addressed all sources of air pollution 
emissions in the West including motor vehicles and fugitive 
dust. It recognizes the current trends in western air quality 
that will result in improved regional visibility over time. 
Instead of adopting the Commission proposal, EPA has chosen to 
go back to their usual command and control approach to place an 
ever-increasing burden on a single group, stationary sources. 
The Commission's work has shown that this group of sources has 
a relatively small and declining role in the cause of regional 
haze, particularly on the worst days that EPA has chosen to 
target. Requiring additional controls on them will yield 
relatively little benefit over emission reduction trends that 
are currently under way.
    EPA also is apparently not aware of the legislative history 
of the language in the Clean Air Act for protecting regional 
visibility, Congress in debating the 1990 amendments to the 
Clean Air Act had before it two bills. Section 707 of the House 
Bill and Section 709 of the Senate Bill had provisions similar 
to the currently proposed EPA regional haze rules. Those 
sections contained requirements for Best Available Control 
Technology analysis of major stationary sources, final 
visibility rules in a year, regional haze plans, criteria for 
reasonable progress and a methodology for measuring visibility. 
These sections were deleted during Senate floor debate and the 
current Section 169B was inserted in its place and adopted by 
Congress in the final bill.
    Section 169B requires that studies of regional visibility 
are conducted and regional visibility transport regions be 
established to formulate measures for improving visibility in 
the region. It was under this provision that the Grand Canyon 
Visibility Transport Commission was established to perform 
these analyses. Section 169B also requires the Administrator of 
the EPA to take into account the recommendations of the 
Commission in forming its regulations for improving visibility 
in the region. EPA has chosen to follow the provisions of the 
sections that were deleted by the Senate and House and not the 
sections that were adopted in the final bill.
    Congress, in Section 169B, required the Commission to study 
several concepts in regional visibility including visibility 
transport regions and clean air corridors. The Commission 
studied these and included discussions of them in its report. 
The Commission also reported in detail and made recommendations 
on several potential sources of western visibility impairment 
including area sources, fugitive dust, prescribed fire, mobile 
sources and emissions crossing the border from Mexico. Congress 
required that the EPA Administrator take into account these 
recommendations from the Commission report in formulating its 
proposed rule. The EPA proposed rules don't contain any mention 
of any of these concepts and recommendations required by 
Congress. EPA has instead chosen to ignore Congress and the 
Commission report and to focus on stationary source control, 
giving more authority to the Federal land managers, and 
requiring the states to perform many costly functions such as 
setting up visibility monitoring stations.
    It is apparent to me as an air quality scientist that EPA 
has chosen to take a narrow perspective of improving regional 
visibility. This is in stark contrast to the Commission that 
has taken a much broader, and in my view, a much more workable 
scientific approach to improving regional visibility in the 
West by looking at all sources of visibility impairment rather 
than a select few. EPA should be told by Congress to rescind 
its regional haze regulation proposal and to prepare a new 
regional haze rule which is in accord with the intent of 
Congress as expressed in Section I69B and which fully 
incorporates the process of the Grand Canyon Visibility 
Transport Commission.
    The Federal land managers also have several 
responsibilities for the protection of regional haze that I 
would like to bring to the attention of the Subcommittee. One 
provision of current law as well as the proposed regional haze 
rule allows the Federal land manager of a Class I area to 
identify a source or some group of sources some distance away 
which could be impacting visibility in the Class I area. The 
state in which the source is located would then be required to 
evaluate the allegedly offending source(s) for the retrofit of 
air pollution control technology equipment to reduce the effect 
on the Class I area. In effect, this gives the Federal land 
manager land use control over lands outside of the wilderness 
area despite the fact that wilderness legislation passed by 
Congress specifically prohibits the establishment of buffer 
zones around wilderness areas.
    While this scenario may sound far-fetched, it has been 
going on for some time in Northwestern Colorado. The Forest 
Service, manager of the Mount Zirkel Wilderness Area accused 
the Hayden Power Plant of polluting the wilderness area some 30 
miles away. The State of Colorado Department of Public Health 
and Environment along with the Forest Service and the Colorado 
utilities conducted a $3 million scientific study to determine 
the sources of visibility impact in the wilderness area. The 
recently released results of the study showed that the Hayden 
power plant was only a minor contributor to visibility 
impairment in the wilderness. Despite this evidence, the source 
owners have committed to spending over $120 million to reduce 
the emissions from the plant.
    At the same time the Federal land managers can trigger 
clean up activities on other sources, they plan on increasing 
their own air pollution activities through increasing 
prescribed burns. Interior Secretary Babbitt testified to the 
full Committee in its hearing last fall his intention to 
increase the use of prescribed fire by 400 percent as a land 
management tool in order to reduce the level of fuels built up 
in our forests. Secretary of Agriculture Glickman also 
testified before the Committee that the Forest Service would 
dramatically increase its use of prescribed fire. While the 
elimination of fuels in our forests is needed, the use of fire 
as the tool of choice will cause regional haze to increase.
    Forest fires, either intentionally set or accidental, 
release quantities of fine particles made of carbon and other 
elements in the smoke. These fine particles cause several 
impacts on air quality. First the concentration of fine 
particles in forest fire smoke may cause the PM 2.5 National 
Ambient Air Quality Standard recently adopted by EPA for the 
protection of human health to be violated near the fire. In 
addition, the fine soot particles in the smoke will affect 
regional visibility by both scattering and absorbing light.
    At times smoke containing fine particles travels hundreds 
of miles and across several states increasing regional haze all 
along the way. I can vividly remember seeing the effects in 
Denver of several California wildfires, the 1988 Yellowstone 
fires and just this spring the smoke from the fires in Southern 
Mexico. These effects were much reduced visibility and a smoke 
smell in the air. While I do not have air quality measurement 
data from these periods, I am sure the concentration of fine 
particles was elevated for several days each time even at the 
considerable distance that the smoke traveled to get to Denver.
    During the Commission study of western regional visibility, 
we also saw photographs taken at Hopi Point at the Grand Canyon 
when a small wild fire on the South Rim of the Canyon was 
brought under control and extinguished. Even such a small fire, 
which lasted only a few hours, filled the Canyon with smoke. 
The point is that even a small fire in or near a Class I area 
can cause dramatic effects on visibility and the concentration 
of fine particles in the air similar to the effects seen at 
long distances from large fires.
    The Commission analyzed the effects of the announced 
increase in the use of fire as a forest management tool and 
concluded that the effects on western regional visibility could 
easily wipe out the gains made by all other source categories 
combined. These other source categories, which are currently 
reducing emissions, include power plants, copper smelters, 
cars, trucks and area sources of fugitive dust.
    Note that the Commission combined all fires, both man 
caused and wild fires, into the ``natural category'' for our 
analysis. Such natural causes contribute almost half of the 
visibility impairment in the West. To some extent considering 
smoke from intentional man caused fires as ``natural'' biases 
the report. This also, in effect, excludes the smoke from 
prescribed burns from being considered against your goal in the 
Clean Air Act of remedying man caused sources of visibility 
impairment. The point is that all of our hard won incremental 
improvements in regional visibility across the West could be 
overwhelmed by the increased use of fire as a land management 
tool by the Federal land management agencies even though their 
contribution is considered ``natural.''
    The story gets even better since EPA Administrator Browner 
testified in last fall's hearing before to full Committee that 
EPA will ignore air quality measurements on those days when 
fires, either intentional prescribed burns or unintentional 
wild fires, are taking place. This is to allow regions to meet 
the recently adopted EPA fine particle ambient standards. This 
takes us to an absurd outcome of EPA insisting that fine 
particle pollution in many areas of the West be reduced to 
protect human health and visibility on all but the worst days 
when fires are taking place. Those bad days, when health and 
visibility impacts are at their peak, will be exempt from 
recording of the measurements through this flexible 
interpretation by EPA of their monitoring requirements.
    While I am extremely concerned that prescribed burns will 
hamper and even possibly prevent our attainment of the goal 
Congress set of remedying man made causes of visibility 
impairment in the West, I recognize that forest fires can and 
will continue to occur. Federal land managers must take action 
to reduce the level of fuel available in the nations forests 
for wild fires to consume. I am not convinced, however, that 
prescribed burns are the only tools at their disposal for this 
purpose. Other techniques such as logging and mechanical 
removal can and should be selectively used to reduce the amount 
of fuel available for fires.
    Both Secretary Babbitt and Secretary Glickman testified 
last fall that mechanical thinning of vegetation in our forests 
would be part of the treatment that will be applied to the 
forests. This testimony runs counter to the recent trend by the 
Forest Service of reducing logging on the nation's forests. 
Secretary Glickman went on to say that nearly half of the 40 
million acres of Federal land needing vegetation reduction 
would have to be done mechanically because the level of fuel in 
the forest is too high to perform a prescribed burn without 
major damage to the forest.
    When prescribed fire is indeed the only available option, 
the land managers should only use it when conditions are right 
for burning with little smoke being produced which will affect 
visibility in and near Class I areas. Only then can we have 
some hope of achieving cleaner air in our Class I areas. The 
increase in regional haze due to prescribed burns will make it 
more difficult for the improved visibility goals to be 
achieved.
    The proposed EPA regional haze rules could trigger even 
more stringent controls on stationary sources to make up for 
the increased visibility impact of the prescribed burns of the 
Federal land managers so that the visibility improvement goals 
set by Congress are met. Under the proposed regional haze 
rules, the Federal land managers are allowed to set fires at 
will to reduce forest fuel. At the same time the land managers 
have the power to force other sources to reduce their emissions 
that may affect Class I areas to meet the congressional goal. 
This ``do as I say not as I do'' philosophy of the Federal land 
managers suggests a double standard that needs to be addressed 
by Congress. You need to assure that the clean air goals you 
set are being met with an equal burden being carried by all. 
This is the approach chosen by the Grand Canyon Visibility 
Transport Commission that EPA is ignoring.
    We must all work together to see that the goal of improved 
visibility is achieved that you as members of Congress have 
set. Fires on Federal lands were identified by the Grand Canyon 
study as the largest single episodic source of regional haze. I 
am extremely concerned that Federal land managers have chosen 
to point the finger at others while ignoring the obligation 
they themselves have to protect the air quality in areas they 
have been charged to protect. Until land management agencies 
recognize this responsibility and factor it into their day-to-
day land management practices, will we see the benefits of 
improved air quality in our Class I areas. Also, the regional 
haze rules recently proposed by EPA need to be rescinded 
because they lack scientific basis, exclude major sources, 
exclude the Grand Canyon process, return to a command and 
control regime previously rejected by Congress, and have no 
adequate cost/benefit or unfunded mandate anaysis.
    Thank you.
                                ------                                


Statement of Dr. Philip N. Omi, Professor and Director, Western Forest 
       Fire Research Center (WESTFIRE), Colorado State University

CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:

Introductory Comments

    Thank you for inviting me to present my views on prescribed 
burns, other management techniques, and fire economic impacts 
as these relate to your air quality deliberations. My views on 
these topics result from 28 years of experience studying fires, 
including five years as a seasonal firefighter and 23 years as 
researcher and professor in forest fire science. For the past 6 
years I have served as Director of the Western Forest Fire 
Research Center (WESTFIRE) at Colorado State University, which 
performs integrative research into ecological, socio-economic 
and environmental effects of forest and rangeland fires. 
Current and recent projects have provided insights into the 
cost-effectiveness of mitigation efforts aimed at reducing 
consequences of wildfires. We focus on areas in need of fuels 
treatment and suggest appropriate management techniques for 
allowing people to live and work safely in fire-prone areas 
throughout the western U.S. Recently I have been invited to 
participate on the Fire Emissions Joint Forum of the Western 
Regional Air Partnership, which will be developing policies and 
methodologies for implementing recommendations from the Grand 
Canyon Visibility Transport Commission.

Overview

    Fire has been a part of most terrestrial ecosystems for 
thousands of years. Lightning has provided a natural ignition 
source and humans have interacted with fire for more than 
300,000 years. Humans have used fire to shape landscapes for 
perhaps the last 20,000 years. Combined with lightning 
ignitions, fire has created a diverse mosaic of so-called fire 
type plant communities. By the same token, ecologists point to 
the impacts of the past 100 years of fire suppression in the 
U.S., including excessive fuel buildups, stagnant dog-hair 
stands, increased disease and insect infestations, less 
diversity and numbers of wildlife, and ultimately, devastating 
wildfire conflagrations. These outcomes are symptoms of a 
general deterioration in forest health in affected areas. 
Compared to presettlement times, current forests appear denser, 
have many more small-diameter trees and fewer large trees, and 
support greater quantities of surface and canopy fuels.
    The forests and wild areas of the U.S. are the result of a 
long history of disturbance (such as fire) and also of human 
use. Most north American plant species are adapted to periodic 
fire recurrence and humans have manipulated forest rangeland 
environments with fire, cutting, and other cultural activities. 
Fire has served humankind as a valuable tool; but we also know 
too well that unbridled fire can wreak havoc on our best-laid 
plans for enjoying both tangible and intangible products from 
the forest.
    Recently, the use of fire has achieved credibility as a 
land management tool for achieving a variety of objectives. 
Under carefully prescribed conditions, fire has been used to 
reduce fuels, prepare seedbeds, control plant diseases, remove 
undesirable plant species, restore ecosystems, and improve 
wildlife habitat. Even so, surprisingly little is known of the 
relationship between fire and its effects, including impacts on 
air quality.
    Smoke from fire contributes to regional haze and can 
adversely affect commerce and human health. On the other hand, 
fire may be an indispensable tool to the land manager for 
reducing the risk from future fires as well as for restoring 
forest health in many areas of the western U.S. Thus an 
emerging conflict is taking shape between the desire for clean 
air versus the inevitable and intentional ignition of the 
nation's wildlands. Further, tightening of air quality 
restrictions could inadvertently lead to more smoke and haze as 
a consequence of greater limitations on prescribed fire.

Fire Impacts on Air Quality

    The Grand Canyon Visibility Transport Commission report 
summarizes conveniently in one document the effects of fire on 
air quality, especially from a visibility standpoint. According 
to this report, ``emissions from fire (wildfire and prescribed 
fire) are an important episodic contributor to visibility-
impairing aersols, including organic carbon, elemental carbon, 
and particulate matter.'' The report also includes important 
gaps in our knowledge that can be addressed through future 
research.
    The chemistry of smoke is complex and as yet incompletely 
specified, although the distribution of particle sizes is 
better known. The human health impacts from fire emissions 
aren't understood very well, although increased levels of fine 
particulate matter have been associated with higher levels of 
absenteeism, illness, and premature death. Better information 
is needed though the potential downside seems clear. We know 
that regional haze can lead to aircraft, marine vessel, and 
highway deaths in the short-term; long-term impacts of 
prolonged exposure haven't been studied conclusively.
    Regional haze from fires usually doesn't garner the same 
attention as subdivisions aflame or massive evacuations. Even 
so, according to news reports the haze from the Florida fires 
was ``visible on satellite pictures from space and evident 200 
miles out into the Atlantic Ocean . . . causing health problems 
and curtailing outside activities,'' (USA Today 6/26/98). 
Closer to home, in 1994 an estimated 1.35 million tons of fine 
particulate matter was emitted from 65,700 fires that burned 
3.8 million acres of Federal land. During these incidents 
several northwestern U.S. communities experienced smoke 
pollution episodes exceeding EPA standards adopted to protect 
human health. The downwind smoke plume from these northwestern 
U.S. fires was visible 150 miles away.

Tradeoffs between Wild- and Prescribed Fires

    In any given year anywhere from 1 to 7 million acres of 
forests and rangelands may burn by wildfires. These fires may 
have the greatest impact on visibility in all airsheds, but 
especially in Class I areas mandated by Congress for special 
air quality protection. Further, increased visibility 
impairment by fire is likely to exceed any potential visibility 
improvements made possible by regulation of emissions from 
other sources.
    The economic impact of wildfires can be substantial. In 
this decade we have had several $1 billion fire seasons. 
Although the losses from the 1998 Florida fires may not be 
known for some time, I have heard cost and damage estimates 
ranging from $300,000 to $.5 billion. The Oakland Hills fire in 
1991 destroyed 3,000 homes, killed 25 people, and produced over 
$2 billion in costs and losses.
    Of the elements comprising a fire's environment (fuel, 
weather, and topography), only fuels can be managed effectively 
to reduce the severity of eventual wildfires. The vast variety 
of fuel treatments fall into the following broad categories: 
disposal on site (e.g., burning), redistribution on site, 
physical removal, vegetation type conversion, and isolation. 
The types of fuel treatments that fall into these various 
categories can be quite numerous, e.g., hand piling, tractor 
piling, mechanical crushing or mastication and burning, dozer 
chaining, jackpot burning, chemical desiccation and burning, to 
name just a few.
    Recently Federal agencies with fire management 
responsibilities have embarked on an ambitious expansion in 
fuel treatment programs, with emphasis on prescribed fire and 
mechanical thinning. This effort is part of a larger attempt to 
restore and maintain ecosystem health while providing for 
public and firefighter safety. Reductions in wildfire costs are 
part of this ambitious agenda although many uncertainties 
remain about the magnitude of savings achievable. The agencies 
have identified 95 million acres of public land in need of 
hazardous fuel reduction, primarily in the western states. 
Currently, agencies are treating about 2 million acres 
annually; projections call for expansions to 3-6 million acres 
annually over the next decade. These projections are 
speculative but some suggest that fuel accumulations may 
continue to stockpile, even with the planned expansions in fuel 
reduction programs.
    Prescribed fire is receiving much attention because it 
mimics natural fire processes and treatment costs are 
relatively low compared to other alternatives. Pre-

vious studies in California have documented that prescribed 
fires can produce comparable fuel hazard reduction but at 1/10 
the cost per acre as mechanical treatments. At the same time, 
intentional burning does require skilled staff and reliance on 
suitable fuel moisture and wind conditions during burn 
execution. Escapes can be costly and and even modest increases 
in prescribed fire applications could significantly degrade air 
quality in a region. These risks can be mitigated through sound 
planning and professional execution, but these same risks 
cannot be eliminated completely.
    Ultimately a combination of mechanical removal followed by 
prescribed fire may be the optimal treatment for many areas, 
especially those located at safe distances from human 
population centers. In such cases, the mechanical treatment 
could be used to prepare the fuelbed for safe burn execution 
while also providing potentially useful raw materials for wood 
products. Unfortunately, in many areas throughout the rural 
U.S. markets aren't well developed for the small diameter trees 
and removable biomass that add to fire hazards when left behind 
in the forest. Further, the combination of mechanical plus fire 
treatments may not be feasible in park and wilderness areas. 
Access to these areas may be difficult and use of mechanized 
equipment may not be practical nor acceptable (administratively 
or socially) in these areas, many of which coincidentally may 
be designated for Class I protection. Finally I am finding 
through ongoing research for the USDA Forest Service that there 
are important knowledge gaps associated with efforts to reduce 
wildfire severity through prescribed fire and mechanical 
thinning.
    Thus no single treatment is a panacea or will work in all 
situations, but each can play an important role if carried out 
in concert with a systematic and integrative planning process. 
In most landscapes a combination of treatments will likely be 
required, rather than relying on one single treatment. Each 
proposed treatment needs to be evaluated on the basis of 
relative advantages and disadvantages compared to overall land 
management objectives for the area and relative costs 
associated with treatment alternatives.
    Other potential solutions look beyond the technology of 
fuel hazard reduction. Promising examples include conversion of 
forest biomass to ethanol, creation of defensible space around 
home-sites and subdivisions, and citizen slash-mulching 
programs. With adequate incentives, community partnerships can 
be formed with industry and government to develop sustainable 
forestry initiatives that reduce fuel hazards while reviving 
the forest products sector. Another possibility involves 
forestry stewardship projects that promote fire-safe 
environments while providing a sustainable base of local 
employment. Last year Dr. Dennis Lynch, now Professor Emeritus 
at Colorado State University appeared before this Subcommittee 
to promote stewardship contracts for forest restoration on 
national forest lands. I refer you to his written testimony 
before the Subcommittee on March 18, 1997 for further details.

Ongoing Efforts and Information Needs

    The projected expansion in fuels treatment programs has 
spawned the recognition of many uncertainties and information 
gaps associated with fuel treatment and wildfire management. 
The Federal Fire Science Initiative is an interagency 
collaborative effort aimed at bolstering fuels management 
research. Fire managers have long recognized the importance of 
fuels in managing a fire's environment, but relatively little 
emphasis had been directed toward understanding the scope and 
breadth of problems related to implementing a fuels management 
program. The Federal Fire Science Initiative represents a first 
attempt to address these problems programmatically on an inter-
agency basis.
    Many information gaps will remain even after the Initiative 
is completed. For example, it will be some time before we are 
able to predict relationships between fuel treatment 
expenditures and anticipated reductions in wildfire suppression 
costs. Other voids will relate to the optimal balance between 
wild and prescribed fires, especially as related to managing 
visibility and human health impacts from wildland combustion.
    The Western Forest Fire Research Center (WESTFIRE) which I 
direct at Colorado State University has an established 
capability for collaborative research that assists agencies in 
answering questions about fire and fuels management. For 
example, a previous project assisted the Department of Interior 
in evaluating fuel treatments and management practices capable 
of reducing the likelihood of large fires. Another project 
assisted the National Park Service in identifying contributors 
to high versus low cost prescribed fire projects, including 
reasonable ranges on expenditures for projects of varying size. 
We estimate that the NPS saved several hundreds of thousands of 
taxpayer dollars by screening wasteful or inefficient projects. 
In the future we hope to assist agencies and publics by 
contributing to better understanding of the scope and magnitude 
of wildfire problems throughout the U.S., so that efforts can 
focus on high-risk areas. We hope to do this by developing 
models and action plans that mitigate threats before fires 
occur in these high-risk areas.

Conclusions

    Ultimately solutions to wildfire management problems will 
require a coalition of diverse interests working toward 
solutions at the local levels. Scientists, environmentalists, 
businesses, and local leaders will need to reach consensus on 
necessary combinations of treatments that will satisfy human 
needs without compromising clean air mandates and requirements. 
Stewardship projects that sustain local community employment 
bases while providing for a cleaner environment certainly 
deserve additional consideration.
    Perhaps the biggest task involves educating the nation's 
population about the importance of fire and forest management. 
Fires have burned in north American forests for thousands of 
years. By contrast, forests have been managed in our fire 
environments for only a short time period. Many residents have 
not come to grips with the risks of living with fire, in spite 
of the evidence that our forests have burned with regularity. 
If past experience is any indicator, we are learning that we 
cannot keep fire out of our forests forever. The trick then is 
to manage the forest so that we can safely endure and learn 
from fire's consequences. More tolerance will be required for 
fire in the forest and prescribed smoke in the atmosphere. 
Revisions in air quality standards may need to be considered--
but the largest obstacle may be our own unwillingness to revise 
how we fulfill human wants and needs from the forest 
environment.
    This concludes my testimony. I will be pleased to answer 
any questions from Subcommittee members.

                     Curriculum Vitae (abbreviated)

Philip Nori Omi
Professor, Department of Forest Sciences
Colorado State University, Ft. Collins, CO 80523 USA

Specialization: Fire management, fuel inventory and assessment, 
fire risk assessment, integration of wild- and prescribed fire 
decisions into ecosystem management

Education: A.B. Mathematics, University of California, Berkeley 
1969
    M.S. Wildland Resource Science, U.C., Berkeley 1973
    Ph.D. Wildland Resource Science, U.C., Berkeley 1977

Awards, Honors: Faculty Minority Distinguished Service Award, 
Colorado State University, 1998
        Administrative Intern/Fellow, Colorado State 
University, 1990-91
        NATO Fellow, 1984-86

Experience: Interim Associate Provost for Undergraduate 
Studies, Colorado State University, 1993.
        Interim Associate Vice President for Academic Affairs, 
Colorado State University, 1992-93.
        Director, Western Forest Fire Research Center 
(WESTFIRE), Colorado State University, 1992-present.
        Acting Director, Center for Applied Studies in American 
Ethnicity, Colorado State University, 1992-93.
        Assistant Vice President for Academic Affairs (Intern), 
Colorado State University, 1990-91.
        Professor, Department of Forest Sciences, 1986-present.
        Visiting Professor, Wildland Fire Management, College 
of Forest Resources, University of Washington, Seattle, 1987-
88.
        Associate Professor, Department of Forest and Wood 
Sciences, 1980-86.
        Assistant Professor, Department of Forest and Wood 
Sciences, 1977-79.
        Staff Researcher, Department of Forestry and 
Conservation, University of California, 1977.
        Consultant, Forest Warthman and Associates, Palo Alto, 
California, 1977.
        Research/Teaching Assistant, Department of Forestry and 
Conservation, University of California, 1974-76.

Research: Principal Investigator or co-PI on 43 research 
projects in the past 21 years ($2.5 million), primarily with 
public land agencies with fire management responsibilities.

Publications: 67 total, including 20 invited presentations

Journals (peer-reviewed)
        Kalabokidis, K.D. and P.N. Omi. 1998. Reduction of fire 
hazard through thinning/residue disposal in the urban 
interface. International J. Wildland Fire 8(1):29-36.
        Rideout, D. B. and P. N. Omi. 1995. Estimating the cost 
of fuels treatment. For. Sci. 41:664 674.
        Kalabekidis, K. D. and P. N. Omi. 1995. Isarithmic 
analysis of forest fire fuelbed arrays. Ecol. Modeling 80:47-
55.
        Smith, J. K., R. D. Laven, and P. N. Omi. 1993. 
Microplot sampling of fire behavior on two burns of Populus 
tremuloides stands in North-Central Colorado. Internatl. J. 
Wildland Fire 3 :85 94.
        Beebe, G. and P. N. Omi. 1993. Oakland Hills, 
Yellowstone, and perceptions of risk from Wildland burning. 
J.For.91(9):19-24.
        Kalabokidis, K. D. and P. N. Omi. 1992. Quadrat 
analysis of Wildland fuel spatial variability. Internatl. J. 
Wildland Fire 2:145-152.
        Omi, P. N. and K. D. Kalabokidis. 1991. Fire damage on 
extensively vs. intensively managed forest stands within the 
North Fork Fire, 1988. Northw. Sci. 65: 149-157.
        Cohen, W. B. and P. N. Omi. 1991. Water stress effects 
on heating-related water transport in woody plants. Can. J. 
For. Res. 20: 199-206.
        Rideout, D.B. and P.N. Omi. 1990. Alternate expressions 
for the economic theory of forest fire management, For. Sci. 
36:614-624.
        Cohen, W.B., P.N. Omi, and M.R. Kaufmann. 1990. 
Heating-related water transport to intact lodgepole pine branch 
tips. For. Sci. 36:246-254.
        Omi, P.N. 1989. Fires in the national park and 
wilderness: Lessons from 1988. Forum for Applied Research and 
Public Policy 4(2):41-45.
        Sullivan, B.J., P.N.Omi, and A.A.Dyer. 1987. A 
decision-tree approach to determining the economic efficiency 
of wildfire rehabilitation treatment. Western J. of Applied 
For. 2 :58-61.
        Wyant, J.G., P.N.Omi, and R.D.Laven. 1986. Fire-induced 
tree mortality in a Colorado ponderosa pine/Douglas fir stand. 
For.Sci. 32: 49-59.
        Wyant, J. G., R. D. Laven, and P. N. Omi. 1983. Fire 
effects on shoot growth characteristics of ponderosa pine in 
Colorado. Can.J.For.Res. 13:620-625.
        Omi, P. N., J. L. Murphy, and L. C. Wensel. 1981. A 
linear programming model for Wildland fuel management planning. 
For.Sci. 27:81-94.
        Omi, P. N. 1979. Planning future fuelbreak strategies 
using mathematical modeling techniques. Environ. Manage. 3:73-
80.
        Omi, P. N., L. C. Wensel, and J. L. Murphy. 1979. An 
application of multivariate statistics to land-use planning: 
classifying land units into homogeneous zones. For. Sci. 
25:399-414.

Other Refereed Technical Papers
    Omi, P.N. 1996. Landscape-level fuel manipulations in 
Greater Yellowstone: opportunities and challenges. In: 
Ecological Implications of Fire in Greater Yellowstone, 1996. 
Proc. 2nd Biennial Conf. on the Greater Yellowstone Ecosystem, 
Yellowstone National Park, Sept. 19-21, 1993, International 
Assoc. Wildland Fire.
    Wetzel, M.R. and P.N. Omi. 1991. Anthropogenic fire and 
tropical deforestation: a literature perspective. In: Fire and 
the Environment: Ecological and Cultural Perspectives. Proc. of 
an International Symp., Knoxville, TN, March 20-24, 1990. S.C. 
Nodvin and T.A. Waldrop, eds. USDA For. Serv. Gen. Tech. Rep. 
SE-69.
    Omi, P.N. 1990. Prescribed fire monitoring and evaluation. 
In: Proc. of the Conf. ``Effects of Fire in Management of 
Southwestern Natural Resources.'' November 15-17, 1988, Tucson, 
AZ. USDA For. Serv. Gen. Tech. Rep. RM-l91.
    Skinner, T. V., M. W. Hilbruner, R. D. Laven, and P. N. 
Omi. 1985. Use of fire characteristics chart to interpret 
modeled fire behavior for fire management planning in Rocky 
Mountain National Park. In: Proc. of Symp. on Wilderness Fire, 
Nov. 15-18, 1983, Missoula, MT. USDA For. Serv. Gen. Tech. Rep. 
lNT-182.
    Omi, P. N. and R. D. Laven. 1982. Prescribed fire impacts 
on recreational wildlands: A status review and assessment of 
research needs. Eisenhower Consortium Bulletin 11 (Colorado 
State University). Rocky Mountain For. and Ran. Exp. Sta., 18 
p.
    Laven, R. D., P. N. Omi, J. G. Wyant, and A. S. Pinkerton. 
1981. Interpretation of fire scar data from a ponderosa pine 
ecosystem in the central Rockies, Colorado. In: Proceedings, 
Fire History Workshop. USDA For. Serv. Gen. Tech. Rep. RM-81, 
142 p.
    Omi, P. N. 1977. A case study of fuel management 
performances, Angeles National Forest, 1960-75. In: 
Proceedings, ``Environmental Consequences of Fire and Fuel 
Management in Mediterranean Ecosystems,'' Stanford, CA, Aug. 1-
5, 1977. USDA For. Serv. Gen. Tech. Rep. W0-3.
    July 13, 1998
                                ------                                


Statement of Greg E. Walcher, President and Executive Director, CLUB 20

Introduction:

    Chairman Chenoweth, we are grateful to you for scheduling 
this hearing on a matter we believe is of great importance to 
the Rocky Mountain West in general, and to Western Colorado in 
particular. I also want to emphasize how much we appreciate the 
hours of work you and your staff, and the other Committee 
members, have put in on related issues over the past few 
months. As you know so well, the decisions made by the managers 
of our public lands have a tremendous impact on the communities 
in our states, and on the quality of life in our region. 
Prescribed fire is a vitally important management tool, and 
will see increased use in the coming years. That makes it even 
more important that we give careful thought to its affect on 
air pollution and regional haze.

About CLUB 20:

    CLUB 20 is an organization of counties, communities, 
businesses, individuals and associations in Western Colorado. 
The group is organized for the purpose of speaking with a 
single unified voice on issues of mutual concern. Its 
activities include marketing and advertising, public education, 
promotion, meetings and events, and political action.
    Founded in 1953 by Western Slope business leaders, CLUB 20 
was originally organized to get rural roads paved. The State of 
Colorado had been spending only 10 percent of its highway funds 
west of the Continental Divide, where more than half the roads 
were. It finally became clear that only by agreeing on a single 
priority list could all our communities be heard. It worked. 
Within a few years, the State was spending 37 percent of its 
highway funds west of the Divide, and by the end of the 1950s 
most of the major highways on the West Slope had been paved.
    The organization continued to function, incorporating in 
1955, and began working on other issues of concern to all 
Western Slope communities. Its activities today include water, 
agriculture and natural resources, energy, economic 
development, public lands, highways, air service, tourism, 
trails, recreation, and telecommunications.
    CLUB 20 policy is made by a Board of Directors, which 
includes voting membership for each county on the Western 
Slope. All counties have an equal voice, their delegations 
elected by the members in each county. Management decisions are 
made by an Executive Committee composed of elected officers. A 
vote of the full Board is required for CLUB 20 to take a 
position on any issue.
    The engines that drive CLUB 20 are the standing committees. 
Most Western Slope policy originates with these committees, all 
with broad geographic representation. These panels include 
Natural Resources and Public Lands, Transportation, Economic 
Development, and Tourism in addition to subcommittees on water 
and agriculture. Membership is open to all CLUB 20 members, and 
the groups recommend policy to the full Board of Directors.
    For over four decades, this organization of all the 
communities of Colorado West has been providing a forum for the 
discussion of complex and controversial issues, and 
representing the interests of the Western Slope at all levels 
of government. The group's membership is broader and more 
diverse than at any time in history, and still growing each 
year. The CLUB 20 leadership is convinced that, by working 
together to achieve a stronger voice, the Western Slope can 
help shape the destiny of Colorado and the West.
    The EPA's new regional haze regulations are potentially 
disastrous for our region, especially in the threat they pose 
to proper and wise management of the public lands. CLUB 20 
strongly supports the use of prescribed fire by the Forest 
Service, under carefully controlled circumstances, and we fear 
the new Federal process will create a terrible series of 
problems.

The Grand Canyon Process:

    CLUB 20 participated in the Grand Canyon Visibility 
Transport Commission process in good faith for four years. Our 
organization held a seat on the Commission's advisory committee 
and attended several meetings of the group, trying to persuade 
that body to recommend state policies that were based upon a 
sound interpretation of the science.
    The Grand Canyon study took over four years to complete, 
and cost the taxpayers some $8.5 million. It was authorized by 
Congress, and the entire effort was pushed strongly by the EPA. 
Yet after that report was issued, not only have its 
recommendations been ignored by the EPA, but the scientific 
study itself has been complete sidestepped. The study was 
incredibly thorough and the technology used was impressive. 
Congress should be proud, indeed, of the skill with which 
technicians can sample the air and determine what is in it and 
pinpoint where it came from. For the first time, we had the 
ability to determine the actual causes of the haze in the Grand 
Canyon and other Class I areas throughout the Colorado Plateau.
    There was just one problem with the study, its conclusions 
did not support the hidden political agenda of the EPA and its 
allies. So when the Western governors began meeting to 
determine state and regional solutions based on that study, EPA 
stepped around them. With no warning whatsoever to the 
governors, or any of the other players in the Grand Canyon 
study process, EPA published its own national rules. The rules 
came out of nowhere, apparently not even from the same EPA 
officials involved in the Grand Canyon study. Nevertheless, the 
rules would supersede all the four years of activity of the 
study, ignore the study itself, pay no mind to the $8.5 million 
already spent, and begin from the same phony assumptions and 
junk science we worked so hard to overcome before.
    These regulations could cause serious economic problems in 
my state, and they will not help solve the visibility problems. 
Coloradans never envisioned when we went into this process that 
our State would be penalized because it has the cleanest air in 
the country. But that may be the result if EPA gets its way.

The EPA's Proposed Regulations:

    Part of CLUB 20's original reservations about the Grand 
Canyon Commission recommendations were expressed a year ago, 
and are being proven accurate now. We expressed to Governor 
Romer a strong fear that the EPA would implement Federal 
regulations enforcing ill advised and economically indefensible 
policies. We were assured that the Grand Canyon Commission 
would continue to be a state and regional process, involving 
affected stakeholders, and that final solutions would be 
handled at the state level. But the EPA's new proposed national 
haze and visibility regulations which supersede that regional 
process and ignore the Commission's scientific study renders 
that lengthy and costly process futile, and proves our fears 
were well founded. We were correct to suspect at the beginning 
of that process that hidden agendas were at work.
    The proposed regulations unfairly impact the Rocky Mountain 
West (which already boasts the nation's cleanest air) by 
requiring it to achieve unattainable levels of reductions. We 
cannot solve haze problems not created in Colorado at the state 
level. That's why a regional approach can be the only answer. 
But the EPA proposes reductions in every state, and denies us 
any means of achieving them. Such regulations would severely 
restrict economic activity and retard future growth in areas 
with already-clean air, while producing very little effect on 
polluting areas which are the source of much of the region's 
haze, as demonstrated by the Grand Canyon Study.
    The Grand Canyon Study identified the major causes of 
regional haze on the Colorado Plateau, and the results were not 
vague. The major contributors of year-round haze were Southern 
California air pollution and unregulated Mexican stationary 
sources. The major contributor of episodic haze was clearly 
identified as prescribed fires on Federal lands. Yet the EPA 
regulations have no effect on Mexico at all, nor do they 
provide any means for Colorado to address pollution generated 
in California. And most importantly, they specifically exclude 
Federal land managers from any responsibility for the pollution 
generated by prescribed fires.
    Without sound science to determine a baseline of naturally 
occurring sources of haze in each region, it is impractical to 
set uniform standards of haze reduction that may be 
technologically and economically unfeasible. To require the 
same total amount of reduction in each state, rather than the 
same percentage, is patently unfair to the West, and will have 
essentially no impact on the states east of the Appalachians. 
If Congress is serious about cleaning up the nation's haze and 
solving the visibility problems, it should start this process 
in Los Angeles or Pittsburgh., not in Western Colorado.
    CLUB 20 strongly objects to the proposed EPA visibility 
regulations as unfair to the West, scientifically and 
economically indefensible, and without clear authority. We 
believe it is especially important for this Committee to 
recognize that the legal authority for these regulations is 
questionable. Congress authorized and funded the Grand Canyon 
Visibility Transport Commission, with a clear intention that it 
would result in regional solutions to a Colorado Plateau 
regional problem. It was never the intent of Congress to 
authorize new national regulations of this kind, nor was it the 
intent that the scientific study ($8.5 million) would be 
completely ignored by an EPA with a political agenda.

Federal Land Management and Prescribed Fires:

    One of the most dangerous aspects of the proposed rules is 
that they continue to essentially exempt Federal land managers 
from responsibility for the pollution generated by prescribed 
fires. And yet, while excluding fires on Federal lands, the 
rules still require a total across-the-board reduction in the 
statewide level of smoke. This would have the effect of causing 
drastic regulation of existing sources of haze, in order to 
offset the major source, the smoke created by Federal land 
managers.
    You will remember that EPA Administrator Carol Browner, in 
testimony before a similar hearing last year, denied that 
Federal land managers are exempt from the regulations. Rather, 
she said, the data from those fires is excluded. It is a 
distinction without a difference to a state government required 
to reduce its haze by one ``deciview,'' regardless of the 
source. Until the EPA has defined the baseline of naturally 
occurring sources, and included in that baseline an amount of 
smoke generated by prescribed fires--which amount the EPA 
cannot possibly predict--her assurances ring hollow. The fact 
is that the exemption of Federal fires, or the exclusion of 
their data, has the effect of creating a conflict between 
Federal land managers and other sources of haze.
    CLUB 20 believes fire can be an important part of 
management of public lands, and we cannot afford the 
unnecessary conflict between proper land management 
techniques--including fires--and important economic interests. 
The us-against-them mindset that will inevitably result is 
counterproductive, and will endanger the proper management of 
Federal lands. There are numerous areas in Western Colorado 
where the fuel overload has reached critical conditions. There 
is no doubt that much of this material must be removed or it 
will burn in a more devastating wildfire in the near future.
    Proper Federal land management means the larger materials, 
which burn longer and smoke more, should be removed 
mechanically before fires are set. By coincidence this is the 
same material for which there is a viable economic market. Yet 
the Forest Service continues to manage the forests in a manner 
that precludes sale or any removal of those materials, and the 
fuel loads continue to increase yearly. This Committee heard 
testimony recently from Interior Secretary Babbitt that as much 
as half of all the forests in America are unsuitable for 
burning until some mechanical clearing has taken place. Yet the 
Administration has effectively closed down access for that 
purpose by Executive Order, and the Forest Service budgets 
continue to reduce such clearing every year. CLUB 20 believes a 
combination of mechanical removal and prescribed fires are 
essential to the restoration of healthy forests in Colorado. 
The EPA regulations may serve to prevent that strategy because 
of its conflict with other economic interests that contribute 
to the haze. Trees do not vote, nor do they make campaign 
contributions. So if the EPA forces a showdown between proper 
public land management and continued industrial activity, the 
forests will be the losers. The only solution is to apply the 
same rules to all haze contributors, and to solve these 
problems at the state and regional level, as Congress intended.
    CLUB 20 supported legislation at the State level for the 
past two years that would have placed the State Health 
Department in the decision loop on such prescribed fires. 
Almost unique among Federal statutes, the Clean Air Act 
requires Federal land managers to obey State laws on emissions. 
This legislation would have allowed the State to examine 
Federal decision records to determine whether less-smoke 
alternatives had been fully considered before prescribed fires 
are set. It passed the Colorado Legislature overwhelmingly two 
years in a row, only to be vetoed by Governor Roy Romer both 
times. The veto was irresponsible and inexcusable, but the 
writing is on the wall. Federal land managers are going to be 
held accountable for their emissions.
    In short, CLUB 20 supports prescribed fire as a proper 
management tool for regenerating the natural environment, but 
more consideration should be given to smoke management as 
prescribed fires are planned, and methods for reducing 
emissions by clearing appropriate materials in advance should 
be used. A simple amendment to the Clean Air Act should be 
adopted by Congress to require land managers to reduce 
emissions to the extent practicable. That would end the 
Federal-state argument over responsibility for such fires, and 
allow the continuation of important fire management. At the 
same time, by reducing the haze caused by such fires, it would 
end the conflicts between other economic activity and proper 
forest management. When EPA Administrator Browner says this 
``does not have to be a fight between clean air and good forest 
management,'' she is right. It does not have to be. But her 
proposal from EPA, combined with the executive order limiting 
forest access, and the constantly shrinking forest timber 
budgets, make it exactly that kind of fight.

The Agriculture Problem:

    In the agricultural areas of the Western Slope, the EPA 
regulations pose a very serious threat to the farming and 
ranching industry. Most of these communities have no major 
local sources of haze--none at all. The episodic haze created 
by fire is the only significant source of local visibility 
impairment in many of our counties. Thus, when Federal land 
managers set prescribed fires the haze can be serious, and is 
very noticeable. So if the EPA rules force a reduction in those 
communities, but continue to exclude the data from prescribed 
fires, agricultural burning may be the only remaining source to 
regulate. And regulation of agricultural burning is a major 
threat to the existence of the industry in those areas.
    It is not possible to grow crops and weeds in the same 
field at the same time. Weeds must be controlled if farming is 
to succeed. They must either be burned, or killed with 
chemicals. It is ironic, to say the least, that the same 
zealots who are pushing the regional haze rules would also ban 
such chemicals, leaving farmers with no chance of successful 
farming. There is no public policy reason to create such 
conflicts. The EPA's proposed regulations would divide the 
economic interests of this nation in an unproductive and 
harmful way, while accomplishing no real solution to the 
problem.

The Local Government Problem:

    The same kinds of conflicts are now becoming a major 
problem for local governments throughout the West, including 
many of those CLUB 20 represents. Several Western Colorado 
counties are at this moment struggling with local regulations 
aimed at smoke and haze management. My own home county (Mesa 
County) is in the process of implementing rules affecting wood-
burning stoves, as many other counties have already done. Those 
who think pollution advisories and voluntary no-drive days are 
for the big cities should know that many mountain communities 
live with the same temperature inversion problems. Commonly the 
inversions create the same kind of haze problem in the Vail 
Valley, for example, as is common in Denver.
    Local governments are taking serious actions to solve these 
problems, based on sound science and on the real sources of the 
haze in those areas. No national cookie cutter approach can be 
successful because the sources are not always the same. The EPA 
regulations add an especially difficult factor to the mix, 
because counties will feel increased pressure to adopt local 
rules to make up for Federal actions they cannot control. Such 
regulations have an unquestionable impact on local economies, 
and in many areas may produce no result in visibility 
improvement. Yet counties and cities throughout the region are 
feeling enormous pressure to implement stringent air quality 
standards.
    In addition, Colorado still labors with state law requiring 
county sheriffs to ``control and extinguish'' all fires on 
public lands. There is no discretion to let such fires burn, 
even when Federal land managers have reached such a conclusion. 
Local experts often can reach a consensus on letting some fires 
burn in certain areas, but such a decisions leaves county 
sheriffs hopelessly in the middle of a legal dilemma. While our 
State works on legislation to update the outmoded law, better 
cooperation between the Federal and state government would be 
extremely helpful.

Conclusion:

    The point of this discussion ought to be cleaning up dirty 
air and reducing the haze problem. Since the EPA rules will not 
accomplish this, and will create the problems outlined above, 
they should be sidelined. Congress ought to act swiftly and 
decisively to stop the implementation of these regulations, and 
to insist that the process authorized and funded by Congress 
should be followed, including a direction to consider the 
scientific evidence of the Grand Canyon study. At the same 
time, Congress should act quickly to require under the Clean 
Air Act that Federal managers, in proposing prescribed fires, 
should reduce the resulting emissions to the extent possible. 
If there is a large cost associated with better land 
management, as the Grand Canyon Study hinted, then Congress 
should be prepared to pay that cost before it authorizes the 
Forest Service to torch the Western landscape and darken our 
skies.
                                ------                                


 Statement of John S. Seitz, Director, Office of Air Quality Planning 
    and Standards, Office of Air and Radiation, U.S. Environmental 
                           Protection Agency

    Madame Chairman, Members of the Subcommittee, thank you for 
inviting me to discuss issues surrounding fire management and 
the Environmental Protection Agency's (EPA's) proposed rule to 
improve visibility and reduce regional haze in our national 
parks and wilderness areas.
    As you know, in July 1997, EPA revised the national ambient 
air quality standards (NAAQS) for ground-level ozone and 
particulate matter. These updated standards have the potential 
to prevent as many as 15,000 premature deaths each year, and up 
to hundreds of thousands of cases of significantly decreased 
lung function and aggravated asthma in children. In the review 
of the standards, EPA concluded that the most appropriate way 
to address the visibility impairment associated with 
particulate matter would be to establish a regional haze 
program in conjunction with setting secondary PM standards 
equivalent to the suite of primary standards. EPA proposed new 
regulations addressing regional haze in July 1997.
    Madame Chairman, as you know, virtually all of our national 
parks and wilderness areas are subject to some degree of 
regional haze visibility impairment. This fact has been 
extensively documented by monitoring conducted since 1978 by 
the National Park Service, EPA, the United States Forest 
Service, and other agencies. Haze obscures the clarity, color, 
texture, and form of what we see, and it is caused by natural 
and anthropogenic pollutants that are emitted to the atmosphere 
through a number of activities, such as electric power 
generation, various industrial and manufacturing processes, car 
and truck emissions, burning activities, and so on. These 
emissions often are transported long distances affecting 
visibility in certain parks and wilderness areas that have been 
identified by Congress for protection under the Clean Air Act. 
These areas are known as ``Class I'' areas.
    We also know that the causes and severity of regional haze 
vary greatly between the East and the West. The average 
standard visual range in most of the Western U.S. is 60 to 90 
miles, or about one-half to two-thirds of the visual range that 
would exist without man-made air pollution. In most of the 
East, the average standard visual range is 15 to 30 miles, or 
about one-sixth to one-third of the visual range that would 
exist under natural conditions. One of the major challenges 
associated with this problem is that these conditions are often 
caused not by one single source or group of sources near each 
park or wilderness area, but by mixing of emissions from a wide 
variety of sources over a broad region.

Background

    The Clean Air Act established special goals for visibility 
in many national parks, wilderness areas, and international 
parks. Section 169A of the 1977 Amendments to the Clean Air Act 
sets a national goal for visibility as the ``prevention of any 
future, and the remedying of any existing, impairment of 
visibility in mandatory Class I Federal areas which impairment 
results from manmade air pollution.'' This section also calls 
for EPA to issue regulations to assure ``reasonable progress'' 
toward meeting the national goal. EPA issued regulations in 
1980 to address the visibility problem that is ``reasonably 
attributable'' to a single source or group of sources. These 
rules were designed to be the first phase in EPA's overall 
program to protect visibility. At that time, EPA deferred 
action addressing regional haze impairment until improved 
monitoring and modeling techniques could provide more source-
specific information, and EPA could improve its understanding 
of the pollutants causing impairment.
    As part of the 1990 Amendments to the Clean Air Act, 
Congress added section 169B to focus on regional haze issues. 
Under this section, EPA was required to establish a visibility 
transport commission for the region affecting visibility in the 
Grand Canyon National Park. EPA established the Grand Canyon 
Visibility Transport Commission in 1991 to examine regional 
haze impairment for the 16 mandatory Class I Federal areas on 
the Colorado Plateau, located near the Four Corners area of New 
Mexico, Colorado, Utah and Arizona. After several years of 
technical assessment and policy development, the Commission 
completed its final report in June 1996. The Commission's 
recommendations covered a wide range of control strategy 
approaches, planning and tracking activities, and technical 
findings which address protection of visibility in the Class I 
areas in the vicinity of the Grand Canyon National Park.
    Under the 1990 Amendments, Congress required EPA to take 
regulatory action within 18 months of receiving the 
Commission's recommendations. EPA proposed the regional haze 
rules in July of last year in conjunction with the final 
national ambient air quality standards for particulate matter. 
In developing the proposed regulations, EPA took into account 
the findings of the Grand Canyon Visibility Transport 
Commission, as well as findings from a 1993 National Academy of 
Sciences Report and information developed by the EPA Clean Air 
Act Advisory Committee (CAAAC).
    The National Academy of Sciences formed a Committee on Haze 
in National Parks and Wilderness Areas in 1990 to address a 
number of regional haze-related issues, including methods for 
determining the contributions of manmade sources to haze as 
well as methods for considering alternative source control 
measures. In 1993, the National Academy of Sciences issued a 
report entitled, ``Protecting Visibility in National Parks and 
Wilderness Areas'' which discussed the science of regional 
haze. Among other things, the Committee concluded that 
``current scientific knowledge was adequate and available 
control technologies exist to justify regu-

latory action to improve and protect visibility.'' The 
Committee also concluded that progress toward the national goal 
will require regional programs operating over large geographic 
areas. Further, the Committee felt strategies should be adopted 
that consider many sources simultaneously on a regional basis.
    In developing the proposed regional haze rule, EPA also 
took into consideration recommendations and discussions related 
to regional haze from the CAAAC Subcommittee on Ozone, 
Particulate Matter, and Regional Haze Implementation Programs 
established under the Federal Advisory Committee Act (FACA). 
The Subcommittee included wide representation from states, 
local and tribal governments, industry, environmental groups 
and academia. This Subcommittee met regularly over the past two 
and one-half years to consider a variety of implementation 
issues associated with the revised national ambient air quality 
standards and the proposed regional haze rule. It also focused 
discussions on how best to develop more cost effective, 
flexible strategies for implementing these requirements.

EPA's Proposed Regional Haze Rule

    EPA's proposed regional haze rule is designed to establish 
a program to address visibility impairment in the Nation's most 
treasured national parks and wilderness areas. In this rule, 
EPA is proposing to improve visibility, or visual air quality, 
in 156 important natural areas found in every region of the 
country. These areas range from Grand Canyon, Mesa Verde, and 
Bryce Canyon in the southwest; to Yellowstone, Sawtooth, and 
Mt. Rainier in the northwest; to Shenandoah and the Great 
Smokies in the Appalachians; to Yosemite, Sequoia, and Point 
Reyes in California; to Acadia, Lye Brook, and Great Gulf in 
the northeast; to the Everglades and Sipsey Wilderness in the 
southeast; to Big Bend, Wichita Mountains, Badlands, and the 
Boundary Waters in the central states. More than 60 million 
visitors experience the spectacular beauty of these areas 
annually. The proposed regional haze rule, in conjunction with 
implementation of other Clean Air Act programs, would 
significantly improve visibility in these areas. Further, EPA 
expects visibility to improve well beyond these areas, across 
broader regions of the United States.
    The regional haze proposal establishes a requirement for 
states to implement strategies to meet ``reasonable progress 
targets'' for improving visibility in Class I areas. These 
targets would be designed to improve visibility on the haziest 
days and to prevent degradation of visibility on the clearest 
days EPA is proposing to express the progress targets in a way 
that provides flexibility from one region of the country to 
another by using the ``deciview'' as a measurement. The 
deciview index expresses the overall effect on visibility 
resulting from changing levels of the key components of fine 
particulate matter (sulfates, nitrates, organic and elemental 
carbon, soil dust) which contribute to the degradation of 
visibility. These components are routinely measured by an 
interagency visibility monitoring network that has been in 
place for several years in national parks and forests. Like the 
decibel scale which is used to measure sound, the deciview 
index measures perceived changes across the range of possible 
conditions (for example, from clear to hazy days). A change of 
one deciview is considered to be perceptible by the average 
person. Visibility monitoring data show that over the past 
several years, visibility impairment on the worst days ranges 
from 27 to 34 deciviews in eastern locations and 13 to 25 in 
western locations. A deciview of zero represents the absence of 
natural or man-made impairment in visibility.
    EPA's proposed presumptive ``reasonable progress target'' 
has two elements: (1) for the 20 percent of days having the 
worst visibility, the target is a rate of improvement equal to 
1.0 deciview over either a 10-year or 15-year period [EPA has 
solicited comments on each option]; and (2) for the 20 percent 
of days having the best visibility, the target is no 
degradation. For example, in a place like the Shenandoah 
National Park, where ambient fine particle levels for the worst 
days average 20 micrograms per cubic meter, a reduction of up 
to 2 micrograms per cubic meter would be needed to achieve a 1 
deciview improvement. Whereas in the Grand Canyon, where 
ambient fine particle levels for the worst days average about 5 
micrograms per cubic meter, a reduction of up to one-half a 
microgram would be sufficient to achieve a 1 deciview 
improvement.
    EPA's proposed rule also provides important flexibility to 
states by allowing them to propose alternate progress targets 
for EPA approval. An alternate target can be proposed for a 
Class I area if the state can demonstrate that achieving the 
presumptive targets would not be reasonable. States can 
consider such factors as the availability and costs of 
controls, the time necessary for compliance, and the remaining 
useful life of the air pollution sources in determining whether 
achieving the target would be reasonable. Alternatively, some 
states may find they can go further and achieve up to a 2-3 
deciview improvement at some parks or wilderness areas, or that 
programs already adopted or in the process of being implemented 
will achieve such an improvement. The proposal suggests that 
states consult with other contributing states, the Federal land 
managers, and EPA in developing alternate targets.
    Last month, President Clinton signed the Transportation 
Equity Act for the 21st Century (TEA-21) which, among other 
things, included a provision to ensure that states' control 
strategies and plans for regional haze are harmonized with 
those required for PM<INF>25</INF>. This dovetails with the 
goal expressed in our proposed rule to coordinate the state 
plan deadlines under the regional haze rule with those required 
for meeting the PM<INF>25</INF> standard. EPA's regional haze 
proposal also encourages states to work cooperatively to 
develop modeling approaches, emission inventories, and regional 
implementation strategies.
    EPA also proposed that either every three or five years 
after the adoption of their initial control strategies and 
plans (EPA has solicited comment on both options), states would 
review progress in each Class I area in relation to their 
established progress targets. States would also be expected to 
include a plan for expanding the current visibility monitoring 
network so that it is ``representative'' of all 156 Class I 
areas. EPA is working with the states and Federal land managers 
to coordinate this network expansion with the deployment of the 
new monitoring network for the national ambient air quality 
standard for fine particulates. EPA is evaluating ways to 
efficiently use resources such that existing and new visibility 
monitoring sites can also provide information about transport 
of fine particulate pollution as it relates to the newly 
revised national ambient air quality standards. EPA expects to 
deploy more than 70 new visibility monitoring sites by December 
1999.
    Also as part of their initial plan submittal, states would 
need to address important technical activities to pursue on a 
regional basis, such as improvements in particulate matter 
emission inventories and modeling capabilities, as well as 
plans for assessing sources potentially subject to best 
available retrofit technology (or BART). As specified in the 
Clean Air Act, sources potentially subject to BART are any 
sources, from one of twenty-six groups of industrial ``source 
categories,'' which began operation between 1962 and 1977, and 
which have the potential to individually emit 250 tons per year 
or more of any pollutant that impairs visibility. The twenty-
six source categories include such sources as electric 
utilities, smelters, petroleum refineries, and pulp and paper 
mills. If the state determines that a source contributes to 
visibility impairment in any Class I area, a BART determination 
would include an examination of the availability of control 
technologies, the costs of compliance, the energy and non-air 
environmental impacts of compliance, any pollution control 
equipment in use at the source, the remaining useful life of 
the source, as well as the degree of improvement in visibility 
as a result of compliance. As with all aspects of this 
proposal, we solicited comments on how to address the BART 
requirement and will take these comments into account in 
developing the final rule.
    Under the proposed regional haze rule, state plans would 
provide for adoption of emissions management strategies 
concurrently with other strategies for 
PM<INF>2</INF>.<INF>5</INF> nonattainment areas. These 
submittals would include measures to reduce emissions from 
sources located within the state, including provisions 
addressing the BART requirement, if applicable. I would like to 
make two important points about the emissions reduction 
strategy. First, it can take into account air quality 
improvements due to implementation of other programs, such as 
the acid rain program, mobile source programs, or the national 
ambient air quality standards program. And second, the 
emissions reduction strategy can include a mix of strategies 
that address emissions from both stationary, areas and mobile 
sources. EPA's proposed rule does not focus on stationary 
sources only, as some have claimed. The proposed planning 
framework provides states with flexibility in designing their 
overall program for improving visibility.

Process for Developing the Final Regional Haze Rule

    EPA Administrator Browner signed the proposed haze rule on 
July 18, 1997. At that time, we made the proposed rule and 
other related materials available to the public on the Internet 
and through other means. It was published in the Federal 
Register on July 31. EPA held a public hearing that I chaired 
in Denver, Colorado on September 18. In response to requests by 
the public, we extended the public comment period by about six 
weeks, to December 5, 1997. We have held other sessions around 
the country to discuss the regional haze proposal, including a 
national satellite broadcast for all state and local air 
pollution agencies during which we discussed the proposal and 
answered questions from the viewers. I have also actively 
participated in meetings of the Western Regional Air 
Partnership, a follow-up organization to the Grand Canyon 
Visibility Transport Commission that is co-chaired by Governor 
Shutiva of the Pueblo of Acoma and Governor Leavitt of Utah. 
This is a voluntary organization established by several states 
and tribes which EPA will be working with to address western 
visibility issues.

Issues Surrounding Fire in Forest Management and EPA's Proposed 
Regional Haze Rule

    EPA recognizes that fires have always been a natural part 
of forest ecosystems. Forest fires release important nutrients 
from flammable ``fuels'' or debris on the forest floor into the 
soil. Some plant species are dependent on fire for further 
reproduction. By reducing the undergrowth and debris on the 
forest floor, trees typically grow taller and healthier since 
there is less competition by other surrounding plants for 
nutrients. For many years, fires were aggressively suppressed 
in our Nation's forests, resulting in a number of problems, 
including long-term damage to the health of trees and increased 
likelihood of catastrophic wildfires. The absence of fire 
effects has allowed plant species (e.g., trees and shrubs) that 
would normally be eliminated by fires to proliferate, 
vegetation to become dense and insect infestations to go 
unchecked. We now believe that smaller, periodic fires that are 
well managed help reduce the risk of catastrophic wildfires.
    In recognition of the serious problems caused by years of 
fire suppression, the U.S. Departments of Agriculture and the 
Interior jointly released the results of a Federal Wildland 
Fire Management Policy and Program Review in 1995. This report 
recognized the critical role fire plays in maintaining healthy 
wildland ecosystems and endorsed a significant increase in the 
use of planned, or managed, fire as a land and resource 
management tool. The Departments of Agriculture and the 
Interior adopted a policy that all future plans to manage fires 
on wildlands will incorporate public health and environmental 
considerations, including air quality. EPA also participated in 
developing the 1995 Program Review and endorsed its 
recommendations.
    Unplanned wildland fires, such as catastrophic wildfires, 
can pose serious threats to property, and public health and 
safety. Wildfires cause extended periods of intense smoke, 
which contains particulate matter that can cause serious health 
problems, especially for people with respiratory illness. They 
can also affect visibility, a particular concern in national 
parks and wilderness areas.
    On the other hand, fires can be planned and managed to 
minimize the smoke impacts that adversely affect public health 
and impair visibility. This can occur through techniques such 
as scheduling burning during favorable wind directions and 
weather conditions, and controlling the amount of fuel or 
acreage burned. Many state agencies already use these and other 
management techniques to reduce air quality problems associated 
with wildland and prescribed fires.
    As mentioned earlier, in developing a common-sense 
implementation strategy for the new ozone and particulate 
matter standards and the regional haze program, EPA used the 
FACA to create a Subcommittee to obtain advice from outside 
experts representing industry, environmental, state, local, 
Federal and other stakeholders. Within the Subcommittee, EPA 
established a special workgroup comprised of fire and air 
quality experts from the U.S. Departments of Agriculture, the 
Interior, and Defense; the National Association of State 
Foresters, state/local air quality agencies and others to 
specifically address the potential impacts of wildland and 
prescribed fire (e.g., smoke particles) on air quality and 
visibility impairment.
    In May of this year, EPA issued the ``Interim Air Quality 
Policy on Wildland and Prescribed Fires.'' The policy 
encourages all land owners/managers to work cooperatively with 
state and local air pollution control officials to conduct 
integrated planning to successfully manage ecosystem health and 
air quality concerns. EPA's policy outlines the basic 
components of smoke management plans (SMPs) and urges states to 
adopt and implement SMPs to mitigate the impacts of smoke on 
the public's health and welfare, and to prevent violations of 
the national ambient air quality standards and visibility 
impairment.
    In developing this policy, EPA considered the 1996 
recommendations from the Grand Canyon Visibility Transport 
Commission (GCVTC), which among other issues, recommended smoke 
management plans, and the development or improvement of other 
tools as means of addressing smoke impacts from prescribed 
burning. The ``Interim Air Quality Policy on Wildland and 
Prescribed Fires'' complements EPA's ``natural events'' policy 
issued in 1996 to address the treatment of wildfires and other 
natural events in meeting PM air quality standards. Under the 
``natural events'' policy, EPA has committed not to redesignate 
areas as nonattainment when natural events are clearly the 
cause of violations of the national ambient air quality 
standards for PM<INF>10</INF>, provided the state develops a 
natural events action plan to address the public health impacts 
associated with future natural events, such as a wildfires. 
Natural event action plans include public notice and education 
programs, actions to minimize exposure to high particulate 
matter concentrations, and actions to minimize particulate 
matter emissions from controllable sources that contribute to 
natural events. The ``Interim Air Quality Policy on Wildland 
and Prescribed Fires'' incorporates the same type of 
flexibility and does not punish states that im-

plement effective smoke management programs, yet occasionally 
experience unavoidable smoke intrusions.

Conclusions

    In summary, we believe that EPA's regional haze rule, when 
finalized, will establish a framework to improve visibility in 
our Nation's parks and wilderness areas, as the Congress 
intended in the Clean Air Act. Over the past several months, we 
have been busy reviewing public comments and considering 
options for addressing the concerns of various commenters. At 
the request of various interested parties, including the 
Western Governors Association, STAPPA/ALAPCO, NESCAUM, and 
industry and environmental groups, we have held additional 
meetings to discuss issues related to the rule. I want to be 
clear that we still have not made final decisions on these 
matters. Our goal is to ensure that the proposed new regional 
haze requirements are implemented in a common sense, cost-
effective and flexible manner.
    We also want to assure compatibility between Federal land 
management policies and EPA air quality programs (NAAQS, 
regional haze, visibility, conformity, etc.). Therefore, we 
plan to revisit the ``Interim Air Quality Policy on Wildland 
and Prescribed Fires'' when the final regional haze rules have 
been promulgated and when we receive recommendations from the 
USDA Air Quality Task Force on how to treat air quality impacts 
from agricultural burning. We intend to continue working 
closely with state and local governments, other Federal 
agencies and all other interested parties to accomplish these 
goals.
    Madame Chairman, this concludes my written statement. I 
will be happy to answer any questions that you might have.
                                ------                                


Statement of Janice McDougle, Associate Deputy Chief, State and Private 
    Forestry, United States Department of Agriculture Forest Service

MADAM CHAIRMAN AND MEMBERS OF THE COMMITTEE:
    I am Janice McDougle, Associate Deputy Chief for State and 
Private Forestry with responsibility for fire and aviation, 
forest health, and cooperative forestry programs. I am 
accompanied by Denny Truesdale, our national Acting Director of 
Fire and Aviation Management. I appreciate the opportunity to 
testify on the relationship between the Forest Service fire 
management program and the proposed Environmental Protection 
Agency (EPA) regional haze rule.
    In October 1997, Bob Joslin, Deputy Chief for National 
Forest System, testified before the Senate Energy and Natural 
Resources Committee on the agency's history in air management. 
He talked about our research program, our role in new permit 
review for regulatory agencies, and how proposed changes might 
affect Forest Service programs. I would like to submit his 
testimony for the record, in addition to my comments.
    Our fire management program, including wildfire suppression 
and fuels reduction efforts, affects air quality. Our air 
quality objective is to reduce the long term cumulative smoke 
impacts from all types of fire. The full effect of the regional 
haze rule on Forest Service programs is difficult to project 
until a final haze rule is promulgated and each state and tribe 
develops its own Implementation Plan, and related smoke 
management plans.
    We appreciate EPA's efforts to integrate wildfire 
suppression and prescribed fire issues in their policies. I am 
confident that, among EPA, the states, tribes, and land 
management agencies, we can balance vital public interests in 
clean air and fire protection. We believe that EPA is 
developing a common sense approach that will provide a logical 
context for us to carry out our goals of restoring ecosystems, 
caring for the land, and serving people.
    Before I discuss the regional haze issue specifically, I'd 
like to discuss the role of fire in ecosystems, the 
responsibilities the Forest Service has related to air quality, 
and our fire management program. Then I will discuss the EPA 
regional haze proposal and its potential effect on our fire 
management program.
    Fire plays an important role in ecosystems; it is a 
natural, inevitable part of ecosystems in most forested areas 
of the country. A number of forest and brush types across the 
United States reflect fire-adapted ecosystems. Vegetation 
actually needs regular fire to maintain native species 
diversity and to promote regeneration. Over the last one 
hundred years, effective fire suppression efforts have changed 
the frequency of fires, allowing changes in the vegetation and 
ecosystem function.
    In the 1995 Interagency Fire Management Policy and Program 
Review, the U.S. Department of Agriculture and Department of 
Interior recognized the significant role that fire plays in 
these fire-adapted ecosystems, and the departments called for a 
substantial increase in the use of planned, or prescribed, fire 
as a management tool to restore forest health.

FOREST SERVICE ROLE IN AIR QUALITY

    The Forest Service has two primary responsibilities related 
to air quality. We protect air quality related values, 
including visibility, in Class I Federal Areas and manage 
National Forest System lands in a manner consistent with 
regulations implementing the Clean Air Act. A part of our Class 
I Area protection includes integrated air quality monitoring.

Monitoring

    The Forest Service manages over 191 million acres of our 
nation's public land as part of the National Forest System. 
Included within that land base are 88 areas that Congress 
designated as Class I Federal Areas with special air quality 
protection under the Clean Air Act Amendments of 1977. 
Visibility is used as an indicator of particulate matter and 
other pollutants that are transported over relatively long 
distances. These pollutants can adversely affect both natural 
resources and human health. Formal monitoring information from 
all Class I Areas, which includes measures of both visibility 
and particulates, is used to review permit applications for new 
major point sources of air pollution, to determine the impacts 
of existing sources of air pollution, and to identify trends 
nationally.

Fuel Treatment

    The air quality objective in our fuel treatment program is 
to reduce the long term smoke impacts from the combined 
wildfire and prescribed fire programs. Local results will vary 
annually, and that is why our fire management plans must be 
considered as part of a state's long-term strategy for regional 
haze in accordance with the Clean Air Act.
    The Forest Service has estimated that as much as 40 million 
acres could be at risk of high intensity wild fire. The 
Administration and Congress have increased funding to reduce 
this fire hazard. I will submit for the record a map that shows 
generally where fire-adapted ecosystems are located. The acres 
at risk are within those fire-adapted systems, are distributed 
across the United States, and reflect a variety of fuel 
conditions. Historical fuel conditions have changed in 
locations where fires have been suppressed and excluded. 
Increased fuels result in fires that will burn with high 
intensity, causing watershed and other resource damage, or 
increasing the threat to property, firefighters, and to public 
safety.
    Each individual forest stand has unique site specific 
conditions. The Forest Service currently is inventorying stands 
to determine the resources at risk, the fuel conditions that 
exist, the likelihood of a fire starting in that specific 
location, and the cost of treatment. The Forest Service 
identifies areas as high priority if the have high value 
resources at risk, high hazardous fuel conditions, and frequent 
ignitions. After assessments are completed, local managers 
determine the need for treatment based on local land and 
resource management plans, consistent with the National 
Environmental Policy Act, and identify specific tools needed to 
treat specific situations.
    The Forest Service decision to ignite a prescribed fire is 
based on localized fuel and weather conditions and the 
availability of personnel and equipment. Prescribed fire plans 
identify the conditions and resources required to meet the 
desired objectives, including smoke management. If all smoke 
management plans are in place and the prescribed fire can be 
conducted consistent with those plans, the agency completes the 
burn and monitors the effects. If prescribed fires cannot be 
implemented consistently with smoke management plans, the 
prescribed fires are modified or postponed to meet smoke 
management objectives.

CHANGING EPA RULES: NATURAL EVENTS POLICY, INTERIM AIR QUALITY 
POLICY, AND REGIONAL HAZE

    The Grand Canyon Visibility Transport Commission was 
chartered under authority of the Clean Air Act amendments of 
1990 by EPA to look at the regional haze standards and help 
develop equitable implementation strategies in the Grand Canyon 
Area. The Commission's recommendations and the 1995 Interagency 
Wildland Fire Policy Review were considered in development of 
the EPA Natural Events and Interim Wildland and Prescribed Fire 
policies that implement new standards for particulate matter 
and ozone. Congress has endorsed the recommendations of the 
Commission.
    When the final regional haze rule is adopted, there may 
need to be some modifications to the natural events and 
wildland and prescribed fire policies. The guidance in those 
policies refine the roles of land managers and regulators in 
response to many issues that a haze rule is likely to address. 
We expect that the regional haze rule will result in regulators 
and land managers working more closely together. We have 
recognized the need to increase collaboration and are taking 
steps to make it happen now.
    All of the EPA changes reinforce the states and tribes 
responsibilities for implementation of the Clean Air Act and 
development of programs to implement these new rules. The 
Federal land managers' role to protect air quality related 
values is to monitor, provide recommendations, and help 
mitigate potential problems that Federal management or other 
proposed actions might generate.

Natural Events Policy

    EPA's Natural Events Policy was the first policy change 
resulting from the interagency wildland fire policy. The 
Natural Events Policy considers air quality impacts from 
wildfire as a natural event. When air quality standards are 
violated due to a natural event, EPA will not penalize states 
or tribes who develop and implement a plan to respond to health 
impacts and fire managers who mitigate the effects of the 
wildfire on air quality. This means that wildfire generated air 
quality problems will trigger cooperative development of 
emergency notification plans, appropriate suppression actions, 
and communication of anticipated smoke dispersal so that people 
can be advised of and take actions to protect their health. The 
policy also encourages the treatment of hazardous fuels to 
minimize the effects of wildfires on air quality.

Interim Air Quality Policy on Wildland and Prescribed Fires

    The EPA Interim Policy on Wildland and Prescribed Fires 
expands on the natural events policy, applies to all wildland 
fires on public lands, and integrates two public policy goals: 
(1) to allow fire to function, as nearly as possible, in its 
natural role in wildland ecosystems, and (2) to protect public 
health and welfare by mitigating the impacts of smoke on air 
quality and visibility. The policy provides guidance on 
mitigating smoke caused by fires in the wildlands and the 
wildland/urban interface. It identifies the responsibilities of 
wildland managers and state and tribal air quality managers 
(air regulators) to work together to coordinate fire 
activities, minimize smoke, manage smoke from wildland and 
prescribed fires, and establish emergency action programs to 
mitigate any unavoidable impacts on the public.
    The EPA policy allows flexibility in regulating prescribed 
fires and includes incentives for states or tribes to adopt and 
implement smoke management programs. When adequate smoke 
management plans exist and a prescribed fire is burning within 
smoke management plans, the EPA will not punish states or 
tribes for exceeding air quality standards.

Proposed Regional Haze Rule

    Administrator Browner proposed a regional haze rule in 
July, 1997, and EPA is responding to concerns received during 
its public comment period, which closed in December, 1997. The 
proposed regional haze rule is designed to improve visibility 
in all Federal Class I Areas through efforts to achieve 
reasonable progress targets agreed to by states or tribes and 
EPA. The proposed rule expands monitoring, calls for improved 
inventory and modelling systems, plans emissions reduction 
including assessing sources that do not have existing emission 
controls.
    I do not know when the final rule will be promulgated but I 
anticipate that the new regional haze rule will enhance 
collaboration in monitoring efforts and improve the 
effectiveness of the Forest Service fire management program.
    New EPA standards and policies, in combination with the 
proposed regional haze rule, will integrate data from Forest 
Service Class I monitoring sites with state data. Expansion of 
Forest Service monitoring to identify the individual components 
of haze in Class I Areas is a likely result of any new haze 
rule.
    The effects on individual forests' fire management programs 
from these new EPA policies will vary based on the strength of 
individual state or tribal smoke management programs, and 
existing coordination. Where state or tribal implementation 
plans have adequate smoke management plans, our efforts will be 
focused on complying with the plans and cooperating to improve 
long range plans. Those existing plans will establish the 
strongest foundations for transition to the future haze rule.
    Where states or tribes do not have adequate smoke 
management plans, the Forest Service will focus on the 
development of voluntary smoke management agreements, 
particularly if it anticipates any significant increase in 
prescribed fire. Broader smoke management plans will then need 
to be developed to implement an effective prescribed fire 
program once the haze rule is promulgated.
    The Forest Service, consistent with current policy, will 
continue, and improve, efforts to work with regulators to (1) 
notify them of plans for the use, and any significant increase 
in the use, of fire for resource management, (2) consider the 
air quality impacts of fire and take appropriate steps to 
mitigate those impacts, (3) consider appropriate alternative 
treatments, and (4) participate in the development and 
implementation of State or Tribal implementation plans.
    Our wildfire suppression program will continue to utilize 
smoke management considerations in the development of wildfire 
suppression strategies and tactics. I would expect to see 
greater coordination between regulatory agencies and incident 
management teams.

SUMMARY

    Certainly, it is a challenge for the Forest Service to meet 
both land management and air quality objectives. I believe that 
the EPA has worked hard to come up with an interim policy that 
maximizes opportunities to protect public and private property 
while assuring the protection of public health and welfare. The 
Forest Service's objective is to reduce the long-term impacts 
of smoke from both wildland and prescribed fires. The Forest 
Service has utilized smoke management planning for over 20 
years to mitigate the impacts of its fire program.
    To obtain the desired benefits to wilderness ecosystems, 
visibility, and public health, we will need to further improve 
our prescribed fire program planning and implementation, 
including fuelwood utilization, modifying project level 
planning and monitoring, improving Forest Service and 
regulators practical prescribed fire and smoke management 
skills, and improving our visibility monitoring. As prescribed 
fire practitioners, we are subject to the same state and tribal 
air quality authorities as others. This may include enforcement 
actions such as fines, direction to modify our programs, and 
reviews to determine whether fires were authorized, whether 
burn plan were followed, and why prescriptions may have failed. 
We are working hard to ensure that these types of actions are 
rare.
    We can effectively implement both wildland and prescribed 
fire programs under the Natural Events Policy and the Interim 
Policy on Wildland and Prescribed Fires. Their implementation 
will position all land managers for transition to the future 
haze rule by giving us better information, improved skills, and 
a better ability to assess the impacts to our programs from the 
haze rule, once it is developed.
    The Forest Service is committed to the partnership with the 
EPA, states, and tribes, and will be working closely with them 
as we move forward towards implementing the final regional haze 
rule. We believe that current policies are a common sense 
approach that will form the basis for what we will need to do 
under the regional haze rule.
    That completes my formal statement. I would be happy to 
answer any questions.
                                ------                                


 Statement of Robert C. Joslin, Deputy Chief, United States Department 
                     of Agriculture, Forest Service

    Thank you for the opportunity to testify on the importance 
of the proposed Environmental Protection Agency (EPA) regional 
haze regulation to the Forest Service. I am Bob Joslin, Deputy 
Chief for National Forest System of the Forest Service. I am 
responsible for the management of 191 million acres of our 
nation's National Forests and, in particular, 88 areas that 
Congress designated for special air quality protection under 
the Clean Air Act Amendments of 1977.
    I want to share some of the specific actions the Forest 
Service has taken to protect the lands we are managing and how 
we see our role changing in light of the proposed changes to 
the EPA regional haze rules.

FOREST SERVICE HISTORICAL PROGRAM

    The Forest Service has a long history of involvement in air 
quality issues, particularly from the standpoint of visibility. 
There is a clear correlation between the quality of 
recreational use of national forests and visibility; influences 
of our wildfire suppression program on air quality is well 
documented; and air quality conditions have historically 
influenced our ability to detect wildfires. We have actually 
been monitoring visibility since the early 1920's and developed 
the Byram's Haze meter in 1925. These measurements were taken 
at lookouts during fire season well into the 1950's. While the 
observations were used to distinguish between dust and clouds 
and smokes from wildfires, the principles of noting perceptible 
changes to the scene and contrast for long distances is the 
underlying principle of many of the visibility monitors used 
today.
    With passage of the 1977 Clean Air Act Amendments, Congress 
designated 88 Wilderness Areas managed by the Forest Service as 
Class I Federal Areas and, as such, provided them with special 
visibility protection. At the time, we surveyed the designated 
areas to determine if visibility was an important value, 
requiring some level of protection. We used the enabling 
legislation that established the wilderness to determine the 
importance of good visibility and found that for all but 2 
wilder-

nesses, Rainbow Lakes in Wisconsin and Bradwell Bay in Florida, 
visibility is an important value.
    Along with negatively impacting the experience of 
wilderness users, reduced visibility can be used as an 
indicator of particulate matter and other pollutants being 
transported over relatively long distances and the potential 
for adverse effects to vegetation. The existence of visibility 
problems in relatively unoccupied locations such as the Class I 
Federal Areas is a further indicator of the breadth of air 
quality problems in the country. At the time of designation we 
had some indications of point source smoke plume impacts and 
regional haze in all of our Class I Federal Areas.
    We began seasonal monitoring for visibility in some of the 
more sensitive Class I Federal Areas as early as 1982 using 
fixed cameras and their photographic data. Since that time the 
agency has significantly improved our visibility monitoring 
technology and increased the number of areas we monitor in. We 
currently conduct some form of formal monitoring in 72 of our 
88 Class I Federal Areas. Monitoring information is used in the 
review of permit applications for new major point sources of 
air pollution, in determining the impacts of existing sources 
of air pollution, and visibility modelling relative to special 
air pollution studies.
    Along with the National Park Service and EPA, we 
participated in the National Academy of Sciences study of the 
state of the science related to visibility. They reviewed our 
monitoring efforts and the data collected and concluded that 
there was sufficient data to make regulatory decisions. The 
Forest Service evaluated the recommendations and invested in 
the more sophisticated IMPROVE network of monitoring stations.
    IMPROVE--the Interagency protocol for monitoring that we 
operate in cooperation with my colleagues here is the protocol 
recommended in the proposed regional haze rule. IMPROVE 
provides protocols for monitoring extinction, and absorption 
which are key visibility indicators and establishes standards 
for the installation and operation of visibility monitoring 
stations. Stations have filters that collect both PM2.5 and 
PM10 sized particles. The filters that collect the PM2.5 
particles are then analyzed to help determine what type sources 
are contributing to the visibility problem.
    The proposed Regional Haze rule contemplates using 
comprehensive data from stations that have three or more years 
of records. To give you a run down of the monitoring being done 
in the Forest Service: 15 Class I Federal Areas have three 
years of comprehensive data and 3 more will meet that standard 
by the end of 1998. 48 areas have limited data (most often 
camera data) or less than 2 years of monitoring. Six areas do 
not have independent monitoring but are covered well by the 
monitoring done at an adjacent area. 14 Forest Service Class I 
Federal Areas have no data because they are near Areas 
monitored by other agencies.
    The Clean Air Act Amendments of 1990 ushered in a new era 
in visibility concern with the establishment of the Grand 
Canyon Visibility Transport Commission (Commission). The Forest 
Service was an original, and ongoing, participant in the 
Commission and provided analysis of the exiting conditions in 
the 8 Class I Wilderness Areas that were part of the study. The 
agency was also active in the development of control strategy 
options including providing the Commission with analyses of the 
possible impacts of both wildfire and of increased prescribed 
fire programs in the west. Of the 16 Class I Federal Areas 
considered by the Commission, 8 are managed by the Forest 
Service. The commission process brought together not only the 
Federal land managers, but also tribes, states, state 
regulators, and the EPA.
    The Commission looked at land management protection 
responsibilities as well as the polluting side of our land 
management activities. We endorse the Commission 
Recommendations that represent a considered strategy for the 
protection of the 16 areas. However, it should be noted that 
the Commission analyzed visibility protection for less than 10 
percent of the Class I Federal Areas that the Forest Service 
manages and that those areas are similar in nature and regional 
concerns. Its regional nature is responsive to regional issues 
and its recommendations may not be fully applicable across the 
country. We commend the states and tribes involved for their 
commitment, and continue to work with them in the follow on 
``Western Regional Air Partnership'' (WRAP).

RESEARCH

    Research conducted by the Forest Service has determined 
that viewing the scenery through ``clean, fresh air'' is one of 
the most important wilderness attributes as determined by our 
wilderness users. This statement is probably true for most 
users of National Forest System lands. A significant Forest 
Service contribution to Clean Air Act objectives is provided 
through our Research program which focuses on the response of 
ecosystems and their components to air pollution including the 
effects of air pollution on trees and forests as well as ``acid 
rain'' deposition from both point sources and regional air 
pollution.
    A better understanding of the relationships between air 
pollution and forest ecosystem health is vital to making 
informed decisions to protect all forest ecosystems from damage 
by air pollutants. The need for an ecosystem approach to air 
pollution research is stressed in the Forest Ecosystems and 
Atmospheric Pollution Research Act of 1988 (Public Law 100-521) 
which directed the Forest Service to undertake adequate long-
term monitoring of the health of forest ecosystems. In 1990, we 
began implementation of a national Forest Health Monitoring 
program in six New England states. This program is currently 
conducted in close cooperation with 21 State forestry agencies 
and the EPA's Environmental Monitoring and Assessment Program.
    Research and development efforts are also underway to 
identify the amount and composition of emissions from 
prescribed and wildfire in support of the Grand Canyon 
Recommendations.

FOREST SERVICE MANAGEMENT ACTIONS--PERMIT APPLICATION REVIEW

    The Forest Service has a number of responsibilities in the 
implementation of the Clean Air Act. The 1977 Clean Air Act 
Amendments require us to protect air quality related values, 
including visibility, in Class I Federal Areas through the 
permit review process. Those related resource values include 
soils, vegetation, and stream and lake chemistry as well as 
their dependent fish and wildlife populations. Effects on these 
related resources may take years to be identified, but we do 
know that we have many Class I Federal Areas with visibility 
problems and some level of associated changes in water 
chemistry, soil degradation, and visible damage to vegetation.
    The role of the Forest Service, and our sister agencies, 
has been to notify states when our expertise, measurements and 
analysis indicate that proposed, or existing, air pollution 
sources, are adversely affecting the lands we manage. We view 
our role in visibility protection as being an active partner 
with the appropriate State and EPA in working to ensure that 
new sources are using the best control technologies and 
mitigation to minimize their visibility impacts. We have very 
effective working relationship with all states that host Forest 
Service Class I Areas.
    Monitoring information is used by the Forest Service to aid 
in the review of new source applications, or major modification 
to existing sources under the Prevention of Significant 
Deterioration (PSD) provision of the Clean Air Act. This means 
that when an applicant wants to start or modify an activity 
that will result in new pollution we have the responsibility to 
review their application, identify the potential impacts to 
Class I Federal Areas, and make mandatory recommendations to 
the state for mitigation.
    Since a 1990 GAO review of Federal agency activities in 
support of the Act, the Forest Service has tracked the number 
of permits we review and publish that information in the Annual 
Report of the Forest Service. Generally, we review between 40 
and 60 applications per year. Of all the applications we have 
reviewed over the years we are aware of only one where the 
project did not proceed and that was, in part, due to concerns 
related to potential Class I Federal Area impacts. Our 
approach, frequently successful, has been to seek solutions 
through collaboratively identified mitigation. We do believe 
that our participation has resulted in modifications to a 
number of projects so that they did not adversely affect our 
Class I wildernesses.

REVIEW OF EXISTING SOURCES

    A second component of the Prevention of Significant 
Deterioration (PSD) provision allows the Forest Service to 
identify existing sources that can be ``reasonably attributed'' 
to be the cause of adverse visibility impacts in Class I 
Federal areas. Regulatory agencies then identify the best 
available retro-fit technology (BART) needed to mitigate the 
identified impacts.
    The agency has taken actions in several states to protect 
visibility and fragile ecosystems from existing sources. In 
1993 Regional Forester Elizabeth Estill formally certified to 
the governor of Colorado that visibility in the Mt. Zirkel 
Wilderness were being adversely affected by emissions from two 
coal-fired power plants in northwestern Colorado. Supporting 
information provided by the Regional Forester included impacts 
to aquatic ecosystems. The agency worked with the State and 
Region VIII EPA in verifying the adverse effects of the two 
sources on the Wilderness. As a result, the State issued an 
order to one of the two sources to significantly reduce 
emissions, and construction of the necessary control equipment 
at that facility is underway as we speak. Studies to determine 
the amount of air pollution control that is appropriate for the 
other source are ongoing.
    In 1996 Regional Forester John Lowe notified the State of 
Washington that the visibility in the Goat Rocks and Alpine 
Lakes Wildernesses was being adversely affected by pollution 
from a coal-fired power plant in Centralia, Washington. 
Supporting information provided by the Regional Forester 
included impacts to wilderness water quality. This source is 
the largest in the western United States, emitting up to 75,000 
tons/year of sulfur dioxide, more than half of the sulfur 
emitted in the state. In that case the Forest Service and Park 
Service worked collaboratively with the plant owners and 
regulatory agencies to achieve a mediated settlement that will 
provide a 90 percent reduction in sulfur emissions from that 
plant by 2002.

OVERALL AIR QUALITY MODELLING

    We have found though monitoring that poor visibility can be 
an indicator of other problems in the ecosystems such as acute 
vitrification of soils in the Los Angeles area. We have 30 
years of research on ozone damage to the vegetation and the 
visibility situation can be so severe in the San Gorgonio 
Wilderness, on the worst days, that the photo labs will not 
print the photograph from our camera station--there is nothing 
to see.

THE CHANGING RULES

    There are three clear changes in air quality standards and 
regulations that EPA has promulgated or proposed that may 
significantly benefit forest health and users of National 
Forest System lands: the promulgated changes to the fine 
particulate (PM 2.5) and ozone standards, and the proposed 
change to the regional haze rule. The three work together. The 
new ozone rules include a secondary standard that is identical, 
except for monitoring requirements, to the new primary standard 
and should provide substantially improved protection. This will 
help address the effects that our researchers have documented 
ozone on vegetation in southern California and the southern 
Appalachian mountains. In addressing ozone, controls will be 
provided for nitrogen oxides that are affecting Class I Areas 
in the Northeast, southern California, and the Rocky Mountains. 
If this were to progress, there would be irreversible losses of 
soil nutrients. Even now the Forest Service is evaluating the 
cost effectiveness of applying lime to areas to reduce 
acidification.
    The new particulate standards, combined with the proposed 
regional haze rule enlist everyone in considering pollution 
controls that will benefit both human health and welfare. The 
PM2.5 standard reflects the size of particles that have more of 
an effect on visibility. The precursors to Ozone form some of 
these particles and degrade the visibility. The EPA has 
proposed an integrated approach that has the potential to move 
us toward progress on three fronts at the same time.
    EPA's changes are directed much more to the States and say 
little about the Federal Land Manager role. However, our 
``affirmative responsibilities'' to protect air quality related 
values remain intact. The states have responsibility for 
implementation of the Clean Air Act and the development of 
programs to make progress in implementing these new rules. The 
Federal land managers' role is, and should be, monitoring, 
providing recommendations, and helping to mitigate potential 
problems.
    Implementation of the proposed haze rule may affect our 
land management activities. We believe that we will have to be 
more responsive in our prescribed fire program planning and 
implementation. Some of the potential changes include: (1) 
maximizing the utilization of fuelwood, (2) modifications to 
project level planning and monitoring, (3) improving our 
practical prescribed fire and smoke management program skills, 
and (4) there may be some potential need to modify our 
visibility monitoring. Future modifications to other Forest 
Service management activities will be explored in the next 
several years.
    As I mentioned earlier, we are implementing many of the 
Grand Canyon recommendations and are working to improve our 
understanding of the differences between smoke released through 
prescribed fire and wildfire.

POTENTIAL CHANGES IN FOREST SERVICE ROLE

    The Forest Service is in the midst of preparing comments on 
the proposed regional haze rule for EPA's consideration and to 
say anything about those potential comments at this time would 
be inappropriate. We appreciate the efforts that EPA has 
undertaken to assure that our comments, and the public's, help 
influence the final rule.
    The Forest Service does take its role as Federal Land 
Manager under the Clean Air Act very seriously. We do a lot of 
monitoring and coordination with the states that doesn't show 
up much in the budget or on the front pages of any newspapers. 
We have a cadre of over 35 professional people working full 
time in air quality across the country and an additional 55 who 
handle local issues as the need arises. The Forest Service role 
in implementing the Clean Air Act may change depending on the 
final rule and how the individual states implement it.
    The reasonable progress standards of 1 DeciView per 10 to 
15 years will require that we continue to assist states in 
monitoring and data analysis. If a state or regional 
institution chooses not to use that standard, then we might 
have a larger role in working with them to establish a 
different measure of reasonable progress. This may mean 
cooperative efforts similar to the Grand Canyon Commission 
which will take time but, as you can tell from Governor 
Levitt's testimony, result in strong commitments.
    We already coordinate closely with the states that have 
visibility Implementation Plans (IPs). The proposed rule will 
mean that more states and tribes will need to develop regional 
haze IPs. We would anticipate that our workload in support 
these efforts will increase until such time as the plans are in 
place. Our role in monitoring will continue to be a cooperative 
one between the FS, EPA, DOI, and the states but on a 
potentially larger scale.
    Regardless of the changes that EPA has proposed, the Forest 
Service believes that we need to increase the use of prescribed 
fire. We will do what we can to find markets for, and 
mechanically remove, excess fuels but believe there still will 
be increases in smoke emissions and a resultant impact on 
visibility. Solid smoke management on our part will result in a 
program consistent with state implementation plans and 
visibility objectives. Efforts currently underway with EPA, in 
support of the interagency fire policy, and in cooperation with 
the Grand Canyon Visibility Transport Commission, indicate that 
we need to do a better job of quantifying how much we need to 
burn and where.
    The proposed rule would change and strengthen the states' 
role in determining what to do about existing sources that are 
causing visibility impairment. The rule, as proposed, allows 
the states flexibility in addressing a specific set of sources 
that would move us towards a more collaborative approach to 
identifying the appropriate best available retro-fit 
technology. We strongly endorse that approach.

CLOSING

    Visibility is an important resource that our forest users 
value. While it is difficult to put a dollar value on its 
importance, when we ask what brought people to recreate or use 
the national forests and wildernesses, ``clean air'' always 
makes it to the top of the list.
    Forest Service Class I Federal Area visibility and related 
resource impacts are a microcosm of a far larger picture. 
Progress that can be made in addressing these issues in an 
integrated way, from the standpoint of landscape scale and 
intergovernmental coordination, will go a long way towards 
addressing the problems we face nationally. Over the last 20 
years we have learned much about air quality relationships with 
the ecosystems that we manage and the effects of our management 
activities. We are looking forward to working with the EPA and 
States to improve decisions about needed pollution controls and 
land management activities.
    That completes my formal statement. I would be happy to 
answer any questions.
                                ------                                


                             BRIEFING PAPER

                             Regional Haze

SUMMARY

    This oversight hearing will focus on the Environmental 
Protection Agency's (EPA) proposed rule on regional haze and 
the effect of the United States Forest Service (USFS) fire and 
fuels management policies on regional haze. The hearing will 
concentrate primarily on the interrelationship between 
prescribed fires, silvicultural treatments, and the proposed 
regional haze rules.
    The EPA is currently developing a final rule on regional 
haze. The rule would require a one deciview improvement (a 
measure of visible improvement) every ten to fifteen years. 
There are many concerns with the proposed rule. These concerns 
range from doing too little, to doing too much. One concern, 
especially from Westerners, is that the EPA's rule would place 
significant management restrictions on land managers and 
increase economic burdens on utilities and manufacturers. There 
are also concerns that the emissions from wildfire and 
prescribed fire will not be fully accounted for by the EPA and, 
therefore, will place a heavy burden on industry.
    The USFS has acknowledged that 40 million acres of its 
lands are at high risk of catastrophic fire. At the same time, 
the USFS has stated its intentions to increase its use of 
prescribed fire without adequately addressing alternative 
methods for fuels reduction--to prevent catastrophic wildfires, 
minimize damage from wildfires when ignited (through use of 
fuel breaks or mechanical thinnings), and recover economically 
valuable materials prior to burning.

BACKGROUND

    On July 31, 1997, the EPA published a notice of proposed 
rulemaking for regional haze regulations in the Federal 
Register. These regulations would establish a program that 
addresses regional haze in Class I Federal areas (national 
parks, wilderness areas, and national monuments). The EPA 
proposes that visibility should improve by one ``deciview'' (a 
measure of visible improvement) every 10 to 15 years. The 
comment period on the proposed rule was extended once and ended 
December 5, 1997. The rule (as proposed) would require states 
to revise their State Implementation Plans (SIP) for air 
quality to address regional haze within twelve months after 
promulgation of a final rule.
    On June 9, 1998, the President signed Public Law 105-178, 
the Transportation Equity Act for the 21st Century (TEA-21). 
The law includes provisions that allow nonattainment areas for 
the 1997 Particulate Matter 2.5 (PM<INF>2.5</INF>) standard to 
submit their revised SIP for regional haze at the same time 
they submit their revised SIP for the National Ambient Air 
Quality Standards (NAAQS) for fine particulate matter. This 
would ensure that EPA's implementation schedules for 
particulate matter and regional haze are consistent. It is 
important to note that the air quality implementation schedule 
for areas that are designated as ``attainment'' will not be 
delayed by TEA-21. The EPA has received requests to reopen the 
rulemaking comment period to put all areas, attainment and 
nonattainment, on the same implementation schedule.

Legislative History

    In 1977, Congress added Section 169(A) to the Clean Air Act 
(CAA). This section established a national visibility goal for 
Class I Federal areas. The 156 Class I areas include national 
parks, wilderness areas, and national monuments. Section 169(A) 
is intended to prevent any new, and mitigate any present, 
manmade impairment to visibility in these areas.
    Thirteen years later, in 1990, Congress again amended the 
CAA, and required the EPA to establish the Grand Canyon 
Visibility Transport Commission (Commission). The Commission 
released its recommendations in 1996, including one 
specifically dealing with fire. The Commission recommended 
minimizing emissions and visibility impacts through public 
education, enhanced smoke management plans, and the removal of 
administrative barriers to using alternatives to prescribed 
burning.
    Between the time that Congress established the Commission 
and the release of the Commission's recommendations, the 
National Academy of Sciences (NAS) published Protecting 
Visibility in National Parks and Wilderness Areas (1993). The 
NAS report found that visibility in the East is currently one 
fifth of its natural range and that visibility in the West is 
one-half of its natural range. The NAS report made eight 
conclusions to improve air quality.

ANALYSIS

Land Management Opportunities to Reduce Emissions

    The hearing will examine the effect of the EPA's proposed 
rule on the use of prescribed fire on national forests. 
Significantly, the Forest Service has stated that forty million 
acres of its land are susceptible to catastrophic wildfire and 
will significantly increase its use of prescribed fire to 
address this risk. The Department of the Interior has also 
announced a 400 percent increase in the use of prescribed fire.
    Fire is an important tool in the management of our forests. 
As the agencies move towards restoring the historical presence 
of fire in Federal forestlands, they must also reduce the fuels 
that have accumulated during eighty years of diligent fire 
suppression. In many areas, mechanical methods to reduce fuels 
prior to the use of fire will not only minimize the particulate 
emissions from fires but also allow for the utilization of many 
forest products which, if left to burn, would be economically 
lost. Similarly, wildfires that burn today are larger and more 
intense than historical wildfires. Acre for acre, wildfires 
contribute more particulate matter to the air than prescribed 
fires. Land managers have taken innovative approaches to 
mitigating the effects of wildfires in specific areas using 
fuel breaks. Such plans could prove useful in reducing the 
particulate emissions from wildfires.

Concerns with the Proposed Rule

    Many private and industrial forest landowners are concerned 
that the EPA's NAAQS and proposed regional haze rules will 
discriminate against the use of prescribed fire on public and 
private lands, while allowing ``natural'' wildfires to burn in 
parks and wilderness areas.
    Others have pointed out that the increased emissions from 
wildfire and prescribed fire will offset any gains in air 
quality that the utilities and other industries may achieve by 
reducing point source emissions under the CAA. They argue that 
the proposed regional haze rules, in particular, will have a 
greater impact on industrial facilities and operations than the 
ozone and particulate matter NAAQS, since the NAAQS apply to 
specific nonattainment areas while the regional haze program 
could apply to all areas within the 50 states.
    EPA responds that under the proposed rule, fine particulate 
matter from ``natural'' wildfire would be acceptable. EPA's 
proposal would also permit emissions from prescribed fire as 
long as the fire is conducted in compliance with state smoke 
management programs. Yet a report by the Commission pointed out 
that ``emissions from fire, both wildfire and prescribed fire, 
is likely to have the single greatest impact on visibility in 
Class I areas through 2040.'' In addition, it remains unclear 
to what extent the EPA and the CAA will limit the states' 
discretion under the regional haze rule.
    Additionally, EPA has suggested that emissions from fires 
on Federal lands would somehow be mathematically ``removed'' 
from the measured levels of visibility impairment. However, 
critics are concerned that unless EPA can guarantee that it can 
account for all fires on Federal lands, and distinguish their 
effects from all other combustion sources, states will be 
forced to over-regulate non-Federal sources to make up for 
unaccounted emissions from Federal fires. EPA has admitted that 
the data on fires collected by Federal land managers does not 
allow this. According to the EPA's Interim Air Quality Policy 
on Wildland and Prescribed Fires, ``The data are not collected 
for the purpose of calculating air pollutant emissions and are 
probably inadequate for that purpose.''

Regional Impacts of the Proposed Rule

    It is important to note that the West will incur a 
disproportionate amount of the regulatory burden as most Class 
I Federal areas are located in the West. In addition an 
increment of improvement in the West will require significantly 
more effort than in the East, due to better overall air quality 
in the West.

Recommendations

    Environmental groups believe the proposed rule does not go 
far enough because they think the one deciview standard is to 
low will take too long to achieve improved air quality. Others 
believe the standard is too high, especially where air quality 
is already good.
    The Western Govemors Association (WGA) recommended that EPA 
modify its rule and develop a program for the Western U.S., 
building from the recommendations of the Grand Canyon 
Commission. Others have expressed concern that under the WGA 
proposal the impact on visibility from prescribed fires in the 
West would increase.
    Finally, several groups have asked that EPA reopen the 
comment period on the proposed rule. An extension would provide 
additional time for the public to address specific concerns 
that have been raised with the proposed rule and would be 
reasonable given the delayed implementation schedule under TEA-
21.

[GRAPHIC] [TIFF OMITTED] T0377.001

[GRAPHIC] [TIFF OMITTED] T0377.002

[GRAPHIC] [TIFF OMITTED] T0377.003

[GRAPHIC] [TIFF OMITTED] T0377.004

[GRAPHIC] [TIFF OMITTED] T0377.005

[GRAPHIC] [TIFF OMITTED] T0377.006

[GRAPHIC] [TIFF OMITTED] T0377.007

[GRAPHIC] [TIFF OMITTED] T0377.008

[GRAPHIC] [TIFF OMITTED] T0377.009

[GRAPHIC] [TIFF OMITTED] T0377.010

[GRAPHIC] [TIFF OMITTED] T0377.011

[GRAPHIC] [TIFF OMITTED] T0377.012

[GRAPHIC] [TIFF OMITTED] T0377.013

[GRAPHIC] [TIFF OMITTED] T0377.014

[GRAPHIC] [TIFF OMITTED] T0377.015

[GRAPHIC] [TIFF OMITTED] T0377.016

[GRAPHIC] [TIFF OMITTED] T0377.017

[GRAPHIC] [TIFF OMITTED] T0377.018

[GRAPHIC] [TIFF OMITTED] T0377.019

[GRAPHIC] [TIFF OMITTED] T0377.020

[GRAPHIC] [TIFF OMITTED] T0377.021

[GRAPHIC] [TIFF OMITTED] T0377.022

[GRAPHIC] [TIFF OMITTED] T0377.023

[GRAPHIC] [TIFF OMITTED] T0377.024

[GRAPHIC] [TIFF OMITTED] T0377.025

[GRAPHIC] [TIFF OMITTED] T0377.026

[GRAPHIC] [TIFF OMITTED] T0377.027

[GRAPHIC] [TIFF OMITTED] T0377.028

[GRAPHIC] [TIFF OMITTED] T0377.029

[GRAPHIC] [TIFF OMITTED] T0377.030

[GRAPHIC] [TIFF OMITTED] T0377.031

[GRAPHIC] [TIFF OMITTED] T0377.032

[GRAPHIC] [TIFF OMITTED] T0377.033

[GRAPHIC] [TIFF OMITTED] T0377.034

[GRAPHIC] [TIFF OMITTED] T0377.035

[GRAPHIC] [TIFF OMITTED] T0377.036

[GRAPHIC] [TIFF OMITTED] T0377.037

[GRAPHIC] [TIFF OMITTED] T0377.038

[GRAPHIC] [TIFF OMITTED] T0377.039

[GRAPHIC] [TIFF OMITTED] T0377.040


</pre></body></html>
